     Department of Homeland Security

     ��������������������������



        Adequacy of USSS Efforts to Identify, 

 Mitigate, and Address Instances of Misconduct and 

               Inappropriate Behavior 


                    (Redacted)





OIG-14-20                              December 2013

                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                                 Washington, DC 20528 I www.oig.dhs.gov


                                     December 19, 2013


MEMORANDUM FOR :              The Honorable Julia Pierson
                              Director
                               nited States Secret Service

FROM:                           a~nn
                                      OQ~'-
                              Chief Operating Officer

SUBJECT:                      USSS' Efforts To Identify, Mitigate, and Address Instances of
                              Misconduct and Inappropriate Behavior- Redacted

Attached for your action is our final report, USSS' Efforts To Identify, Mitigate, and Address
Instances of Misconduct and Inappropriate Behavior - Redacted. We incorporated the
formal comments from the United States Secret Service in the final report.

The report contains 14 recommendations aimed at improving processes for identifying,
mitigating, and addressing instances of misconduct and inappropriate behavior. Your office
concurred with all recommendations. Based on information provided in your response to
the draft report and supporting documentation, we consider recommendations #1 through
#10, and #13 closed. We consider recommendation #12 resolved and open. Once your
office has fully implemented this recommendation, please submit a formal closeout letter
to us within 30 days so that we may close the recommendation. The memorandum should
be accompanied by evidence of completion of agreed-upon corrective actions. Please email
a signed PDF copy of all responses and closeout requests to
OIG InspectionsFollowup@oig.d hs.gov.

We consider recommendations #11 and #14 open and unresolved. As prescribed by the
Department of Homeland Security Directive 077-01, Follow-Up and Resolutions for Office of
Inspector General Report Recommendations, within 90 days of the date of this
memorandum, please provide our office with a written response that includes your
corrective action plan and target completion date for recommendations #11 and #14. Also,
please include responsible parties with any supporting documentation necessary to inform
us about the current status of the recommendations.

Consistent with our responsibility under the Inspector General Act, we will provide copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post a redacted version
of the report on our website.
                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


    Please call me with any questions, or your staff may contact Deborah Outten-Mills, Acting
    Assistant Inspector General, Office of Inspections, at (202) 254-4015.

    Attachment




                                                2
www.oig.dhs.gov                                                                    OIG-14-20
                                          OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1 


   Background ........................................................................................................................ 2 


   Results of Review ................................................................................................................ 8 


              We Did Not Discover Evidence that Misconduct or Inappropriate Behavior is 

               Widespread in USSS ........................................................................................... 10 


              Survey Respondents Have Varying Perceptions of Whether Management 

                Tolerates Misconduct and Holds Employees Accountable................................ 31 


              Survey Results for Reporting Inappropriate Behaviors Related to Conduct 

                Standards and Adjudicative Guidelines ............................................................. 36 


              USSS Needs To Clarify When Misconduct Cases Should Be Handled by Managers
               and Supervisors.................................................................................................. 43 

              Recommendations ................................................................................................ 44 

              Management Comments and OIG Analysis ......................................................... 44 


              USSS Did Not Fully Investigate Allegations that an Employee Engaged in
               Misconduct While on Official Travel in a Foreign Country ................................ 45

              Recommendations ................................................................................................ 49 

              Management Comments and OIG Analysis ………………………………………………………50

              Policies and Procedures for Proposing and Issuing Discipline are Insufficient .... 50 

              Recommendations ................................................................................................ 59 

              Management Comments and OIG Analysis .......................................................... 59 


              USSS is Not Always in Compliance with Federal Disciplinary Regulations ........... 60

              Recommendations ................................................................................................ 62 

              Management Comments and OIG Analysis .......................................................... 63 


              Internal Controls are Insufficient to Ensure Discipline is Aligned with Agency
                Principles ............................................................................................................ 63 

              Recommendations ................................................................................................ 68 

              Management Comments and OIG Analysis .......................................................... 68 




www.oig.dhs.gov                                                                                                              OIG-14-20
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


           Adjudication of Discipline and Security Concerns Following the Cartagena
            Incident .............................................................................................................. 70

           Security Appeals Board Appointments and Composition Need Attention .......... 74 

           Recommendations ................................................................................................ 75 

           Management Comments and OIG Analysis .......................................................... 75 


   Appendixes
           Appendix A: Objectives, Scope, and Methodology ............................................ 77
           Appendix B: Management Comments to the Draft Report ............................... 83
           Appendix C: About Survey Items........................................................................ 90
           Appendix D: Results of Electronic Surveys ......................................................... 91
           Appendix E: Results of In-person Surveys ....................................................... 104
           Appendix F: Adjudicative Guidelines for Determining Eligibility for Access to
                       Classified Information ................................................................. 117
           Appendix G: Disposition Summaries for 13 Employees Investigated in
                       Connection with Events in Cartagena ......................................... 122
           Appendix H: Contributors to This Report ......................................................... 136
           Appendix I: Report Distribution ...................................................................... 137

   Abbreviations
           ATSAIC                Assistant to the Special Agent in Charge
           CBP                   U.S. Customs and Border Protection
           CSO                   Chief Security Officer
           DHS                   Department of Homeland Security
           ERB                   Employee Relations Branch
           FBI                   Federal Bureau of Investigation
           FFN                   female foreign national
           ICE                   U.S. Immigration and Customs Enforcement
           ISP                   Inspection Division (USSS)
           MSPB                  Merit Systems Protection Board
           NCCA                  National Center for Credibility and Assessment
           OCC                   Office of Chief Counsel (USSS)
           OIG                   Office of Inspector General
           PRWG                  Professionalism Reinforcement Working Group
           RES                   Office of Professional Responsibility
           The Board             Security Appeals Board
           SAIC                  Special Agent in Charge

www.oig.dhs.gov                                                                                                          OIG-14-20
                     OFFICE OF INSPECTOR GENERAL
                        Department of Homeland Security


           SCD    Security Clearance Division
           TSA    Transportation Security Administration
           USSS   United States Secret Service




www.oig.dhs.gov                                            OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   In April 2012, United States Secret Service (USSS) employees were preparing for a
   Presidential visit to the Summit of the Americas in Cartagena, Colombia. While off duty,
   several employees were suspected of soliciting prostitutes and consuming excessive
   amounts of alcohol. We assessed the adequacy of the agency’s efforts to identify,
   mitigate, and address instances of misconduct and inappropriate behavior. To satisfy
   our review objectives, we (1) interviewed more than 200 USSS supervisors, managers,
   and senior officials; (2) administered an electronic and in-person survey with a
   combined response rate of 41 percent; (3) reviewed USSS internal affairs cases;
   (4) analyzed discipline records; and (5) analyzed personnel security records.

   Although individual employees have engaged in misconduct or inappropriate behavior,
   we did not find evidence that misconduct is widespread in USSS. Furthermore, we did
   not find any evidence that USSS leadership has fostered an environment that tolerates
   inappropriate behavior. Of the 2,575 employees who responded to our electronic
   survey, 2,144 (83 percent) indicated they were not aware of USSS employees engaging
   in any of six behaviors that were displayed in Cartagena. Additionally, 61 percent of
   survey respondents believed management does not tolerate misconduct.

   Some of the employees involved in the Cartagena incident claimed that the Secret
   Service did not afford them due process, mistreated those involved in the incident, and
   did not adjudicate their case consistent with comparable prior incidents. Of the 13
   employees suspected of soliciting prostitutes, 3 employees returned to duty, 6 either
   resigned or retired, and 4 had their clearances revoked and were removed. We
   determined that Secret Service’s security clearance actions were consistent and based
   on facts from internal inquiries.

   We are making 14 recommendations to improve the Secret Service’s processes for
   identifying, mitigating, and addressing instances of misconduct and inappropriate
   behavior. Specifically, it needs to (1) enhance policies related to reporting and
   investigating employee misconduct and security concerns; (2) strengthen procedures for
   proposing and issuing discipline; (3) ensure compliance with Federal disciplinary
   regulations; (4) ensure discipline is aligned with agency disciplinary principles; and (5)
   ensure appointments to the Security Appeals Board are made according to policy. Prior
   to the initiation of our field work, USSS began implementing and taking action on the
   recommendations from an outside group of experts assembled by the former Director.




www.oig.dhs.gov                                1                                    OIG-14-20
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Background
   The USSS is a Federal law enforcement agency within the Department of Homeland
   Security (DHS), with headquarters in Washington, DC, and more than 150 offices
   throughout the United States and abroad. It has a dual mission: (1) to safeguard the
   Nation’s financial infrastructure and payment systems, and (2) to protect national
   leaders, visiting heads of state and government, designated sites, and high-profile
   events.1 At the time of our field work, USSS employed approximately 3,200 Special
   Agents, 1,300 Uniformed Division officers, and more than 2,000 technical, professional,
   and administrative support personnel.

   USSS appoints Special Agents, Uniformed Division officers, Special Officers, Protective
   Support Technicians, and Physical Security Specialists in the excepted service under
   Schedule B. 2 Executive Order 11203 allows USSS to convert employees appointed under
   Schedule B to career status after completing at least 3 years of continuous service if
   they are in positions concerned with the protection of the life and safety of the
   President, members of his immediate family, or other persons for whom similar
   protective services are required. If the appointments made under Schedule B are not
   converted to career status 120 days after meeting 3 years of continuous service, the
   appointment will expire. The expiration of that appointment is not an adverse action
   that is subject to appeal. 3 Most other administrative, professional, and technical
   employees are hired as career status employees.

             Addressing Misconduct

             All USSS employees must maintain a Top Secret security clearance,4 which grants
             the employee access to information which reasonably could be expected to
             cause exceptionally grave damage to the national security if disclosed without
             authorization. 5 When employees who possess a Top Secret security clearance
             engage in misconduct, agencies may address their misconduct in two ways. First,
             the behavior may violate agency standards of conduct and warrant disciplinary
             action. Second, the behavior may cause a security concern, and an agency can
             review the employees’ access to classified information in light of their
   1
     18 U.S.C. § 3056.

   2
     The excepted service consists of those civil service positions which are not in the competitive service or the Senior 

   Executive Service (See 5 U.S.C. § 2103). Excepted positions under Schedule B are those other than a confidential or

   policy-determining character for which it is not practicable to hold a competitive examination (See 5 CFR § 6.2). 

   3
     5 CFR § 752.401(b)(11) 

   4
     USSS designated full-time employees at least Critical Sensitive, requiring that they hold at least a Top Secret security 

   clearance per DHS Instruction, 121-01-007, Personnel Suitability and Security Program (Revision 00). See SCD-02(01): 

   Special Security Clearances Requirements and Reporting.

   5
     Executive Order 13292 Sec. 1.2(1) 


www.oig.dhs.gov                                                2                                                  OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


              misconduct.

              A disciplinary action seeks to correct employee conduct and improve the
              efficiency of the agency. The goal of a security clearance evaluation is to
              determine whether a person’s access to classified information is clearly
              consistent with the interests of the national security. A security clearance
              evaluation is not a disciplinary action. Disciplinary actions and security clearance
              adjudications are separate processes.

              However, because USSS employees must maintain a Top Secret security
              clearance, USSS prefers to resolve security concerns before considering
              disciplinary action. USSS may still discipline an employee even after a security
              clearance concern is resolved in the employee’s favor. Employees have different
              appellate rights under each process.

              Disciplinary Actions

              Federal agencies take disciplinary actions to correct employee misconduct that
              adversely affects the efficiency of the service and to encourage employee
              conduct in compliance with standards of conduct, policies, goals, work
              procedures, and practices of the agency. USSS employees may be disciplined for
              a wide range of policy violations including time and attendance, misuse of
              government property or vehicles, sexual misconduct, or alcohol and drug-related
              incidents. Managers are responsible for administering matters and rendering
              decisions resulting in disciplinary or adverse action.

              The USSS Employee Relations Branch (ERB) is responsible for advising on matters
              including, but not limited to:

                   •	   the advisability of taking an action;
                   •	   the basis for taking an action;
                   •	   the appropriate action to be taken;
                   •	   the ensuring of adherence to all procedural requirements; and
                   •	   the preparation of all documentation necessary to effect an action so as
                        to ensure conformance to prescribed regulations and procedures.6

              Any official contemplating an action against an employee must contact the ERB
              for guidance before initiating that action. Additionally, ERB prepares letters of
              reprimand and notices of proposal and decision. Managers then issue the letters,

   6
       USSS Human Resources and Training Manual PER-11 (01)

www.oig.dhs.gov                                           3	                             OIG-14-20
                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


               proposals, or notices to employees.

               According to USSS Human Resources and Training Manual section PER-11(01),
               the intent of discipline is to correct unacceptable behavior and should only be as
               severe as is necessary to bring about the desired change. However, the discipline
               should also be consistent with past administered discipline for the same offense.

               There are three levels of disciplinary actions: informal, formal, and adverse.
               Informal actions, such as oral counseling or a memorandum of counseling are
               the least severe forms of discipline at USSS. There are no Federal or USSS policies
               guiding the use of informal discipline. Employees can grieve a memorandum of
               counseling.

               A formal action at USSS is a letter of reprimand. There are no Federal policies
               guiding the use of letters of reprimand. However, USSS policy requires that they
               be maintained in the employee’s official personnel folder for a minimum of 1
               year and a maximum of 3 years. Managers must consult ERB officials before
               issuing a letter of reprimand. ERB officials prepare the letter for the manager’s
               signature. The letter notifies the employee of his or her right to challenge the
               action by filing a grievance. Employees can also request all materials relied upon
               as a basis for the letter of reprimand.

               Adverse actions are suspensions without pay, reductions in pay or grade, and
               removals. Before management can impose an adverse action on an employee,
               the employee has a right to due process under procedures set forth in Federal
               law and regulations. 7 These provisions do not apply to excepted or competitive
               service employees serving a probationary or trial period. 8 An employee against
               whom a suspension for 14 days or less is proposed is entitled to:

                    •	 a notice of proposed action that states specific reason(s) for the
                       proposed action, and informs the employee of his or her right to review
                       the material which is relied on to support the reasons for action given in
                       the notice;
                    •	 a reasonable time, but not less than 24 hours, to answer orally and in
                       writing, and to furnish affidavits and other documentary evidence in
                       support of the answer;
                    •	 be represented by an attorney or other representative;
                    •	 the consideration by the agency of only the reasons specified in the

   7
       5 U.S.C. Chapter 75 and 5 CFR Part 752
   8
       5 U.S.C. § 7511(a)(1)(C) and 5 U.S.C. 7501(1)

www.oig.dhs.gov                                           4	                             OIG-14-20
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


                     notice of proposed action and any answer of the employee or his or her
                     representative, or both, made to a designated official; and
                  •	 a written notice specifying the reason(s) for the decision and an
                     advisement of any grievance rights. 9

            Similar procedures exist for employees to whom a suspension of more than 14
            days, a reduction in grade or pay, or removal is proposed.10 Additionally, certain
            employees are entitled to appeal to the Merit Systems Protection Board
            (MSPB). 11 MSPB is an independent, quasi-judicial agency in the Executive branch
            that hears appeals of adverse actions, among other agency actions. USSS policies
            provide additional guidance for administering adverse actions.

            Security Clearance Evaluations

            Security clearance adjudications evaluate employees’ reliability, trustworthiness,
            and ability to protect classified information. An agency’s decision to evaluate
            whether an employee should retain a security clearance and access to classified
            information is triggered by employee behavior that causes a security concern
            under one or more of 13 Adjudicative Guidelines for Determining Eligibility for
            Access to Classified Information (Adjudicative Guidelines): 12

                  •	   Guideline A: Allegiance to the United States
                  •	   Guideline B: Foreign Influence
                  •	   Guideline C: Foreign Preference
                  •	   Guideline D: Sexual Behavior
                  •	   Guideline E: Personal Conduct
                  •	   Guideline F: Financial Consideration
                  •	   Guideline G: Alcohol Consumption
                  •	   Guideline H: Drug Involvement
                  •	   Guideline I: Psychological Conditions
                  •	   Guideline J: Criminal Conduct
                  •	   Guideline K: Handling Protected Information
                  •	   Guideline L: Outside Activities
                  •	   Guideline M: Use of Information Technology Systems



   9
     5 CFR §752.203
   10
      5 U.S.C. § 7511
   11
      5 U.S.C. § 7511(a)(1)
   12
      Memo from Stephen Hadley on December 29, 2005, Attachment A: “Revised Adjudicative Guidelines for
   Determining Eligibility for Access to Classified Information”.

www.oig.dhs.gov                                           5	                                              OIG-14-20
                                      OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


             For more information on behaviors that cause a security concern under these
             guidelines, see appendix F.

             During the adjudication process, the agency considers a number of variables
             known as the “whole person” concept. This concept requires that the agency
             must evaluate the behavior that could cause a security concern because of both
             favorable and unfavorable information about a person’s past and present. 13
             USSS’ Security Clearance Division (SCD) initiates, coordinates, monitors, and
             adjudicates all security clearance evaluations. SCD is also responsible for policies
             and procedures relating to the suspension, denial, and revocation of access to
             classified information. Federal, DHS, and USSS policies guide the process for the
             revocation of security clearances.14 After conducting an initial evaluation, the
             Chief of SCD either warns the employee that future incidents of a similar nature
             may result in revocation of access, or issues a Notice of Determination to the
             employee stating that his or her access to classified information has been
             revoked.

             The employee may appeal a security clearance revocation to USSS’ Chief Security
             Officer (CSO). If there is an appeal, the CSO reviews case documentation,
             considers the employee’s reply, and informs the employee of the decision to
             reverse or uphold the revocation in a Notice of Review. If the revocation is
             reversed, the Notice of Review states the basis for the action. If the revocation is
             upheld, the Notice of Review describes the process for filing an appeal with the
             DHS Security Appeals Board (the Board). The Board consists of three senior-level
             USSS officials. The Board makes decisions by majority vote, and its decisions are
             final. The Board considers each case on its own merits using the Adjudicative
             Guidelines.

             USSS’ Internal Investigation of Misconduct in Cartagena

             In April 2012, USSS employees were in Cartagena, Colombia, preparing for a
             Presidential visit to the Summit of the Americas. While off duty, several USSS
             employees solicited prostitutes. We analyzed the adequacy of USSS’ internal
             investigation of misconduct in Cartagena in our report, Adequacy of USSS’
             Internal Investigation of Alleged Misconduct in Cartagena, Colombia (OIG-13-24),
             January 2013. We determined that USSS responded expeditiously and

   13
      Memo from Stephen Hadley on December 29, 2005, Attachment A: “Revised Adjudicative Guidelines for
   Determining Eligibility for Access to Classified Information,” Section 2.
   14
      Memo from Stephen Hadley on December 29, 2005, Attachment A: “Revised Adjudicative Guidelines for
   Determining Eligibility for Access to Classified Information”; DHS Instruction, 121-01-007, Personnel Suitability and
   Security Program (Revision 00); and USSS Human Resources and Training Manual RPS- 02(02)

www.oig.dhs.gov                                               6                                                 OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           thoroughly to the allegations. We did not address the disposition of individual
           employee administrative proceedings related to their conduct in Cartagena.

           Professionalism Reinforcement Working Group Report

           In May 2012, in response to the Cartagena incident, the former USSS Director
           established the Professionalism Reinforcement Working Group (PRWG). The
           group was co-chaired by the Directors of the Office of Personnel Management
           and the Federal Law Enforcement Training Center, and had senior
           representatives from the Federal Bureau of Investigation (FBI), Department of
           Defense, and USSS. The former Director tasked the PRWG with reviewing USSS’
           internal controls on professional conduct; benchmarking the agency against the
           best practices of peer organizations; and identifying areas in which the USSS is
           best in class and areas that require improvement.

           The peer organizations that the USSS was benchmarked against include the FBI,
           U.S. Immigration and Customs Enforcement (ICE), Joint Special Operations
           Command, a component of the U.S. Special Operations Command, and the
           Bureau of Diplomatic Security at the Department of State. The PRWG made 17
           recommendations, including recommendations to improve USSS’ disciplinary
           system. USSS accepted these recommendations and created an action plan for
           their implementation. We reviewed the PRWG Report and the associated USSS
           action plan created to meet the working group’s recommendations.




www.oig.dhs.gov                                7                                    OIG-14-20
                                      OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Results of Review
   We found no evidence that USSS employees frequently engage in behaviors contrary to
   conduct standards or that could cause a security concern. Although some employees
   engaged in certain misconduct during a foreign assignment in Cartagena, we did not
   discover evidence that similar misconduct is widespread throughout the Secret Service.
   Disciplinary and security clearance cases show that, while not widespread, USSS should
   continue to monitor and address excessive alcohol consumption and personal conduct
   within its workforce. USSS is planning to identify and address trends in misconduct
   through the new position of Chief Integrity Officer.

   We conducted a survey of the USSS workforce to obtain employees’ views on
   misconduct and security clearance concerns. 15 We also sought to determine the
   adequacy of management controls in place to report misconduct or behaviors that could
   cause a security concern, whether management’s efforts and perceived attitudes
   encourage the reporting of misconduct and behaviors that could cause a security
   concern, and the adequacy of USSS’ process for adjudicating and administering
   discipline and security clearances. We invited 6,447 employees to complete the survey
   electronically; 2,575 employees (39.9 percent) did so.

   Our survey asked USSS employees the extent to which they agreed that violations of any
   law, rule, regulation, or standard of conduct were not tolerated within USSS. While 61
   percent of survey respondents believed management does not tolerate misconduct, 18
   percent of respondents disagreed.

   We also surveyed the USSS workforce to determine whether employees perceive that
   the six behaviors displayed by some employees in Cartagena are prevalent in USSS. Of
   the 2,575 employees who responded to our electronic survey, 2,144 (83 percent)
   indicated they were not aware of USSS employees engaging in

          •    Solicitation of prostitutes;
          •    Criminal sexual behavior;
          •    Other sexual behavior that can cause a security concern;
          •    Excessive alcohol consumption that can cause a security concern;
          •    Contact with foreign nationals that causes a security concern; and
          •    Personal conduct that can cause a security concern.

   USSS policy requires employees to report any behaviors that (1) violate the standards of
   conduct or (2) cause a security concern under the Adjudicative Guidelines. Survey
   15
        The survey results in our report are unweighted and represent only USSS employees who completed surveys.

www.oig.dhs.gov                                              8                                             OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   responses indicate that employees are knowledgeable of their responsibility to report
   such violations. The majority of electronic survey respondents (84 percent) indicated
   that they would report individuals whom they suspected of violating conduct standards.
   However, of those employees who indicated that they personally observed any of
   several behaviors that could cause a security concern, a small percentage of the
   respondents indicated that they reported the incident. USSS conduct policy requires
   that employees promptly and directly report to USSS’ Office of Professional
   Responsibility (RES), Inspection Division (ISP) or Office of Inspector General (OIG). In
   contrast to policy, 85 percent of electronic survey respondents believe the correct
   process is to report misconduct through their chain of command.

   USSS policy does not define which infractions would, at a minimum, require formal
   discipline. Because a manager’s obligation to contact ERB is based on the manager’s
   intention to administer formal discipline or adverse action, this obligation can be
   interpreted differently, leading to different approaches to misconduct across the
   agency. In addition, it is unclear whether ERB’s current tools are sufficient for
   recommending reasonable and consistent discipline.

   We determined that USSS complied with Federal requirements for an advance written
   notice and a reasonable timeframe for the employee to reply. However, summaries of
   employee oral replies to proposed actions were missing from more than 76 percent of
   the case files reviewed despite Federal law requiring agencies maintain such
   documentation. 16 Additionally, written replies were missing from 10 percent of these
   files.

   Although USSS policy states managers must give due consideration to applicable
   mitigating and aggravating circumstances, it does not provide managers guidance on
   how to consider these factors in the majority of cases. USSS policy also states that
   formal disciplinary and adverse actions should be consistent with other such actions
   taken by USSS for similar infractions. ERB maintains historical records of disciplinary and
   adverse actions. Therefore, for a manager to comply with USSS’ principle of consistency,
   the manager should propose and decide discipline in line with what ERB advises is
   consistent with the agency’s past disciplinary actions. In 28 percent of cases reviewed,
   the amount of discipline was outside the range of what ERB had recommended.
   Furthermore, USSS policy does not require managers document their consideration of
   the factors they use in determining the reasonableness of non-appealable disciplinary
   actions.



   16
        5 U.S.C. § 7513(e)

www.oig.dhs.gov                                 9                                    OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   According to USSS policy, a more severe disciplinary action than would otherwise be
   taken may be imposed upon an employee whenever that employee has previously
   received a written reprimand or a suspension. All prior discipline may be considered
   regardless of when it was administered. However, 55 percent of cases reviewed, the
   employees received a harsher discipline for their subsequent offense.

   USSS often administers penalties that are less severe than the range of recommended
   penalties at other DHS law enforcement components. The PRWG recommended that
   USSS consider establishing a table of penalties. USSS is currently reviewing its discipline
   data to identify common infractions and penalties, as well as other Federal law
   enforcement entities’ tables of penalties.

   We determined that security clearance actions for employees implicated in the
   Cartagena incident were based on facts gathered during the management inquiry in
   Cartagena and the ISP investigation. There was no evidence of bias during the security
   clearance revocation process.

   The Board is the third-level deciding authority for all DHS employees or applicants who
   are determined not to meet the standards for access to classified information. The
   Board is comprised of three USSS officials. Appointments to the Board and the
   composition of the Board have not been made in accordance with current policy.

           We Did Not Discover Evidence that Misconduct or Inappropriate Behavior Is
           Widespread in USSS

           The USSS expects its employees to comply with rules and standards of ethical
           conduct when on or off duty. Employees should also avoid any behavior that
           could cause a security concern under one of the adjudicative guidelines. We
           found no evidence that USSS employees frequently engage in behaviors contrary
           to conduct standards or that could cause a security concern. Although some
           employees engaged in certain misconduct during a foreign assignment in
           Cartagena, we did not find evidence that similar misconduct is widespread
           throughout the Secret Service. We based our conclusions on (1) interviews with
           more than 200 USSS supervisors, managers, and senior officials; (2) an electronic
           survey completed by 2,575 USSS employees, and an in-person survey
           administered to 161 USSS employees; (3) reviews of USSS internal affairs cases;
           (4) analysis of discipline records; and (5) analysis of personnel security records.

           Disciplinary and security clearance cases show that, while not widespread, USSS
           should continue to monitor and address excessive alcohol consumption and
           personal conduct within its workforce. USSS is planning to identify and address
www.oig.dhs.gov                                10                                     OIG-14-20
                              OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           trends in misconduct proactively through the new position of Chief Integrity
           Officer.

           Case Data Indicates that USSS Employees Do Not Frequently Engage in
           Behavior that Violates Conduct Standards

           Standards of conduct are documented in various manuals maintained within the
           USSS Directives System and cover areas such as general employee
           responsibilities and ethics; use of government systems and information
           technology; use of social media; use of government vehicles; firearms policies;
           and specific Uniformed Division officer requirements. The policies also include
           post-Cartagena reinforcements of conduct standards and specific guidance
           regarding off duty conduct on foreign assignments. USSS policy dictates that the
           absence of a specific published standard does not mean that such an act is
           condoned, permissible, or would not result in corrective or disciplinary action.

           From January 2004, to February 2013, USSS ERB tracked 824 incidents of
           employee misconduct. Excluding partial-year data from 2013, pending cases and
           cases with incomplete date information, there were 791 misconduct cases
           between 2004 and 2012 (see figure 1). During this period, USSS’ workforce has
           averaged 6,600 employees.

                                 Figure 1: USSS Misconduct from 2004-2012

                              Year                    USSS Misconduct Cases
                              2004                              74
                              2005                              105

                              2006                              58

                              2007                              96

                              2008                              93

                              2009                              102

                              2010                              100

                              2011                              76

                              2012                              87
           Source: USSS ERB




www.oig.dhs.gov                                11                                  OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


            In these 824 cases, ERB specialists identified 963 offenses (some employees
            were charged with more than one offense). However, since ERB specialists do
            not categorize offenses consistently, we grouped the 963 offenses by 14 general
            misconduct categories in tables of penalties used by U.S. Customs and Border
            Protection (CBP), ICE, and the Transportation Security Agency (TSA) (see figure
            2).

                                         Figure 2: 963 Offenses by Category


                              Attendance and Leave                          57

             Discriminatory/ Disruptive Behavior                                            113

                                  Drugs and Alcohol                    37

                  Failure/ Refusal to Follow Orders                                    91

          Falsification/Dishonesty/Misstatement                        39

                         Inquiries and Investigations             23

                                 Integrity and Ethics                            68

                                     Neglect of Duty                                                                257

     Personal Appearance and Hygiene/Uniform            1

                       Property Misuse/Loss/Damage                                                165

                           Reporting Responsibilities        10

                              Safety/Security/Health              24

             Unauthorized Takings or Possession          4

                                          Weapons                                 74

   Source: USSS ERB provided offense data which OIG grouped into the categories shown.


            In the past nine years, USSS has characterized offenses as Neglect of Duty (257
            offenses) more often than other categories. Specific offenses under Neglect of
            Duty can include:

                  •	    delay in carrying out orders;
                  •	    failure to follow applicable laws, rules or regulations;
                  •	    sleeping on the job;
                  •	    inattention to duty;
                  •	    negligent or careless performance of assigned duties; and
                  •	    intentional or reckless disregard of rules governing arrests, searches, or
                        seizures.
www.oig.dhs.gov                                         12	                                             OIG-14-20
                                  OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Security Clearance Data Indicates USSS Employees Do Not Frequently Engage in
           Behavior that Causes a Security Concern

           From January 2004 to February 2013, SCD suspended security clearances 195
           times as a result of derogatory information received about employee behavior
           related to an adjudicative guideline. Excluding partial-year data from 2013, this is
           an average of 21 suspensions per year. After SCD evaluated the information, it
           reinstated 64 security clearances, revoked 67 security clearances, and sustained
           64 suspended clearances. A security clearance can remain suspended if an
           employee’s access to classified information is under review, or if the employee
           leaves USSS while his or her clearance was suspended. During the same period,
           SCD also issued 67 security clearance warning letters to employees. These letters
           explain that future incidents of a similar nature may result in a security clearance
           revocation.

           Our conclusion that USSS employees do not frequently engage in behavior that
           causes a security concern is based on suspension data provided by SCD. The
           information in figure 3 does not reflect those instances when SCD was informed
           by someone who believed they had derogatory information about an employee,
           and SCD determined that the information was not a potential security concern.
           SCD does not track that information.

                          Figure 3: USSS Security Clearance Actions from 2004-2012

                                              USSS Security Clearance    USSS Security Clearance
                           Year
                                                   Suspensions                 Warnings
                          2004                             4                         0
                          2005                             18                        0
                          2006                             14                        0
                          2007                             13                        5
                          2008                             13                        5
                          2009                             19                        6
                          2010                             22                        9
                          2011                             37                        11
                          2012                             45                        28
           Source: USSS SCD
           Note: We excluded SCD actions from 2013.




www.oig.dhs.gov                                       13                                    OIG-14-20
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           Figures 4 and 5 show how often reported employee behaviors caused a security
           concern under the 13 adjudicative guidelines.

              Figure 4: Use of Adjudicative Guidelines for 195 Security Clearance Suspensions

             Allegiance to the United States       0

                            Foreign Influence                   17

                          Foreign Preference        2

                             Sexual Behavior                         21

                            Personal Conduct                                                            122

                    Financial Considerations                          25

                       Alcohol Consumption                            26

                           Drug Involvement             5

                    Psychological Conditions                               47

                            Criminal Conduct                                         79

            Handling Protected Information                  8

                            Outside Activities     0

     Use of Information Technology Systems                      15
           Source: USSS SCD
           Note: Total Adjudicative Guidelines used exceeded 195 because a suspension can be based on more than
           one Adjudicative Guideline.




www.oig.dhs.gov                                             14                                         OIG-14-20
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

                  Figure 5: Use of Adjudicative Guidelines for 67 Security Clearance Warnings


                  Allegiance to the United States      0

                                Foreign Influence              3

                              Foreign Preference       0

                                 Sexual Behavior               3

                               Personal Conduct                                            25

                         Financial Considerations                  6

                           Alcohol Consumption                                        21

                               Drug Involvement        0

                        Psychological Conditions           1

                                Criminal Conduct                                 17

                  Handling Protected Information                       13

                               Outside Activities      0

        Use of Information Technology Systems                               15

           Source: USSS SCD
           Note: Total Adjudicative Guidelines used exceeded 67 because a warning can be based on more than one
           Adjudicative Guideline.


           In April 2012, USSS employees were in Cartagena, Colombia, preparing for a
           Presidential visit to the Summit of the Americas. While off duty, several USSS
           employees drank heavily and solicited female foreign national prostitutes. After
           (1) reviewing ISP records and other allegations; (2) reviewing security clearance
           data; (3) surveying USSS employees; and (4) interviewing USSS employees, we
           did not find evidence that the behavior exhibited in Cartagena is widespread in
           USSS.

           We reviewed ISP’s records and other allegations to determine whether other
           employees have engaged in solicitation of prostitutes. ISP’s records did identify
           instances of related behaviors. Because of how matters are reported to ISP (we
           discuss this further on page 45), we were unable to confirm that these instances
           represent a comprehensive account of all alleged or confirmed activities related
           to sexual contact in exchange for money.

           We also analyzed security clearance data to determine the extent to which USSS
           employees have engaged in behavior that can cause a concern under the

www.oig.dhs.gov                                         15                                             OIG-14-20
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Adjudicative Guidelines. Based on derogatory information obtained during USSS’
           preliminary fact-finder and investigation of the Cartagena incident, USSS
           considered the following four Adjudicative Guidelines to evaluate the security
           clearances of employees implicated in the Cartagena incident:

                  •   Guideline B: Foreign Influence;
                  •   Guideline D: Sexual Behavior;
                  •   Guideline E: Personal Conduct; and
                  •   Guideline G: Alcohol Consumption.

           Because the USSS may have disciplined employees in the past for behaviors
           similar to those exhibited in Cartagena, we examined ERB disciplinary records
           and misconduct cases to identify prior instances of misconduct that involved
           alcohol or sex.

           We also surveyed the USSS workforce to determine whether employees perceive
           that the following specific behaviors that are contained within the four
           Adjudicative Guidelines listed above are prevalent in USSS:

                  •   Solicitation of prostitutes;
                  •   Criminal sexual behavior;
                  •   Other sexual behavior that can cause a security concern;
                  •   Excessive alcohol consumption that can cause a security concern;
                  •   Contact with foreign nationals that causes a security concern; and
                  •   Personal conduct that can cause a security concern.

           Respondents answered a minimum of 34 questions regarding their awareness of
           these behaviors. Of the 2,575 employees who responded to our electronic
           survey, 2,144 (83 percent) indicated they were not aware of USSS employees
           engaging in these behaviors. For the in-person survey, 95 out of 161 respondents
           (59 percent) indicated they were not aware of these behaviors.




www.oig.dhs.gov                                   16                                   OIG-14-20
                                      OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security

                       Figure 6: Electronic Survey Results - USSS Employees’ Awareness of Behaviors
                          [Respondents indicating awareness of any behavior could select more than one]

                         Solicitation of Prostitution             207

  Criminal Sexual Behavior Other than Solicitation          50

                              Other Sexual Behavior              153

                    Excessive Alcohol Consumption                  269

                    Contact with Foreign Nationals               116

                                   Personal Conduct                247

                  No Awareness of These Behaviors                                                                      2,144

             Source: OIG electronic survey results for Question 28


             In addition, we interviewed more than 200 USSS supervisors, managers, and
             senior officials. The results of our fieldwork as they relate to each of the six
             behaviors we measured are discussed below.

             Solicitation of Prostitutes

             According to the Adjudicative Desk Reference, solicitation of prostitutes involves
             offering or agreeing to pay for a sex act.17 Our review of internal affairs records
             and the electronic and in-person survey indicated solicitation of prostitutes is
             isolated in USSS.

             Review of Internal Affairs Records and Allegations

             We verified 14 instances where USSS employees engaged in sexual activity in
             exchange for money.

                  •	 Based on evidence from ISP’s investigation into the Cartagena incident,
                     10 employees had sexual contact with a foreign national in exchange for
                     money (see appendix G for additional details). 18
                  •	 A            special agent, who solicited a prostitute in Cartagena,
                     admitted to OIG investigators that he solicited prostitutes


   17
      The Adjudicative Desk Reference for Determining Eligibility for Access to Classified Information is a job aid created
   by the Department of Defense to assist in identifying and evaluating behaviors and circumstances that are relevant to
   security decisions.
   18
      In addition, one employee retracted an admission made to polygraph examiners that he vaguely remembered
   discussing payment for sex with the prostitute. He

www.oig.dhs.gov                                              17	                                                OIG-14-20
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security



                    •  A Uniformed Division officer attempted to solicit an
                              in 2008 in Washington, DC. The officer resigned from the agency
                       in
                    •	 A Uniformed Division officer solicited a prostitute in 2013 while
                                                USSS revoked the officer’s security clearance.

               In addition, we learned of four cases of alleged misconduct related to
               prostitution. Three cases were not substantiated and USSS did not adequately
               investigate the fourth.

                    •	 The media reported an allegation involving the solicitation of prostitutes
                       by USSS employees in El Salvador in 2011. A 2012 USSS investigation
                       concluded that the allegation was unfounded.
                    •	 ISP investigated an allegation that an

                                         harassed 
                   and attempted to coerce
                                                       .
                    •	 During OIG’s investigation of misconduct in Cartagena, employees alleged
                       that a senior official had sexual contact with a female foreign national
                       (FFN) while in Colombia for the 2012 Summit of the Americas. The senior
                       official denied these allegations when questioned by OIG investigators.
                    •	 An employee                                   while on a protective-duty
                       assignment in            in 2010. We heard allegations that he may have
                       engaged in solicitation while           We did not find evidence that
                       prostitutes were involved; however, USSS did not fully investigate this
                       matter. We discuss this case in more detail on page 45.

               Electronic Survey Results

               Electronic and in-person survey respondents do not believe the solicitation of
               prostitutes is widespread in USSS. Out of 2,575 electronic survey respondents,
               207 respondents (8 percent) indicated they were aware of USSS employees
               engaging in solicitation of prostitutes. Of the 207 respondents, 19 indicated they
               personally observed this behavior. 19 Figure 7 shows how respondents became
               aware of this behavior.




   19
        We referred information about these survey responses to OIG’s Office of Investigations.

www.oig.dhs.gov                                               18	                                 OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security

    Figure 7: Survey respondent indications of how they became aware of solicitation of prostitutes in USSS
                                            [More than one could be selected]

                                                        Electronic                 In Person

                                                                             19
                       I have personally observed this behavior
                                                                     0
                                                                              24
                             I learned about this behavior from
                                 the person who engaged in it        0
                                                                                     47
                             I learned about this behavior from
                                                                     3
                                   a person who observed it
                                                                             19
                             I learned about this behavior from
                                                                     3
                               someone who reported it to me
                                                                                     47
                                   I learned about this behavior
                                                                         5
                                     as part of my official duties
                                                                                          55
                               I learned about this behavior
                                                                             19
                           through official USSS communication
                                                                                                                     159
                             I learned about this behavior from
                                                                                   42
                            the media or another public source
                                                                                                86
                      I learned about this behavior
                                                                             20
          through a casual conversation that I considered gossip
                                                                         7
                                                           Other     2


            Source: OIG electronic and in-person survey results for Question 28a (solicitation of prostitutes)


            Of the 19 respondents who personally observed solicitation of prostitutes, 14
            (74 percent) indicated the behavior occurred during a protective assignment.

            When asked to describe their perception of USSS employees engaging in the
            solicitation of prostitutes, 112 of the 207 respondents (54 percent) indicated the
            behavior was isolated (see figure 8).




www.oig.dhs.gov                                              19                                              OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security

                     Figure 8: Electronic Survey - USSS Employees’ Perception of Behaviors



                                                      21
         Solicitation of Prostitution                                           74
                                                                                        112


                                             6                                                Number of Respondents
     Criminal Sexual Behavior Other
                                                 12                                           who Believe the Behavior
            than Solicitation
                                                           32                                 is Systemic

                                                           30
             Other Sexual Behavior                                       64
                                                                       59                     Number of Respondents
                                                                                              who Believe the Behavior
                                                                                              is More than Isolated but
                                                 12
       Contact w/Foreign Nationals                                                            Less than Systemic
                                                                38
                                                                           66

                                                                                              Number of Respondents
                                                                      54                      who Believe the Behavior
     Excessive Alcohol Consumption                                                      112   is Isolated
                                                                                     103


                                                                37
                   Personal Conduct                                                    108
                                                                                     102


            Source: OIG electronic survey results for Question 28e (all behaviors)


            In-Person Survey Results

            Of 161 in-person respondents, 44 (27 percent) indicated that they were aware of
            USSS employees engaging in solicitation of prostitutes. Of these 44 respondents,
            42 (95 percent), learned about USSS employees engaging in solicitation through
            the news, media, or another public source. None of the in-person respondents
            personally observed the solicitation of prostitutes.

            In-person survey respondents who indicated an awareness of solicitation of
            prostitutes were asked to describe their perception of the behavior in the USSS.
            Forty-two of the 44 respondents (95 percent) believe solicitation is isolated.




www.oig.dhs.gov                                                  20                                      OIG-14-20
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


               Criminal Sexual Behavior Other than Solicitation

               According to the Adjudicative Desk Reference, criminal sexual behavior can
               include rape; incest; sexual relations with children; possession of child
               pornography; voyeurism; exhibitionism; obscene phone calls; and sexual
               harassment. Few survey respondents were aware of criminal sexual behavior
               other than solicitation.

               Review of Internal Affairs Records and Allegations

               USSS provided a list of all special investigations, fact finders and complaints
               between January 2004 and February 2013. We were unable to identify the
               prevalence of investigations of criminal sexual behavior in USSS from this data
               alone.

               Electronic Survey Results

               The results of our electronic survey showed that of all behaviors listed,
               respondents were least aware of criminal sexual behavior other than solicitation
               (see figure 6). Fifty of 2,575 respondents (2 percent) were aware of USSS
               employees engaging in criminal sexual behavior other than solicitation. Of the 50
               respondents, 4 indicated they personally observed this behavior. 20 Figure 9
               shows how respondents became aware of this behavior.




   20
        We referred information about these survey responses to OIG’s Office of Investigations.

www.oig.dhs.gov                                               21                                  OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


     Figure 9: Survey respondent indications of how they became aware of criminal sexual behavior other 

                                               than solicitation

                                            [More than one could be selected]


                                                      Electronic                           In Person

                                                                               4
                     I have personally observed this behavior
                                                                   0
                                                                                   5
                           I learned about this behavior from
                                                                       1
                               the person who engaged in it
                                                                                                   10
                           I learned about this behavior from
                                 a person who observed it          0
                                                                           3
                           I learned about this behavior from
                                                                       1
                             someone who reported it to me
                                                                                                        18
                                 I learned about this behavior
                                                                       1
                                   as part of my official duties
                                                                                       6
                             I learned about this behavior
                                                                       1
                         through official USSS communication
                                                                                                                  23
                           I learned about this behavior from
                                                                                               8
                          the media or another public source
                                                                                                             21
                    I learned about this behavior
                                                                                           7
        through a casual conversation that I considered gossip
                                                                           3
                                                         Other
                                                                   0
             Source: OIG electronic and in-person survey results for Question 28a (criminal sexual behavior other than
            solicitation)


            Of the four respondents who personally observed criminal sexual behavior other
            than solicitation, three indicated the behavior occurred during a protective
            assignment. When asked their perception of USSS employees engaging in
            criminal sexual behavior, 32 out of the 50 electronic survey respondents (64
            percent) believed this behavior is isolated within USSS (see figure 8).




www.oig.dhs.gov                                              22                                               OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           In-Person Survey Results

           Of 161 in-person survey respondents, 12 (8 percent) indicated they were aware
           of USSS employees engaging in criminal sexual behavior other than prostitution.
           No respondents indicated they personally observed criminal sexual behavior
           other than solicitation. All 12 respondents perceived the behavior as isolated
           within the USSS.

           Other Sexual Behavior that Causes a Security Concern

           According to the Adjudicative Desk Reference, sexual behavior is a security
           concern when the behavior reflects lack of judgment or discretion, or subjects
           the individual to undue influence or coercion, exploitation or duress. Security
           clearance files and electronic and in-person survey results indicate that this
           category of sexual behavior occurs very infrequently within USSS.

           Security Clearance File Review

           Of the 195 instances where SCD suspended an employee’s security clearance,
           21 (11 percent) involved sexual behavior that could cause a security concern.
           Of these 21 cases, 15 (71 percent) either led to a revocation or continued
           suspension. Of the 67 instances where SCD issued a warning to an employee,
           3 (4 percent) involved sexual behavior that could cause security concerns.

           Discipline Data Review

           Misconduct cases in the ERB database involving sex were a small percentage of
           total misconduct from 2004 through 2013. Of the 751 ERB misconduct cases
           where there was enough information to determine whether sexual misconduct
           was involved, 53 cases (7 percent) involved sexual misconduct.

           Electronic Survey Results

           Survey results showed that 153 respondents out of 2,575 (6 percent) were aware
           of USSS employees engaging in other sexual behavior that causes security
           concerns. Of the 153 respondents, 38 (25 percent) indicated they personally
           observed the behavior. Figure 10 shows how respondents became aware of this
           behavior.




www.oig.dhs.gov                                23                                   OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security

    Figure 10: Survey respondent indications of how they became aware of other sexual behavior that can 

                                          cause a security concern

                                             [More than one could be selected]



                                                    Electronic                    In Person


                                                                                                   38
                  I have personally observed this behavior       1

                                                                                                        41
                       I learned about this behavior from
                                                                 1
                           the person who engaged in it
                                                                                                                    60
                       I learned about this behavior from
                                                                     2
                             a person who observed it
                                                                                 20
                       I learned about this behavior from
                         someone who reported it to me           0
                                                                                              34
                             I learned about this behavior
                               as part of my official duties     0
                                                                                 19
                         I learned about this behavior
                                                                 1
                     through official USSS communication
                                                                                                             47
                        I learned about this behavior from
                                                                 1
                       the media or another public source
                                                                                                                              79
                I learned about this behavior
                                                                         7
    through a casual conversation that I considered gossip
                                                                             9
                                                     Other       1


            Source: OIG electronic and in-person survey results for Question 28a (other sexual behavior that causes a
            security concern)

            Of the 38 respondents who personally observed other sexual behavior that could
            cause a security concern, 29 (76 percent) indicated the behavior occurred during
            a protective assignment. Of the 153 respondents, 59 (39 percent) believed the
            behavior is isolated within USSS, and 30 (20 percent) respondents believed the
            behavior is systemic (see figure 8).

            In-Person Survey Results

            In-person survey respondents were least aware of other sexual behavior that
            causes security concerns. Nine respondents (6 percent) indicated an awareness
            of the behavior. Of these, one respondent personally observed the behavior.

www.oig.dhs.gov                                                24                                                 OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Excessive Alcohol Consumption

           According to the Adjudicative Desk Reference, excessive alcohol consumption is
           a security concern when it leads to impaired judgment or the failure to control
           impulses, and can raise questions about an individual’s reliability and
           trustworthiness. Security clearance data and electronic and in-person survey
           results indicate excessive alcohol consumption is not widespread in USSS.
           However, USSS survey respondents expressed a greater awareness of excessive
           alcohol consumption in comparison to the other five categories of behavior that
           we measured. Of the 269 survey respondents who indicated awareness of
           excessive alcohol consumption, 138 personally observed it.

           USSS officials told us that excessive alcohol consumption by employees often
           leads to questionable judgment and misconduct. For example, USSS’
           investigation into the activities of 13 employees in Cartagena revealed they
           consumed between 2 to 13 alcoholic beverages before engaging in questionable
           behavior. After the Cartagena incident, USSS officials took steps to address on-
           and off-duty alcohol consumption by enhancing USSS’ policy. USSS policy now
           states that while on a temporary duty assignment, alcohol may only be
           consumed in moderate amounts while off duty. Also, USSS extended the period
           before duty that employees must abstain from alcohol from 6 to 10 hours.
           Furthermore, alcohol cannot be consumed at the protectee’s hotel once the
           protective visit has begun.

           Security Case File Review

           Of the 195 instances where SCD suspended an employee’s security clearance,
           26 (13 percent) involved excessive alcohol consumption. Of these, 15 cases
           (58 percent) resulted in a revocation or continued suspension. Of the 67
           instances where SCD issued a warning, 21 (31 percent) involved alcohol
           consumption.

           Discipline Data Review

           Misconduct cases in the ERB database involving alcohol were a small percentage
           of total misconduct from 2004 through 2013. Of the 751 ERB misconduct cases
           where there was enough information to determine whether alcohol was
           involved, 62 (8 percent) involved alcohol.




www.oig.dhs.gov                               25                                   OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


            Electronic Survey Results

            Excessive alcohol consumption was the most identified behavior in the electronic
            survey (see figure 6). Of the 2,575 respondents, 269 (10 percent) indicated they
            were aware of USSS employees engaging in excessive alcohol consumption. Of
            the 269 respondents, 138 (51 percent) indicated they personally observed
            excessive alcohol consumption. Figure 11 shows how respondents became
            aware of this behavior.

     Figure 11: Survey respondent indications of how they became aware of alcohol consumption that can 

                                           cause a security concern

                                            [More than one could be selected]



                                             Electronic                             In Person


                                                                                                                                   138
                    I have personally observed this behavior                   15

                                                                                                     73
                          I learned about this behavior from
                                                                           8
                              the person who engaged in it
                                                                                                                             129
                          I learned about this behavior from
                                                                                18
                                a person who observed it
                                                                                           39
                          I learned about this behavior from
                                                                   2
                            someone who reported it to me
                                                                                                48
                                I learned about this behavior
                                                                       3
                                  as part of my official duties
                                                                                         34
                            I learned about this behavior
                                                                           9
                        through official USSS communication
                                                                                                                110
                           I learned about this behavior from
                                                                                    23
                          the media or another public source
                                                                                                                       120
                   I learned about this behavior
                                                                                    23
       through a casual conversation that I considered gossip
                                                                           8
                                                        Other
                                                                   0


            Source: OIG electronic and in-person survey results for Question 28a (excessive alcohol consumption that
            causes a security concern)




www.oig.dhs.gov                                               26                                          OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Of the 138 respondents who personally observed excessive alcohol
           consumption, 100 (73 percent) indicated the behavior occurred during a
           protective assignment. Of the 269 respondents who were aware of excessive
           alcohol consumption, 103 (38 percent) believe the behavior is isolated; 112 (42
           percent) believe the behavior is more than isolated but less than systemic; and
           54 respondents (20 percent) believe the behavior is systemic (see figure 8).

           In-Person Survey Results

           Of the 161 in-person respondents, 40 (25 percent) indicated they were aware of
           excessive alcohol consumption. Of these, 15 (38 percent) personally observed
           this behavior.

           Contact with Foreign Nationals

           According to the Adjudicative Desk Reference, contact with foreign nationals is a
           security concern when the contact creates a heightened risk of foreign
           exploitation, manipulation, pressure, or coercion. Security clearance data and
           electronic and in-person survey results do not indicate this behavior is
           widespread.

           Security Clearance File Review

           Of the 195 instances where SCD suspended an employee’s security clearance,
           17 cases (9 percent) involved foreign influence. Of the 17 cases, 13 cases (76
           percent) resulted in the revocation or continued suspension of an employee’s
           security clearance. Furthermore, of the 67 instances where SCD issued a warning
           to an employee, 3 instances (4 percent) involved foreign influence.

           Electronic Survey Results

           Respondents to our electronic survey indicated that 116 respondents out of
           2,575 (5 percent) were aware of USSS employees engaging in contact with
           foreign nationals that cause security concerns (see figure 6). Of the 116
           respondents, 17 (15 percent) personally observed the behavior. Figure 12 shows
           how respondents became aware of this behavior.




www.oig.dhs.gov                               27                                    OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security

    Figure 12: Survey respondent indications of how they became aware of contact with foreign nationals 

                                      that can cause a security concern

                                           [More than one could be selected]



                                                   Electronic                      In Person


                                                                                      17
                   I have personally observed this behavior           1

                                                                                               25
                         I learned about this behavior from
                             the person who engaged in it         0
                                                                                                27
                         I learned about this behavior from
                                                                      1
                               a person who observed it
                                                                              11
                         I learned about this behavior from
                                                                      1
                           someone who reported it to me
                                                                                                     32
                               I learned about this behavior
                                                                      1
                                 as part of my official duties
                                                                                     16
                           I learned about this behavior
                                                                          7
                       through official USSS communication
                                                                                                                       49
                          I learned about this behavior from
                                                                              10
                         the media or another public source
                                                                                                                        51
                  I learned about this behavior
                                                                              11
      through a casual conversation that I considered gossip
                                                                          6
                                                       Other          2


           Source: OIG electronic and in-person survey results for Question 28a (contact with foreign nationals that
           causes a security concern)


           Of the 17 respondents who personally observed contact with foreign nationals
           that caused a security concern, 15 (88 percent) indicated the behavior occurred
           during a protective assignment. When asked their perception of USSS employees
           engaging in contact with foreign nationals that cause security concerns, 66 out of
           the 116 electronically surveyed (57 percent) believe this behavior is isolated
           within USSS (see figure 8).




www.oig.dhs.gov                                              28                                           OIG-14-20
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           In-Person Survey Results

           Eighteen of 161 in-person respondents (11 percent) said they were aware of the
           behavior. All 18 respondents believe contact with foreign nationals that causes a
           security concern is isolated within the USSS.

           Personal Conduct

           According to the Adjudicative Desk Reference, personal conduct is a security
           concern when it involves questionable judgment, lack of candor, dishonesty, or
           unwillingness to comply with rules and regulations, including standards of
           conduct. Security clearance data, as well as electronic and in-person survey
           results, indicate that personal conduct that can cause a security concern has
           occurred infrequently in USSS.

           Security Clearance File Review

           Personal conduct was the adjudicative guideline SCD cited most frequently when
           suspending employees’ clearances or providing written warnings about their
           behavior. Of the 195 instances where SCD suspended an employee’s Top Secret
           security clearance to review his or her access to classified information, 122 (63
           percent) described personal conduct that could cause security concerns. Of
           these, 95 cases (78 percent) resulted in a revocation or continued suspension.
           Of the 67 instances where SCD issued a warning to an employee, 25 (37 percent)
           described personal conduct that could cause security concerns.

           Electronic Survey Results

           Although the electronic and in-person surveys indicate personal conduct that
           causes a security concern as one of the most identified behaviors, employees
           who responded to our survey do not feel that this behavior is common. Of the
           2,575 respondents, 247 (10 percent) were aware of USSS engaging in personal
           conduct that could cause a security concern (see figure 6). When asked how they
           became aware of the personal conduct that caused a security concern, 102 of
           247 respondents (41 percent) personally observed this behavior. Figure 13
           shows how the respondents became aware of this behavior.




www.oig.dhs.gov                               29                                   OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security

   Figure 13: Survey respondent indications of how they became aware of personal conduct that can cause 

                                             a security concern

                                             [More than one could be selected]



                                                Electronic                       In Person


                                                                                                                     102
                  I have personally observed this behavior               6

                                                                                                        67
                        I learned about this behavior from
                                                                     2
                            the person who engaged in it
                                                                                                                         108
                        I learned about this behavior from
                                                                         5
                              a person who observed it
                                                                                              42
                        I learned about this behavior from
                                                                     3
                          someone who reported it to me
                                                                                                   62
                              I learned about this behavior
                                                                 1
                                as part of my official duties
                                                                                         33
                          I learned about this behavior
                                                                     2
                      through official USSS communication
                                                                                                        67
                         I learned about this behavior from
                                                                     2
                        the media or another public source
                                                                                                                               117
                 I learned about this behavior
                                                                             9
     through a casual conversation that I considered gossip
                                                                                    26
                                                      Other      1


            Source: OIG electronic and in-person survey results for Question 28a (personal conduct that causes a
            security concern)


            Of the 102 respondents who personally observed this behavior, 56 respondents
            (55 percent) indicated the behavior did not occur during a protective
            assignment, while 46 respondents (45 percent) indicated that it did. Of the 247
            respondents, 102 respondents (41 percent) believe the behavior is isolated
            within USSS (see figure 8).

            In-Person Survey Results

            Twelve of 161 in-person respondents (7 percent) indicated awareness of
            personal conduct which could cause a security concern. Six said they personally
            observed personal conduct that can cause a security concern. Nine (75 percent)

www.oig.dhs.gov                                                 30                                           OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           believe the behavior is isolated within USSS.

           USSS Is Planning To Identify and Address Trends in Misconduct
           More Aggressively

           The PRWG recommended that USSS establish a separate office reporting to the
           Director on issues of integrity and professional standards. The PRWG envisioned
           this office assessing risk to professional standards and developing plans to
           mitigate this risk. For example, the PRWG suggested that USSS evaluate how
           team formation, operation, and leadership provide opportunities for misconduct
           on protective assignments.

           In response, USSS assigned a Chief Integrity Officer to lead the new Office of
           Integrity. Although USSS has not formalized its roles and responsibilities, USSS
           management expects the Chief Integrity Officer will conduct risk assessments to
           identify emerging trends or unique disciplinary cases that USSS management
           feels must be addressed. The Chief Integrity Officer would create education
           campaigns to address those conduct issues. The Chief Integrity Officer may have
           difficulty conducting risks assessments because information about misconduct
           resides in several offices throughout USSS.

           Survey Respondents Have Varying Perceptions of Whether Management
           Tolerates Misconduct and Holds Employees Accountable

           Our survey asked USSS employees the extent to which they agreed that
           violations of any law, rule, regulation, or standard of conduct were not tolerated
           within USSS. While a majority of survey respondents believed management does
           not tolerate misconduct, a noteworthy number of employees disagreed.

           Of the 2,575 electronic survey respondents, 1,575 (61 percent) indicated that
           such violations are not tolerated. Of the 161 in-person respondents, 126 (78
           percent) said they do not believe they are tolerated. Conversely, 463 electronic
           survey respondents (18 percent), and 15 in-person respondents (9 percent)
           believe management tolerates violations of misconduct. Of the 463 respondents,
           89 were supervisors.

           Our survey also asked USSS employees the extent to which they agreed that
           employees in various occupational specialties are held accountable if they
           engage in misconduct or illegal activities. Similar numbers of electronic survey
           respondents believe that special agents (1,599 or 62 percent), Uniformed
           Division officers (1,587 or 62 percent), and administrative, professional, and
www.oig.dhs.gov                                31                                    OIG-14-20
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           technical support employees (1,565 or 61 percent) are held accountable. Fewer
           respondents believe that senior managers (1,285 or 50 percent) and supervisors
           (1,410 or 55 percent) are held accountable.

           High percentages of in-person survey respondents perceive that most employees
           are held accountable if they engage in misconduct or illegal activity. Fewer in-
           person respondents felt that administrative, professional, and technical support
           employees are held accountable:

                  •	 103 of 161 respondents (64 percent) believe senior managers are held
                     accountable;
                  •	 124 (77 percent) believe supervisors are held accountable;
                  •	 110 (68 percent) believe special agents are held accountable;
                  •	 131 (81 percent) believe Uniformed Division officers are held 

                     accountable; and 

                  •	 93 (58 percent) believe administrative, professional, and technical

                     support employees are held accountable. 


           Using demographic data from our survey, we separated supervisors’ responses
           from non-supervisors’. Figure 14 illustrates the percentage of electronic survey
           respondents’ (supervisors and non-supervisors) who perceive individuals in each
           occupational series are not held accountable when they engage in misconduct or
           illegal activity. A low percentage of both supervisors and non-supervisors felt
           that administrative, professional, and technical support employees and
           Uniformed Division officers are not held accountable when they engage in
           misconduct or illegal activity. However, higher percentages of both supervisors
           and non-supervisors believe that supervisors and senior managers are not held
           accountable. For example, one in every five non-supervisor respondents believes
           that supervisors are not held accountable. Almost one in every five respondents
           who is a supervisor believes that senior managers are not held accountable.




www.oig.dhs.gov                                 32	                                 OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security

    Figure 14: Percentage of respondents who believe the following occupational specialties and managerial levels are
       not held accountable when they engage in misconduct or illegal activity, by response of supervisors and non-
                                                     supervisors.

                         Supervisory Respondents                   Non-Supervisory Respondents



                                                                    4%
    Administrative, Professional & Technical Support
                                                                         6%


                                                                  3%
                          Uniformed Division Officers
                                                                  3%


                                                                              9%
                                         Special Agents
                                                                                    13%


                                                                                      14%
                                            Supervisors
                                                                                                     22%


                                                                                               19%
                                      Senior Managers
                                                                                                         24%


             Source: OIG electronic survey results for Questions 6-10


             Survey results show a noteworthy number of respondents who perceive that (1)
             management tolerates misconduct (463), and (2) senior managers in the
             organization are not held accountable (587). Individual interviewees gave
             insights into this segment of the workforce’s perceptions that management
             fosters an environment that tolerates misconduct. For example, a supervisory
             special Agent stated that he was aware of instances of underreporting
             misconduct and misconduct that was not addressed adequately by the agency.
             Another employee told us that “disciplinary cases are always handled differently,
             and that the manner in which a misconduct case is managed depends on who
             you are and who you know.”

             Survey results suggest that the majority of employees trust their supervisor to
             respond appropriately to reported misconduct. Asked whether they trust their
             immediate supervisor to respond appropriately to reported misconduct, 1,967
             electronic survey respondents (76 percent) and 138 in-person respondents (86
             percent) indicated that they do trust their immediate supervisor. Supervisors,
             managers, and senior leaders we interviewed at USSS headquarters and in field
             offices described how they have responded, or would respond, if alleged
             misconduct was brought to their attention. However, they pointed out that

www.oig.dhs.gov                                            33                                              OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           there are valid reasons why the disciplinary process may not seem transparent
           to those not involved in it. The challenge for supervisors in demonstrating
           accountability to those employees who do not trust them—269 electronic survey
           respondents (10 percent) and 8 in-person respondents (5 percent) indicated they
           do not trust their immediate supervisor to respond to reported misconduct—is
           that they may not openly discuss how they respond to instances of misconduct.

           The PRWG recommended USSS take every opportunity to reinforce the core
           values of the agency to promote an atmosphere where misconduct is not
           tolerated. In response to this recommendation, USSS implemented an annual
           Director’s Award recognizing employees who represent agency values. The
           agency is also developing a messaging campaign that draws upon USSS history to
           reinforce core values.

           In addition, based on a PRWG recommendation, USSS was considering whether
           to publish disciplinary outcomes, and if so, how. USSS senior leadership stated
           that USSS has the challenge of balancing the workforce’s apparent need to know
           disciplinary outcomes with privacy concerns, especially given the small size of
           the agency relative to other law enforcement agencies such as FBI. Our survey
           showed that some employees perceive that USSS tolerates misconduct, does not
           hold employees accountable, and does not take appropriate action against
           supervisors and senior managers. These announcements would aid USSS’
           credibility in responding to reported misconduct and remind the workforce of
           the consequences of engaging in misconduct.

           Survey Respondents Believe that Supervisors Respond Appropriately to
           Behavior that Causes a Security Concern

           Our survey also included questions related to USSS’ response to reports of
           misconduct or behaviors that cause a security concern, and the consequences of
           those behaviors. Of the 2,575 electronic survey respondents, 2,094 (81 percent)
           indicated they trust their immediate supervisor to respond appropriately to
           security concerns. Similarly, of the 161 in-person survey respondents, 139 (86
           percent) indicated they trust their immediate supervisor to respond
           appropriately to security concerns regarding a USSS employee.

           Electronic survey results indicate that respondents believe USSS takes
           appropriate action if individuals in various occupational specialties engage in
           behavior that causes a security concern. For example, 1,542 out of 2,575
           respondents (60 percent) believe that USSS takes appropriate action if a special
           agent engages in behavior that causes a security concern. Electronic survey

www.oig.dhs.gov                               34                                    OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


            respondents provided similar responses for USSS’ managerial levels. For
            example, 1,381 out of 2,575 respondents (54 percent) believe that USSS takes
            appropriate action if a supervisor engages in behavior that causes a security
            concern. Figure 15 further illustrates whether survey respondents believed that
            individuals in various occupational specialties were held accountable for
            behavior that causes a security concern.

     Figure 15: Percent of electronic survey respondents who believe USSS takes appropriate action if employees in
        specific occupational specialties and managerial levels engage in behavior that causes a security concern.

                                Positive           Neutral               Negative         Do Not Know

      Admnistrative, Professional
                                                               57%                               15%         4%          24%
        & Technical Support

     Uniformed Division Officers                               57%                              13%         3%          27%


                    Special Agents                                 60%                                15%          9%         16%


                      Supervisors                             54%                               17%              12%          17%


                  Senior Managers                            49%                          18%               13%           20%

            Source: OIG survey results for Questions 21-25


            In-person survey responses were similar:

                  •	 96 of 161 respondents (60 percent) believe senior managers are held
                     accountable;
                  •	 119 respondents (74 percent) believe supervisors are held accountable;
                  •	 100 respondents (62 percent) believe special agents are held

                     accountable;

                  •	 121 respondents (75 percent) believe Uniformed Division officers are
                     held accountable; and
                  •	 82 respondents (51 percent) believe administrative, professional, and
                     technical support employees are held accountable.

            Also of note, is the percentage of respondents who are supervisors who believe
            that supervisors and senior managers are not held accountable if they engage in
            behavior that causes a security concern (9 and 11 percent, respectively). Figure
            16 illustrates the perceptions of supervisors and non-supervisors as to whether
            USSS takes appropriate action when employees in specific occupational

www.oig.dhs.gov                                          35	                                                OIG-14-20
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


               specialties engage in behavior that causes a security concern.

         Figure 16: Percent of electronic survey respondents who believe USSS does not take appropriate action when
         employees in specific occupational specialties and managerial levels engage in behavior that causes a security
                                    concern, by response of supervisors and non-supervisors.

                               Supervisory Respondents             Non-Supervisory Respondents


                                                                           3%
        Administrative, Professional & Technical Support
                                                                                4%


                                                                           3%
                               Uniformed Division Officer
                                                                           3%


                                                                                     6%
                                             Special Agents
                                                                                                9%


                                                                                                9%
                                                Supervisors
                                                                                                              13%


                                                                                                       11%
                                          Senior Managers
                                                                                                                 14%


   Source: OIG survey results for Questions 21-25


               Survey Results for Reporting Inappropriate Behaviors Related to Conduct
               Standards and Adjudicative Guidelines

               All DHS employees, including those in USSS, are required to report suspicions of
               violations of law or regulation to the DHS Office of Inspector General or the
               appropriate offices in their agency. 21 In USSS, the appropriate office is RES ISP.
               Further, USSS policy requires its employees to report any behaviors that could
               cause a security concern under the Adjudicative Guidelines to SCD. Survey
               responses indicate that employees are knowledgeable of their responsibility to
               report such violations. The majority of all electronic and in-person survey
               respondents (87 and 94 percent, respectively) confirmed their knowledge of how
               to report misconduct. The majority of survey respondents indicated that they
               would report individuals whom they suspected of violating conduct standards.
               However, respondents indicated that they did not report personally observed
               behaviors that could cause a security concern 80 percent of the time. USSS must
               ensure that employees understand the importance of reporting misconduct and

   21
        Management Directive 0810.1 Section V(B)

www.oig.dhs.gov                                               36                                              OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


            behaviors that cause a security concern, and are able to do so without fear of
            reprisal.

            Our survey results showed that 2,316 of 2,736 total survey respondents (85
            percent) indicated they would report coworkers or managers whom they suspect
            of violating conduct standards. In addition, 2,485 of 2,736 total survey
            respondents (91 percent) indicated they would report coworkers or managers
            whom they suspected were engaged in behaviors that could cause a security
            concern.

            As discussed on page 16, USSS’ Security Clearance Division used 4 of the 13
            Adjudicative Guidelines to evaluate the security clearances for those employees
            involved in the Cartagena incident. Our survey asked employees about their
            awareness of six specific behaviors contained under the four guidelines:
            solicitation of prostitutes; criminal sexual behavior other than solicitation; other
            sexual behavior; personal conduct; contact with foreign nationals; and excessive
            alcohol consumption. Our survey asked employees how they became aware of
            the behaviors. Those respondents who indicated that they personally observed
            the behaviors that could cause a security concern were also asked whether they
            reported the behavior. These respondents indicated they reported 69 of 341
            such behaviors, or 20 percent of the time (see figure 17).

             Figure 17: Reporting of Personally Observed Behaviors that Caused a Security Concern

                                               Electronic Survey Respondents              In-Person Survey Respondents
     Behavior that caused a security            Personally                                 Personally
                concern                                              Reported the                          Reported the
                                               Observed the                               Observed the
                                                                       Behavior                              Behavior
                                                 Behavior                                   Behavior
         Solicitation of Prostitutes                  19                    0                    0              N/A
     Criminal Sexual Behavior Other
                                                       4                    1                    0              N/A
            than Solicitation
          Other Sexual Behavior                       38                    6                    1               1
     Excessive Alcohol Consumption                   138                   20                    15              1
     Contact with Foreign Nationals                   17                    3                    1               0
             Personal Conduct                        102                   34                    6               3
                     Total                           318                   64                    23              5
   Source: OIG electronic and in-person survey results for Questions 28a and b (all behaviors)




www.oig.dhs.gov                                            37                                            OIG-14-20
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           If respondents indicated they did not report the behavior, our survey asked the
           respondents to select the reason(s) why they did not report it. The reasons
           respondents cited most frequently for not reporting the behaviors were (1) they
           did not believe management was supportive of employees reporting these types
           of behaviors; (2) the behavior occurred off duty; and (3) they feared reprisal and
           retaliation. Respondents also perceived that employees who were reported
           would not be investigated. The reasons respondents gave for not reporting each
           behavior are summarized in the following sections.

           Solicitation of Prostitutes

           Of the 19 electronic survey respondents who indicated they observed solicitation
           of prostitutes, none of them reported the behavior. Each respondent could
           select multiple reasons for not reporting the behavior. Some frequently cited
           reasons include:

                  •	 12 respondents (63 percent) did not believe that management is 

                     supportive of employees reporting the behavior;

                  •	 11 respondents (58 percent) indicated that the employee engaged in the
                     behavior while off-duty;
                  •	 9 respondents (47 percent) indicated they were afraid of reprisal or
                     retaliation for reporting the behavior;
                  •	 9 respondents (47 percent) indicated that they did not believe that
                     employee would be investigated even if reported;
                  •	 7 respondents (37 percent) indicated that management was already
                     aware of this behavior; and
                  •	 5 respondents or (26 percent) indicated that someone else reported the
                     behavior.

           None of the in-person survey respondents indicated that they personally
           observed solicitation of prostitutes, and therefore, none of the respondents
           were asked whether they reported the behavior.

           Criminal Sexual Behavior Other than Solicitation

           Four electronic survey respondents observed criminal sexual behavior other than
           solicitation. Three respondents (75 percent) indicated that they did not report
           the behavior. Each respondent could select multiple reasons for not reporting
           the behavior. Some frequently cited reasons include:



www.oig.dhs.gov                                 38	                                 OIG-14-20
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



                  •	 2 respondents did not believe that management is supportive of

                     employees reporting the behavior;

                  •	 2 respondents were afraid of reprisal or retaliation for reporting the
                     behavior;
                  •	 2 respondents did not believe the employee would be investigated even
                     if reported; and
                  •	 1 respondent indicated that management was already aware of this
                     behavior.

           No in-person survey respondents indicated that they personally observed
           criminal sexual behavior other than solicitation.

           Other Sexual Behavior

           Of the 38 electronic survey respondents who indicated they observed other
           sexual behavior that caused a security concern, 32 (84 percent) indicated they
           did not report the behavior. Each respondent could select multiple reasons for
           not reporting the behavior. Some frequently cited reasons include:

                  •	 18 respondents (56 percent) did not believe that management is 

                     supportive of employees reporting the behavior;

                  •	 16 respondents (50 percent) indicated that the employee engaged in the
                     behavior while off-duty;
                  •	 14 respondents (44 percent) indicated that they did not believe the
                     employee would be investigated even if reported;
                  •	 10 respondents (31 percent) indicated that management was already
                     aware of this behavior; and
                  •	 4 respondents (13 percent) indicated that someone else reported the
                     behavior.

           One in-person survey respondent indicated that they personally observed other
           sexual behavior and did report it.

           Excessive Alcohol Consumption

           Of the 138 electronic survey respondents who personally observed excessive
           alcohol consumption, 118 (86 percent) indicated they did not report the
           behavior. Each respondent could select multiple reasons for not reporting the
           behavior. Some frequently cited reasons include:

www.oig.dhs.gov                                 39	                                 OIG-14-20
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



                  •	 66 respondents (56 percent) indicated the employee engaged in the
                     behavior while off-duty;
                  •	 55 respondents (47 percent) did not believe that management is 

                     supportive of employees reporting the behavior;

                  •	 47 respondents (40 percent) were afraid of reprisal or retaliation;
                  •	 40 respondents (34 percent) indicated that management was already
                     aware of this behavior; and
                  •	 20 respondents (17 percent) indicated that someone else reported it.

           Furthermore, 15 in-person survey respondents indicated personally observing
           excessive alcohol consumption; 14 (93 percent) did not report it. Each
           respondent could select multiple reasons for not reporting the behavior. Some
           frequently cited reasons include:

                  •	 10 respondents (71 percent) indicated the employee engaged in the
                     behavior while off-duty;
                  •	 7 respondents (50 percent) indicated the behavior was not serious
                     enough to report;
                  •	 4 respondents (29 percent) indicated that management was already
                     aware of this behavior; and
                  •	 2 respondents (14 percent) indicated that someone else reported it.

           Contact with Foreign Nationals

           Seventeen electronic survey respondents observed contact with foreign
           nationals that caused a security concern, and 14 (82 percent) did not report the
           behavior. Each respondent could select multiple reasons for not reporting the
           behavior. Some frequently cited reasons include:

                  •	 7 respondents (50 percent) did not believe that management is 

                     supportive of employees reporting the behavior;

                  •	 7 respondents (50 percent) believed that management was already
                     aware of the behavior;
                  •	 6 respondents (43 percent) feared reprisal or retaliation; and
                  •	 2 respondents (14 percent) indicated that someone else reported it.

           One in-person survey respondent indicated that they personally observed
           contact with foreign nationals that caused a security concern and did not report
           it because someone else did.

www.oig.dhs.gov                                  40	                                 OIG-14-20
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Personal Conduct

           Of the 102 electronic survey respondents who indicated they observed personal
           conduct that caused a security concern, 68 (67 percent) did not report the
           behavior. Each respondent could select multiple reasons for not reporting the
           behavior. Some frequently cited reasons include:

                  •	 45 respondents (66 percent) indicated that they did not believe 

                     management is supportive of employees reporting the behavior; 

                  •	 35 respondents (51 percent) were afraid of reprisal or retaliation for
                     reporting the behavior;
                  •	 34 respondents (50 percent) did not believe that the employee would be
                     investigated even if reported;
                  •	 29 respondents (43 percent) indicated that management was already
                     aware of this behavior; and
                  •	 10 respondents (15 percent) indicated that someone else reported the
                     behavior.

           Six in-person survey respondents personally observed the behavior. Three
           respondents did not report the behavior. Each respondent could select multiple
           reasons for not reporting the behavior. Some frequently cited reasons include:

                  •	 3 respondents indicated that management was already aware of this
                     behavior;
                  •	 2 respondents indicated that someone else reported the behavior;
                  •	 2 respondents were afraid of reprisal or retaliation for reporting the
                     behavior; and
                  •	 2 respondents indicated that the employee engaged in the behavior
                     while off-duty.

           Some Employees Are Hesitant To Report Off-Duty Behavior

           More than half of survey respondents who observed excessive alcohol
           consumption, solicitation of prostitution, or other sexual behaviors that may
           cause a security concern did not report the behaviors because the employee
           engaged in the behavior while off-duty. Agency officials stated that certain
           behaviors that employees may consider as a personal matter, such as alcohol
           consumption or sexual behavior, becomes an agency’s concern if it can cause a
           security clearance holder to be coerced, exploited, or otherwise manipulated.
           This concern is heightened in the USSS because of its protective mission.

www.oig.dhs.gov                                   41	                                  OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           Some of the supervisors that we interviewed said that they explain to employees
           their responsibilities while on and off duty to maintain the reputation of the
           agency. Another supervisor told his employees that the consequences for
           misconduct are the same while on or off duty, and the rule they should follow is
           “if it does not look good, it’s not good.”

           The USSS has taken several steps to increase employees’ awareness of the codes
           of conduct that apply both on and off duty including reiterating employees’
           responsibilities to conduct themselves in a manner that reflects the highest
           standards; issuing a plain-language ethics desk guide; providing enhanced
           agency-wide ethics training; providing in-person ethics training; and providing
           “Professional Conduct” briefings to personnel prior to all protective assignments.

           Some Employees Fear Reprisal and Retaliation

           Employees consistently cited fear of reprisal or retaliation as a reason for not
           reporting solicitation of prostitution, criminal sexual behavior other than
           solicitation, excessive alcohol consumption, foreign contacts, or personal
           conduct. While 1,438 of 2,575 electronic survey respondents and 105 of 161 in-
           person respondents (56 and 65 percent respectively) indicated that they could
           report misconduct without fear of retaliation, a greater proportion of
           respondents indicated they could report suspected security concerns without
           fear of retaliation: 1,768 of 2,575 electronic survey respondents (69 percent) and
           124 of 161 in-person respondents (77 percent).

           During interviews, supervisors and employees described the USSS as a small and
           competitive agency, which can make fear of retaliation or alienation an issue.
           One supervisor explained that fear of retaliation and alienation applies even
           when trying to take measures to prevent a colleague from initially engaging in
           misconduct, which leads to the concept of “big boy/big girl rules.” A supervisor
           described this concept as personal accountability where everyone knows the
           rules and his or her responsibilities.

           The PRWG recommended USSS reinforce that a safe environment exists for
           employees to report misconduct. In response, USSS added prominent links to the
           ISP hotline on the USSS Intranet site, where employees can report misconduct.
           At the end of our fieldwork, ISP had not received any hotline reports from
           employees.



www.oig.dhs.gov                                42                                   OIG-14-20
                                       OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


               USSS Needs To Clarify When Misconduct Cases Should Be Handled by
               Managers and Supervisors

               USSS conduct policy requires that employees promptly and directly report to RES
               ISP or OIG any violations of the codes of conduct or any other misconduct not
               ordinarily addressed by management.22 However, because USSS policy does not
               clearly define misconduct issues not ordinarily addressed by management, each
               manager uses his or her own discretion either to handle misconduct issues or
               elevate them in the chain of command.

               In contrast to policy, employees appear to believe the correct process is to
               report misconduct through their chain of command. During in-person interviews,
               73 of 112 supervisors said that the process for reporting misconduct was
               through the chain of command. Furthermore, our survey results showed:

                    •	 Of 2,575 electronic survey respondents, 2,177 respondents (85 percent)
                       said they would report misconduct or illegal activities to their direct
                       supervisor, as would 152 of 161 (94 percent) of all in-person survey
                       respondents.
                    •	 In contrast, 577 of 2,575 electronic survey respondents (22 percent) and
                       31 in-person respondents (19 percent) indicated they would report
                       misconduct to the RES ISP.

               A RES senior official said guidance on referring misconduct through the chain of
               command, and eventually to RES, is at the discretion of each directorate. This
               discretion minimizes the level of consistency among managers for reporting
               misconduct. For example, 51 of 101 supervisors we interviewed said they would
               report all instances of misconduct through the chain of command. Eighteen of
               these supervisors were either an ATSAIC or Sergeant, which is the first level of
               supervisor within USSS. In contrast, a higher-level supervisor provided examples
               of minor misconduct, such as tardiness or equipment issues, that subordinate
               supervisors should handle without elevating through the chain of command.

               When an allegation is elevated through the chain of command, directorate
               leadership can decide whether to refer it to RES or conduct its own fact-finder. If
               the directorate conducts its own fact-finder, it is likely the information will not
               be provided to RES. The former Director told the directorates that their fact-
               finder reports must be provided to RES. However, this requirement is not in any
               written policy, and the extent to which the directorates provide those reports is

   22
        USSS PER-05(11) Investigations of Alleged Employee Misconduct, p. 1.

www.oig.dhs.gov                                               43	                        OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           unclear. RES has only received five fact-finders from the directorates since 2010.

           Given the chain-of-command culture of the Secret Service, employees may be
           more apt to report misconduct to their supervisor. Many supervisors explained
           that USSS leadership would not want to be caught off guard by receiving
           allegations of misconduct from headquarters offices such as RES, but would
           rather be notified initially by their subordinates.

           From first-line supervisors to the organization’s executives, individuals make
           decisions regarding whether an incident (1) can be handled at their level;
           (2) must be referred through the chain of command; or (3) should be referred
           back down to a subordinate supervisor. In the absence of sufficient guidance,
           misconduct is addressed based on managerial style, the experience level of the
           supervisor, and individual interpretations of what constitutes serious
           misconduct. USSS guidance should provide sufficient direction to staff and
           managers to ensure greater consistency in decision making.

           Recommendations

           We recommend that the Director, USSS:

           Recommendation #1: Clarify USSS’ conduct policy for reporting allegations of
           misconduct. At a minimum, the policy should define misconduct issues that are
           not ordinarily addressed by management, and clarify reporting procedures for
           referring misconduct issues through the chain of command, RES ISP, and OIG.

           Recommendation #2: Establish a written policy requiring directorate offices to
           report the results of fact-finders to RES.

           Management Comments and OIG Analysis

           Management Response to Recommendation #1: The Director of USSS
           concurred with this recommendation. In its response, USSS said it has created a
           new policy, PER-05(13), which identified a specific table of offenses and states:
           “Employees are encouraged and expected to report through their chain of
           command, or Inspection Division Hotline, or DHS office of Inspector General
           Hotline, information that indicates another employee may have engaged in
           misconduct descried in the table of penalties.” In addition, USSS said PER-05(13)
           also requires supervisors to report through their chain of command any
           misconduct committed by their subordinates included in the table of penalties
           and identifies examples of items that warrant informal discipline.

www.oig.dhs.gov                                44                                    OIG-14-20
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           OIG Analysis: We reviewed USSS’ new policy, PER-05(13). The new policy is
           responsive to the recommendation. It clarifies reporting allegations of
           misconduct and requires supervisors to report through their chain of command
           any misconduct omitted by their subordinates included in the table of penalties.
           This recommendation is Resolved – Closed.

           Management Response to Recommendation #2: The Director of USSS
           concurred with this recommendation. In its response, USSS said a new policy,
           RES-02, requires that fact-finding results be forwarded to the Office of
           Professional Responsibility via a standard form within ten days of the completion
           of investigation.

           OIG Analysis: USSS’ new policy, RES-02, is responsive to the recommendation.
           RES-02 outlines the circumstances under which directorates must forward fact-
           finding results to the Office of Professional Responsibility and instructs them to
           use the Fact Finding Form 4093, which is attached to the policy. This
           recommendation is Resolved – Closed.

           USSS Did Not Fully Investigate Allegations that an Employee Engaged in
           Misconduct While on Official Travel in a Foreign Country

           Officials stated that the process of referring allegations is sufficient, and they
           normally do not have difficulty getting necessary information or access to
           personnel. However, we identified one case that highlights how the combination
           of managerial discretion and weak internal controls affected multiple areas of
           the misconduct adjudication process. In this case, USSS did not adequately
           investigate an allegation of employee misconduct, despite the incident raising
           security concerns under the adjudicative guidelines.

           In 2010, an employee traveling in            in support of a Presidential visit went
           into the local town with other employees during a stop. The employee failed to
                                                                                      The
                                         resource intensive response by USSS personnel,
           military, and American civilian personnel
                                                                               . The employee
                       arrived at the airport
                                                 The employee was observed arriving at the
           airport with unknown local residents and smelled of alcohol. 


           When the ATSAIC questioned the employee about the incident,

                                              . The ATSAIC told the employee to

www.oig.dhs.gov                                 45                                    OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           provide a written statement
                                   Upon returning
           to the United States, the employee provided a written statement to his Special 

           Agent in Charge (SAIC),
                   In his statement to the SAIC, the employee explained that
                                                                                  .

           Directorate Leadership Did Not Refer the Incident to RES for Investigation

           When an allegation of misconduct is reported, a directorate may choose to
           initiate its own fact-finder or refer the case to RES. RES’ ISP is responsible for
           investigating violations of any provision of the agency’s minimum standards of
           conduct, and incidents which cast doubt upon the integrity of an employee. In
           this case, the employee’s Deputy Assistant Director, who would be responsible
           for referring alleged employee misconduct to internal investigations and security
           clearance officials, was advised of the incident but did not refer it to RES. RES
           and ISP officials said that they were unaware of this incident. The employee’s
           field office conducted its own fact-finder.

           This fact-finder was not thorough. The supervisor assigned to conduct the fact-
           finder did not collect a statement from the ATSAIC who remained in

           Consequently, the supervisor did not gather pertinent information about the
           employee’s ability and willingness to account for the events. What the ATSAIC
           learned was never part of the record and potentially important information was
           not included for SCD’s consideration. In addition, the supervisor conducting the
           fact-finder collected statements from five witnesses. However, (1) one of the five
           individuals who was interviewed did not witness the employee’s behavior and
           provided no relevant information, and (2) there were potentially more than five
           witnesses who could have been interviewed.

           The           incident was similar to Cartagena but was not thoroughly
           investigated. Both incidents occurred while employees were off duty supporting
           a Presidential protective visit in a foreign country. Individuals consumed alcohol;
           interacted with FFNs; and were untruthful when initially questioned by
           managers. Both incidents required managers to divert their attention to address
           potential misconduct.

           SAIC Did Not Charge the Employee with Lack of Candor

           The employee’s supervisor sent ERB and SCD a memorandum from the SAIC
           summarizing the incident and requesting a recommendation for disciplinary
           action. ERB and SCD requested the employee’s statement as well as any witness

www.oig.dhs.gov                                46                                    OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


             statements collected during the field office’s inquiry. The field office provided

             these documents. After comparing the incident to similar cases and reviewing 

             the employee’s discipline history, ERB identified                 and
             recommended that the SAIC                                                The SAIC
             initially proposed                               based on the following charges:

                  •    failure to report to duty as scheduled;
                  •    being less than candid with a USSS supervisor; and
                  •    conduct unbecoming a USSS special agent.

             The employee retained legal counsel and


             A lack of candor charge can lead to Giglio impairment, which affects the
             employee’s future ability to testify as a witness in criminal cases.23


                                                                                                             .

             Before issuance of the new suspension proposal, an ERB specialist asked the SAIC
             whether he thought the charge was not supported by the preponderance of
             evidence. The SAIC advised the ERB specialist that he did not want to affect the
             employee’s future ability to testify in criminal cases, and explained that once the
             employee cleared his head and had time to reflect fully on the events, the
             employee acted in good faith. ERB specialists informed their manager about
             their concern about changing the proposal. After a discussion with the
             employee’s Deputy Assistant Director, the manager told the ERB specialists to
             remove the charge. The ERB specialists noted in their files that the employee’s
             Deputy Assistant Director mandated that they remove the charge.

             It is unclear whether a supervisor is permitted to change the basis of a proposed
             penalty once it has been issued to the employee. During the appeal process, the
             proposed discipline is issued, and the employee may respond. If the employee
             successfully argues to have a charge removed, this would be removed in the

   23
     Ultimately, a “Giglio-impaired” law enforcement officer could be deemed unable to testify as a witness in a criminal
   case and thus unable to perform a critical element of his or her job. Pursuant to Giglio v. United States, 405 U.S. 150
   (1972) and Brady v. Maryland, 373 U.S. 83 (1963), the defense in a Federal criminal case is entitled to any information
   or evidence that tends to undermine the credibility or truthfulness of a witness. When the United States Attorney’s
   Office makes a Giglio request, a Federal agency has an affirmative duty to conduct a pretrial examination of each
   testifying law enforcement officer’s personnel file for any such derogatory information, United States v. Henthorn,
   931 F.2d 29 (9th Cir. 1991). Because a lack of candor charge against a Federal law enforcement officer relates to his or
   her propensity for truthfulness, this material would have to be provided to the United States Attorney’s Office and
   could potentially undermine the Government’s case.

www.oig.dhs.gov                                              47                                                  OIG-14-20
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           decision letter, which would state that the charge is not supported by the
           evidence. In this case, the SAIC did not justify removal of a charge due to a lack
           of evidence.

           SCD Could Not Inquire About Security Clearance Concerns

           The thoroughness of a fact-finder directly affects the adjudicative process. SCD
           depends on the thorough development of facts when addressing instances of
           misconduct. When SCD does not have sufficient information to identify and
           resolve security concerns, the office may request further information from RES
           ISP or the directorate. However, there is no policy requiring that either office
           provide additional information to SCD or make the employee available to SCD for
           additional questioning.

           SCD has minimal investigative capabilities, and it cannot request that RES ISP
           conduct an investigation without approval of the directorate where the
           employee is assigned. If SCD and the directorate disagree whether further
           investigation is needed or whether the case should be referred to RES, it is
           unclear what recourse SCD has to resolve outstanding security concerns.

           These issues were apparent in this case. Using the information in the fact-finder,
           the SCD Counterintelligence Branch conducted a counterintelligence review on
           the employee to assess possible security concerns related to foreign intelligence.
           The Counterintelligence Branch produced a report identifying several security
           concerns and developed a 56-question template to ascertain additional
           information from the employee. The counterintelligence report identified
           several security concerns including that the employee was possibly (1)
           concealing damaging information; (2) drugged by locals; (3) concealing damaging
           information to avoid taking a drug test; and (4) omitting other pertinent
           information. However, the employees’ Deputy Assistant Director would not
           authorize SCD to question the employee even after the CSO explained the
           security concerns to this official.

           SCD maintains the authority to suspend an employee’s security clearance while it
           reviews derogatory information affecting an employee’s ability to maintain a Top
           Secret clearance. However, in this instance, SCD was not able to suspend the
           employee’s security clearance because it did not have sufficient credible
           evidence and was not allowed to seek this evidence.




www.oig.dhs.gov                                 48                                    OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security




           In this case, managerial discretion interfered with the agency’s ability to resolve
           potential security concerns. Because SCD did not vet counterintelligence
           concerns related to the employee’s conduct, counterintelligence vulnerabilities
           may exist. A senior USSS official familiar with the incident acknowledged that
           when it occurred in 2010, the employee’s directorate typically performed its own
           fact-finding investigations. The official explained that prior to the Cartagena
           incident USSS had less reason to be concerned about employee misconduct
           during foreign travel.

           USSS suspended clearances of those employees implicated in the Cartagena
           incident, and in some cases, revoked employees’ clearances or terminated them
           in part due to a lack of candor. Truthfulness when questioned about events,
           regardless of how embarrassing or personal, is a concern of the agency’s when
           the security clearance holders and the security of the President are involved.



           Other senior officials familiar with the case said that in light of the Cartagena
           incident, USSS would handle this incident differently now and it would likely be
           referred to RES. USSS should take steps to ensure that allegations of misconduct
           are consistently identified, thoroughly investigated, and fully reviewed for
           security concerns.

           Recommendations

           We recommend that the Director, USSS:

           Recommendation #3: Establish a written policy granting the Chief Security
           Officer unfettered access to employees to obtain information relating to
           potential security concerns.

           Recommendation #4: Establish a written policy identifying the circumstances
           under which managers may conduct their own fact-finders.

           Recommendation #5: Create and document procedures for collecting and
           recording facts by managers who conduct fact-finders.




www.oig.dhs.gov                                49                                    OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Management Comments and OIG Analysis

           Management Response to Recommendation #3: The Director of USSS
           concurred with this recommendation. In its response, USSS said it revised policy
           SCD-02(01) to clarify that the Chief Security Officer has direct access to
           employees in order to obtain information relating to potential security concerns.

           OIG Analysis: We reviewed SCD-02(01). USSS’ revision of its policy to specifically
           state that the Chief Security Officer has direct access to employees in order to
           obtain information relating to potential security concerns is responsive to this
           recommendation. This recommendation is Resolved – Closed.

           Management Response to Recommendation #4: The Director of USSS
           concurred with this recommendation. In its response, USSS said it established a
           policy, RES-02, to provide additional clarity for managers.

           OIG Analysis: We reviewed RES-02. USSS’ new policy clarifies for managers
           actions that are not considered fact-finding investigations, as well as
           circumstances under which directorates are authorized to conduct a fact-finding.
           The policy is responsive to this recommendation. This recommendation is
           Resolved – Closed.

           Management Response to Recommendation #5: The Director of USSS
           concurred with this recommendation. In its response, USSS said its policy, RES­
           02, now outlines the procedures for collecting and recording facts by managers
           who conduct fact-findings.

           OIG Analysis: USSS’ new policy, RES-02, outlines procedures for collecting and
           recording facts by managers who conduct fact-findings, and is responsive to the
           intent of this recommendation. This recommendation is Resolved – Closed.

           Policies and Procedures for Proposing and Issuing Discipline are Insufficient

           USSS policy does not define which infractions would, at a minimum, require
           formal discipline. Because a managers’ obligation to contact ERB is based on the
           manager’s intention to administer formal discipline or adverse action, this
           obligation can be interpreted differently, leading to different approaches to
           misconduct across the agency. In addition, it is unclear whether ERB’s current
           tools are sufficient for recommending reasonable and consistent discipline.



www.oig.dhs.gov                                50                                   OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Managers Interpret Their Obligation To Contact ERB Differently

           Any official contemplating a penalty against an employee must contact ERB for
           guidance prior to initiating any formal disciplinary or adverse actions. However,
           USSS does not have a policy that states what behaviors require formal
           disciplinary or adverse actions and appropriate penalties. Therefore, unless a
           manager calls ERB when the misconduct occurs to determine whether it would,
           at a minimum, require formal discipline, the agency cannot ensure managers are
           addressing similar misconduct consistently across the agency.

           In our interviews, managers said they considered ERB part of the formal
           discipline and adverse action process and that they call ERB before administering
           these penalties as required by policy. Several considered ERB the best source for
           information regarding discipline and relied on these recommendations to ensure
           consistency with the rest of the agency. For example, one manager explained
           that an employee may commit an offense and the manager might be very upset
           and want to take severe action. However, when they call ERB they are advised as
           to what action would be appropriate and consistent with the agency’s approach
           to that offense.

           However, managers differed as to when they contact ERB. While some managers
           call ERB to determine whether an offense meets the threshold for formal
           discipline or adverse action, others determine on their own whether the offense
           meets that threshold and call ERB only if they are considering formal discipline or
           adverse action. These different approaches jeopardize consistency and
           reasonableness of discipline across the agency.

           Managers, based on their experience and managerial style, may inadvertently
           apply informal discipline when formal discipline is more appropriate, making the
           discipline unreasonably lenient. Furthermore, if one manager administers formal
           discipline for an offense that another manager addresses with informal
           discipline, this creates inconsistency across the agency.

           Another reason USSS requires managers to contact ERB is because USSS uses a
           progressive disciplinary system that accounts for past disciplinary and adverse
           actions when determining discipline. Therefore, a more severe disciplinary action
           than would otherwise be taken may be imposed upon an employee whenever
           that employee has previously been formally disciplined. In USSS, all prior formal
           discipline may be considered regardless of when it was administered.

           A supervisor needs to know whether misconduct by an employee is a repeat
           offense before administering discipline. USSS employees transfer frequently and

www.oig.dhs.gov                                51                                    OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           a manager may not know about an employee’s formal disciplinary history unless
           he or she contacts ERB. A manager may consider informal discipline appropriate
           because, in his or her estimation, the offense is minor or occurred for the first
           time. Therefore, having determined to administer informal discipline, the
           manager may not consult ERB. However, if the manager consulted ERB upon
           initially learning of the misconduct, the manager may learn the employee had
           been disciplined for this behavior in the past and may choose to administer
           formal discipline instead.

           The current policies and process provide little opportunity to define or adjust
           managers’ thresholds for applying formal discipline. If a manager addresses an
           offense with informal discipline, such as a memorandum of counseling, the
           manager would not be required to call ERB. Therefore, ERB would not have an
           opportunity to educate the manager on the appropriate discipline for the
           offense. Since the Cartagena incident, USSS has provided training to encourage
           supervisors to bring potential issues to ERB regardless of how small the issues
           may seem.

           ERB Needs Data Integrity Controls

           ERB maintains a database of formal disciplinary and adverse actions initiated by
           managers and tracks the disposition of these actions. However, ERB specialists
           maintain the database for their use and do not always enter information
           accurately and consistently. For example, we identified employee names
           misspelled; misconduct charges not standardized; and inaccurate entries for ISP
           involvement in misconduct cases. These data quality issues make it difficult to
           identify serial offenders easily and conduct historical analyses across the agency
           when researching new cases. Furthermore, the section of the database where
           specialists may make notes about the case is used differently. For example, some
           specialists use this space to provide additional information about when the case
           was referred to other offices while other specialists use the field infrequently, if
           at all.

           ERB’s database also may not include all instances of misconduct that warrants
           formal discipline. For example, an employee may have been under ISP
           investigation or the employee’s security clearance may have been under review.
           However, the employee may resign or retire before any disciplinary action is
           taken, and ERB may not be made aware of the misconduct.

           As discussed previously, USSS has assigned a Chief Integrity Officer and expects
           this individual to conduct risk assessments to identify emerging misconduct
           trends. While ISP’s database tracks the most serious misconduct cases, and SCD’s

www.oig.dhs.gov                                52                                     OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           database captures security concerns, ERB’s database potentially represents the
           most complete historical record of misconduct across the agency. The Chief
           Integrity Officer may rely on this data to conduct analyses. Enhanced data quality
           would not only allow ERB specialists to perform their role more effectively, but
           would provide the agency valuable information to analyze misconduct trends.

           ERB Comp Sheets Are Inconsistent and Incomplete

           ERB’s main tool for recommending discipline is the comparable discipline sheet,
           or “comp sheet.” A comp sheet is a summary of all past disciplinary adjudications
           for a category of misconduct. ERB uses the sheets to compare incoming cases to
           the historical record to provide recommendations to managers about penalties
           that are consistent with past recommendations. ERB has 56 comp sheets listing
           various offenses. However, comp sheets contain broad, incomplete, or
           inconsistently defined and updated categories. The more inaccurate its comp
           sheets are the less consistent ERB’s recommendations for disciplinary action will
           be.

           Complete comp sheets allow an ERB specialist to compare a new incident with all
           the prior incidents that may have occurred in USSS. However, the comp sheets
           do not include all instances of formal discipline or adverse action from the
           historical record. Of 247 cases reviewed, 145 (59 percent) were documented on
           the comp sheets; 97 (39 percent) were not documented on any comp sheet; and
           5 (2 percent) were documented on the wrong comp sheet.

           Many instances of formal discipline or adverse action include more than one
           category of misconduct, but are not always listed on all applicable comp sheets.
           For example, an employee was disciplined for Absence Without Leave, Failure to
           Follow Guidelines Outlined in Leave Memorandum, and Failure to Follow
           Supervisory Instructions. Although ERB has comp sheets for the two latter
           categories, this instance of formal discipline was only included in the Absence
           Without Leave comp sheet.

           ERB specialists said they review the past 3 years of similar misconduct across the
           agency to recommend discipline to managers which is consistent with the
           agency’s historical record. However, ERB is not updating comp sheets
           consistently to include recent misconduct cases. Of the 97 cases that were not
           documented in any of the comp sheets, 27 of those cases (28 percent) involved
           allegations of misconduct that occurred between 2010 and 2013. Also, 14 comp
           sheets did not have any entries within the last 3 years.



www.oig.dhs.gov                                53                                   OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           We also reviewed six comp sheets that did not have any dates, information, or
           another case for comparison to an incoming disciplinary action. Five comp sheets
           had entries that were dissimilar in incidents, prior offenses, or discipline.

           Broad Misconduct Charges May Lead to Inconsistent Disciplinary Actions

           Determining the charges that apply to an act of misconduct is the first step for
           an ERB specialist recommending discipline to a manager. Some of these charges
           are defined better than others. Managers can implement more consistent
           disciplinary action when a charge is defined clearly.

           For example, USSS uses Discourteous Conduct to charge employees for being
           rude to fellow employees and supervisors, external DHS components, state and
           local law enforcement entities, and the general public. In contrast, USSS uses
           Conduct Unbecoming for several different types of misconduct including driving
           under the influence, sexual harassment, criminal behavior, and other types of
           criminal and non-criminal misbehavior. Conduct Unbecoming has also been used
           to categorize instances of misconduct that have their own charges. For example,
           an employee was discourteous to a White House press photographer. Although
           this would be considered Discourteous Conduct, the employee was charged with
           Conduct Unbecoming.

           As figures 18 and 19 show, outcomes of disciplinary actions for Discourteous
           Conduct were more consistent than those for Conduct Unbecoming for all
           disciplinary and adverse actions.




www.oig.dhs.gov                               54                                   OIG-14-20
                                           OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security

    Figure 18: Frequency of outcomes and number of days suspended for offenses that ERB categorized as 

                                          Discourteous Conduct




    25


    20


    15


    10


     5


     0
             Counsel/ LOR     1      2      3       4      5      6      7      8      9      10     11     12     13     14    15-29   30+
              0 days         day    days   days    days   days   days   days   days   days   days   days   days   days   days   days    days

   Source: ERB
   Note: LOR is Letter of Reprimand

    Figure 19: Frequency of outcomes and number of days suspended for offenses that ERB categorized as 

                                          Conduct Unbecoming


         8

         7

         6

         5

         4

         3

         2

         1

         0
              Counsel/ LOR     1     2       3      4      5      6      7      8      9      10     11     12     13     14    15-29   30+
               0 days         day   days    days   days   days   days   days   days   days   days   days   days   days   days   days    days


   Source: ERB
   Note: LOR is Letter of Reprimand




www.oig.dhs.gov                                                  55                                               OIG-14-20
                                      OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


             USSS officials explained that, in cases where the employee is facing a penalty of
             more than a 14-day suspension and can appeal before the MSPB, the agency
             uses Conduct Unbecoming as a general charge for various types of misconduct.
             By using a general charge but being specific about the conduct leading to the
             charge, the agency is more likely to substantiate the charges before the MSPB.
             However, as figure 19 shows, most USSS Conduct Unbecoming cases result in
             penalties less severe than a 14-day suspension and are therefore not subject to
             the MSPB appeal process. Therefore, this legal strategy does not fully explain the
             inconsistency in disciplinary outcomes for Conduct Unbecoming charges. It is
             more likely that, given the wide range of misconduct categorized as Conduct
             Unbecoming, it is difficult to apply consistent disciplinary penalties for this
             charge. It would also be difficult for an ERB specialist to find all relevant prior
             cases to compare and provide disciplinary recommendations to managers.

             In another example, categories of misconduct describing lost or misplaced
             weapons are also specific to that conduct. The discipline across the agency over
             its history has also been fairly consistent, as shown in figure 20.

    Figure 20: Frequency of outcomes and number of days suspended for offenses that ERB placed in a Lost
                                     and Misplaced Weapons category

     25


     20


     15


     10


      5


      0
          Counsel/ LOR    1     2      3      4      5      6      7      8      9      10     11     12     13     14    15-29   30+
           0 days        day   days   days   days   days   days   days   days   days   days   days   days   days   days    days   days
   Source: ERB
   Note: LOR is Letter of Reprimand




www.oig.dhs.gov                                            56                                                OIG-14-20
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Survey Results Regarding Discipline Policies, Fairness, Consistency, and
           Appropriateness

           The final portion of our survey addressed the adequacy of USSS’ process for
           adjudicating and administering disciplinary actions. The vast majority of survey
           respondents believe appropriate discipline policies and procedures are in place.
           Additionally, while a plurality of respondents believe the disciplinary process is
           fair and at the appropriate level; a noteworthy minority have negative
           perceptions in these areas. Feelings regarding the consistency of discipline are
           mixed; with noteworthy percentages of respondents with either positive or
           negative perceptions.

           Our survey asked whether employees felt appropriate policies and procedures
           exist to address employee violations of any law, rule, regulation, or standards of
           conduct. Of the 2,575 electronic survey respondents, 2,081 (81 percent) believe
           USSS has appropriate policies and procedures in place. Of the 161 in-person
           survey respondents, 147 (91 percent) believe USSS has appropriate policies and
           procedures in place.

           When questioned about whether the disciplinary process is fair, respondents
           were mostly positive, but others were negative or neutral.

                  •	 Of the 2,575 electronic survey respondents, 1,037 (40 percent) believe
                     USSS’ disciplinary process is fair, and 75 of 161 (47 percent) of in-person
                     respondents believe the process is fair.
                  •	 Of the 2,575 electronic survey respondents, 589 (23 percent) do not
                     believe the process is fair. Similarly, 39 of the 161 in-person respondents
                     (24 percent) do not believe the process is fair.
                  •	 Of the 2,575 electronic survey respondents, 626 (24 percent) and 34 of
                     the 161 in-person respondents (21 percent) indicated that they neither
                     agree nor disagree that the process is fair.

           A similar percentage of respondents had both positive and negative perceptions
           regarding the consistency of penalties for similar offenses.

                  •	 Of the 2,575 electronic survey respondents, 763 (30 percent) and 52 of
                     the 161 in-person respondents (32 percent) indicated they do not believe
                     USSS applies discipline consistently for similar offenses.
                  •	 Of the 2,575 electronic survey participants, 773 (30 percent) and 59 of
                     the 161 in-person respondents (37 percent) believe discipline is
                     consistent.

www.oig.dhs.gov                                   57	                                   OIG-14-20
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                  •	 Of the 2,575 electronic survey respondents, 452 (18 percent) and 24 of
                     the 161 in-person respondents (15 percent) told us they do not know
                     how consistent disciplinary actions are.

           Finally, a plurality of respondents believes that penalties are at the appropriate
           level.

                  •	 Of the 2,575 electronic survey respondents, 941 (37 percent) and 85 of
                     the 161 in-person respondents (53 percent) said they believe disciplinary
                     actions within the USSS are at the appropriate level of severity given the
                     offense.
                  •	 Of the 2,575 electronic survey respondents, 457 (18 percent) of
                     electronic and 29 (18 percent) of the 161 in-person survey respondents
                     do not believe the actions are at the appropriate level.

           USSS Is Considering Making Disciplinary Actions More Transparent

           In its report, the PRWG noted that the FBI publishes a newsletter displaying
           anonymously a sample of violations and incidents and the resulting disciplinary
           actions. This newsletter communicates to employees the consequences for
           violations and allows employees to assess the fairness of the disciplinary system.
           The PRWG recommended that USSS provide similar information to its workforce
           to the extent consistent with law while protecting the identity of the affected
           employees. USSS is considering how to implement this recommendation. Senior
           management expressed concerns about privacy, especially given that the small
           size of the agency will make it more difficult to protect an employee’s identity
           even if the information is sanitized.

           The PRWG also recommended USSS consider establishing a cross-agency
           disciplinary review panel to increase transparency and remove the responsibility
           for disciplinary decisions from the employee’s direct supervisor. USSS’ Office of
           Chief Counsel (OCC) is currently working with the Assistant Directors of Human
           Resources and Training and RES to design and implement a disciplinary review
           panel. USSS expects to implement the panel by the end of 2013.

           Several senior managers we interviewed support the concept. Of the 19 senior
           managers we spoke with, 10 supported the idea of a panel while 1 was not
           supportive. Eight senior managers did not provide an opinion or said they had no
           basis to judge.

           Supervisors we interviewed had mixed opinions as to whether USSS should

www.oig.dhs.gov                                   58	                                  OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           establish a disciplinary panel. Several supervisors believed the panel would be a
           good idea because it would introduce transparency and fairness and reduce the
           likelihood that a manager would retaliate against or favor an employee. Other
           supervisors did not support the concept, believing that the SAIC knows the
           employee best and is in the best position to consider mitigating and aggravating
           circumstances. Furthermore, enforcing discipline is part of the SAIC’s authority
           as a manager. Some supervisors see the ERB as an independent disciplinary
           panel.

           If USSS does implement the panel, it should ensure that it establishes procedures
           for board members to recuse themselves when there is a conflict of interest or
           the board member is in the employee’s chain of command. USSS could also allow
           the SAIC to submit a statement regarding the employee’s service or the
           misconduct’s affect on USSS’ mission.

           Recommendations

           We recommend that the Director, USSS:

           Recommendation #6: Define and document specific offense categories, as well
           as subcategories of broader categories, such as Conduct Unbecoming, to ensure
           ERB specialists consistently categorize misconduct.

           Recommendation #7: Establish and document a quality control process to
           ensure comparable offense sheets reflect specific offense categories, are up-to­
           date, and complete.

           Recommendation #8: Establish and document a quality control process to
           ensure ERB specialists enter and update misconduct case information in their
           database accurately and consistently.

           Management Comments and OIG Analysis

           Management Response to Recommendation #6: The Director of USSS
           concurred with this recommendation. In its response, USSS said its policy PER­
           05(13) now includes a detailed table of specific offense categories and
           accompanying penalties to ensure consistency and transparency in the discipline
           process.

           OIG Analysis: We reviewed PER-05(13). The new policy includes a detailed table
           of specific offense categories and accompanying penalties. The policy is

www.oig.dhs.gov                                59                                   OIG-14-20
                                       OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


               responsive to the intent of this recommendation. This recommendation is
               Resolved – Closed.

               Management Response to Recommendation #7: The Director of USSS
               concurred with this recommendation. In its response, USSS said it has eliminated
               the need for comparable offense sheets in its new discipline process but they
               agree that a quality control process is important for maintaining an equitable
               discipline process.

               OIG Analysis: USSS has eliminated comparable offense sheets. Therefore, this
               recommendation is Resolved – Closed.

               Management Response to Recommendation #8: The Director of USSS
               concurred with this recommendation. In its response, USSS said it has updated
               its standard operating procedures to ensure that the database is updated
               accurately and consistently.

               OIG Analysis: USSS’ has established two quality control procedures to ensure
               that the database is updated accurately and consistently. USSS provided an
               excerpt from the procedures titled “Discipline Log.” First, the ERB Branch Chief
               must review the log for each action when it is received. Second, on a monthly
               basis, the ERB Branch Chief will verify the accuracy of all information related to
               pending disciplinary cases in the database. This recommendation is Resolved –
               Closed.

               USSS Is Not Always in Compliance with Federal Disciplinary Regulations

               We reviewed 122 proposed adverse actions for 120 non-probationary
               employees. We determined that USSS complied with Federal requirements for
               an advance written notice and a reasonable timeframe for the employee to
               reply. However, summaries of employee oral replies to proposed actions were
               missing from more than 76 percent of the case files despite Federal regulations
               requiring agencies maintain such documentation. Additionally, written replies
               were missing from 10 percent of files.

               Administrative Requirements for Adverse Action

               Federal law and regulations govern adverse actions, which include suspensions;
               reductions in pay or grade; and removals. 24 The regulations apply to non­

   24
        5 U.S.C. Chapter 75 and 5 CFR Part 752

www.oig.dhs.gov                                        60                                 OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           probationary employees, including, but not limited to, those who occupy a
           Schedule B appointment. An employee facing an adverse action is entitled to an
           advance written notice stating the specific reasons for the proposed action; a
           reasonable time to answer orally and in writing and to furnish affidavits or other
           documentary evidence in support of the answer; and a written decision with the
           specific reasons for it at the earliest practicable date. Employees facing more
           than a 14-day suspension are allowed (unless there is reasonable cause to
           believe they have committed a crime for which a sentence of imprisonment may
           be imposed) at least 30 days’ advance written notice and not less than 7 days to
           respond.

           In the written decision, the USSS must advise affected employees of their appeal
           or grievance rights. Employees receiving an adverse action more severe than a
           14-day suspension may appeal the decision either to the MSPB. If the adverse
           action is a suspension for 14 days or less, the affected employee may only file a
           grievance. In all cases, as part of the appeal or grievance, the affected employee
           has a right to file directly with the agency's Equal Employment Office or Office of
           Special Counsel any allegations of discrimination, reprisal for whistle blowing,
           and other prohibited personnel practices.

           For all adverse actions, the USSS is responsible for maintaining copies of the
           notice of proposed action; the employee’s answer if written or a summary
           thereof if made orally; the notice of decision and reasons therefore; and any
           order affecting the suspension, together with any supporting material. Upon
           request, the USSS must furnish these documents to the MSPB or affected
           employee.

           Incomplete Case Files

           We reviewed ERB’s case files for 122 proposed adverse actions ranging from 1­
           day suspensions to removals. These actions involved 120 non-probationary
           employees from 42 divisions or offices.

           We verified that all 122 case files complied with Federal requirements for an
           advance written notice and a reasonable timeframe for the employee to reply.
           The case files included copies of the proposed action. These notices included
           detailed descriptions of the offense and incident triggering the proposed adverse
           action. They also identified the affected employee’s right to reply orally and in
           writing within 15 calendar days of receiving the notice; provide documentation
           supporting the reply; have representation; have a reasonable amount of official
           duty time to prepare and present a reply; and review the documentation

www.oig.dhs.gov                                61                                    OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


            supporting the proposed adverse action.

            Due to the severity of the proposed adverse action in 12 of the 122 cases, the
            USSS had to provide the employees with at least 30 days’ advance written notice
            and not less than 7 days to respond with supporting documentation. We
            determined that USSS met this requirement in all 12 cases.

            Employees provided an oral response to the proposed adverse action in 46 of
            the 122 cases. USSS officials summarized or had transcripts of the oral replies in
            11 instances. There was no such documentation or reference made to such
            documentation in 35 of the 46 case files provided to the OIG. Although USSS
            guidance does not require such documentation for suspensions for 14 or fewer
            days, Federal law and regulations require that agencies maintain summaries of
            the affected employee’s oral reply, if any, for all adverse actions.

            In 51 of the 122 cases, the affected employee replied in writing to the proposed
            adverse action. During our file review, we located copies of the employee’s
            written reply in 46 of the 51 case files. Upon notification, USSS officials located
            their record of one additional employee’s written reply. In total, 4 of the 113
            case files did not include a copy of the employee’s written reply. According to
            Federal law and regulations, agencies shall maintain an employee’s written reply
            to a proposed adverse action. USSS guidance does not specifically address the
            Federal requirement.

            Of the 122 proposed adverse actions, 113 required a notice of decision.25 During
            our file review, we located notices of decision in 106 case files. Upon
            notification, USSS officials located notices of decision for two additional case
            files. In total, 5 of the 113 case files did not include notices of decision. According
            to Federal law and regulations, agencies shall maintain notices of decision.

            Recommendations

            We recommend that the Director, USSS:

            Recommendation #9: Ensure summaries of oral appeals to adverse actions are
            retained in case files.

            Recommendation #10: Ensure that notices of decision are retained in case files.

   25
     In two cases, the employee resigned before discipline was administered, and in seven others the employee waived
   the right to receive a written decision.

www.oig.dhs.gov                                           62                                              OIG-14-20
                                       OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


               Management Comments and OIG Analysis

               Management Response to Recommendation #9: The Director of USSS
               concurred with this recommendation. In its response, USSS said a checklist has
               been developed to ensure that oral summaries are properly retained.
               Additionally, standard operating procedures have been updated and Employee
               Relations Branch specialists have been trained on the new process.

               OIG Analysis: We subsequently reviewed the checklist, the notification to ERB
               Specialists concerning use of the checklist, and USSS’ description of an
               interactive training session it conducted for Employee Relations Branch staff.
               The creation of a checklist to ensure oral summaries are properly retained is
               responsive to this recommendation. This recommendation is Resolved – Closed.

               Management Response to Recommendation #10: The Director of USSS
               concurred with this recommendation. In its response, USSS said the checklist
               described in the its response to Recommendation #9 will ensure that all relevant
               information, including notices of decisions, will be maintained in case files.

               OIG Analysis: USSS provided a copy of the case file checklist. It includes notices
               of decisions, and is responsive to the recommendation. This recommendation is
               Resolved – Closed.

               Internal Controls Are Insufficient To Ensure Discipline Is Aligned with Agency
               Principles

               USSS policy provides seven principles to guide disciplinary actions. Overall,
               disciplinary actions must be taken for good cause, and giving due consideration
               to the aggravating and mitigating circumstances. 26 Mitigating circumstances may
               lessen the gravity of the employee’s offense, while aggravating circumstances
               may increase the gravity of the employee’s offense. Specifically, all disciplinary
               actions should be corrective; consistent; non-discriminatory; timely; progressive;
               constructive; and to promote the efficiency of the agency.

               Although USSS policy states managers must give due consideration to applicable
               mitigating and aggravating circumstances, it does not provide managers
               guidance on how to consider these factors in the majority of cases. The MSPB
               expects agencies to have considered Douglas Factors when administering
               discipline more severe than a 14-day suspension to ensure the discipline is

   26
        USSS PER-11(01) Disciplinary and Adverse Actions - General

www.oig.dhs.gov                                               63                         OIG-14-20
                                        OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


               reasonable. The Douglas Factors list specific criteria to ensure a manager is
               evaluating relevant employee circumstances and coming to a fair and reasonable
               disciplinary penalty. USSS managers use this list when considering penalties of
               15-day suspensions or greater, which are appealable to MSPB. However, USSS
               does not require managers to consider the Douglas Factors for misconduct cases
               resulting in penalties of 14 days or less and has no alternate guidance for these
               cases. According to ERB’s database, 89 percent of USSS’ misconduct cases
               between January 2004 and February 2013 resulted in a proposed disciplinary
               action of less than a 15-day suspension, and therefore not appealable to MSPB.
               Furthermore, USSS policy does not require managers to document their
               consideration of the factors they use in determining the reasonableness of non-
               appealable actions.

               As discussed previously, USSS policy also states that formal disciplinary and
               adverse actions should be consistent with other such actions taken by USSS for
               similar infractions. ERB maintains historical records of disciplinary and adverse
               actions. Therefore, for a manager to comply with USSS’ principle of consistency,
               the manager should be administering discipline in line with what ERB advises is
               consistent with the agency’s past disciplinary actions.

               USSS managers generally propose discipline within ERB’s recommended range,
               but less frequently make final discipline decisions that are within ERB’s
               recommended range. We reviewed 85 cases where ERB’s recommendation to
               the manager was documented in the file. In 9 of the 85 cases (11 percent),
               managers proposed discipline outside ERB’s recommended range. However, in
               24 of the 85 cases (28 percent), the discipline managers administered following a
               discipline proposal was outside the range of what ERB had recommended.
               Specifically, 22 instances were less than the range recommended, and 2 were
               more than the range recommended.

               Although consistency is an important factor in discipline, agency managers have
               discretion to decide an appropriate penalty as long as it promotes the efficiency
               of the service. 27 However, without guidance on evaluating an employee’s
               individual circumstances regarding non-appealable actions similar to the Douglas
               Factors, and no requirement to document this consideration, USSS will not be
               able to ensure managers are giving due consideration to appropriate factors, and
               disciplinary actions are reasonable. For example, when a manager proposes
               discipline according to what ERB advises is consistent with the historical record,
               the manager may ultimately decide to mitigate the proposed discipline.

   27
        E.g., 5 U.S.C. 7513(a)(adverse actions appealable to the MSPB).

www.oig.dhs.gov                                                64                       OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


           However, USSS managers rarely explain what factors led to their decision to
           mitigate proposed discipline. Of the 122 proposed adverse actions we reviewed,
           the manager reduced the penalty in 44 cases (36 percent) in response to oral
           responses, written responses, or both. In four instances, the deciding official
           reduced the penalty without any response from the employee. As shown in
           figure 21, the deciding officials provided a justification for the reduced penalty in
           2 of the 44 cases (5 percent). As discussed previously, employee responses that
           resulted in these mitigations are also not always documented.

       Figure 21: Mitigated discipline after different employee responses and associated documentation

                  Discipline mitigated       Employee response in file       Manager's justification provided
                                                                   18




         13




                                         9
                                              8
                                                                         7


                                                                                                4


                  1                                  1                          1
                           0                                                                          0     0

              Oral reply                 Written reply          Both oral and written           No response
   Source: USSS ERB


           Another USSS guiding principle is that disciplinary actions must be progressive.
           USSS policy states that, in progressive discipline, a more severe disciplinary
           action than would otherwise be taken may be imposed upon whenever an
           employee has previously received a written reprimand or a suspension. All prior
           discipline may be considered regardless of when it was administered. Based on
           our analysis of ERB’s records, we determined that 107 employees committed
           more than one offense from 2004 to 2013. However, 59 of these employees
           received a harsher discipline for the subsequent offense. In 12 cases, the
           discipline was actually less severe than for the previous offense. Again, without
           documentation of a manager’s consideration of factors that led to his or her
           decision, USSS cannot demonstrate that these decisions are reasonable even if

www.oig.dhs.gov                                          65                                         OIG-14-20
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           they are not aligned with one of USSS’ disciplinary principles. Ensuring that
           managers document their disciplinary decisions would decrease the agency’s
           exposure to allegations of disparate treatment and enhance supervisor
           credibility.

           USSS Penalties Are Often Less Severe than Other DHS Law Enforcement
           Agencies

           USSS often administers penalties that are less severe than the range of
           recommended penalties at other DHS law enforcement components. We
           compared USSS’ disciplinary response for specific infractions to discipline ICE,
           TSA, and CBP would recommend for similar infractions. We reviewed tables of
           penalties of each of these DHS components. We limited our analysis to informal,
           formal, or adverse actions USSS administered for a single offense to individuals
           with no prior discipline. Further, we limited our analysis to cases where we had
           sufficient information to compare the offense to TSA, ICE, and CBP offense
           categories. Between 2004 and 2013, USSS administered discipline for a single
           offense to one-time offenders 341 times. We determined that:

                  •	 In 265 of the 341 instances (78 percent), USSS administered less severe
                     discipline than one or more of TSA, ICE, and CBP’s tables of penalties
                     suggest those agencies would have administered.
                  •	 In 141 of these 265 instances (53 percent), USSS administered less severe
                     discipline compared to all three of the comparison agencies’ tables of
                     penalties.
                  •	 For the remaining 76 of the 341 instances (22 percent), USSS
                     administered discipline within or above the range of what TSA, ICE, and
                     CBP’s tables of penalties suggest those agencies would have
                     administered.

           The three most common categories where USSS has administered less severe
           discipline than TSA, ICE, or CBP are Neglect of Duty (60 percent); Integrity and
           Ethics (16 percent); and Property Misuse, Loss or Damage (7 percent). Figure 22
           provides examples of Neglect of Duty offenses where USSS administered less
           severe discipline than other agencies.




www.oig.dhs.gov                                  66	                                 OIG-14-20
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

         Figure 22: Examples of Neglect of Duty Offenses Where USSS Issued Less Severe Discipline than
                                     other DHS Law Enforcement Agencies


                          USSS                                  Other DHS Law Enforcement Agencies

         Examples of USSS         USSS’ Range of            CBP                     ICE            TSA
            Employee              Decided Action        Recommended            Recommended     Recommended
            Misconduct                                  Penalty Range          Penalty Range   Penalty Range


        Failure to Report for         Memo of             5- to 14-day          5- to 14-day    5- to 14-day
         Duty as Scheduled            counsel             suspension            suspension      suspension



           Leaving Post            No action to 3­
                                                          5- to 14-day          5- to 14-day    5- to 14-day
          Without Proper             weekday
                                                          suspension            suspension      suspension
          Authorization             suspension


         Failure to Observe
             Established
                                                          7- to 14-day          5- to 14-day     No Penalty
          Apprehension or            Reprimand
                                                          suspension            suspension      Range Listed
         Detention Policies
          and Procedures

           Sources: USSS ERB Database, CBP, ICE, and TSA Tables of Penalties


           USSS Is Considering Establishing a Table of Penalties

           The PRWG recommended that USSS consider establishing a table of penalties.
           USSS is currently reviewing their discipline data to identify common infractions
           and penalties, as well as other Federal law enforcement entities’ tables of
           penalties. USSS managers involved with implementing the table of penalties
           explained that the table of penalties will still allow for consideration of relevant
           mitigating and aggravating factors. One USSS official responsible for
           implementing the recommendation explained the table of penalties has to be
           appropriate for USSS job functions and mission. A few USSS officials
           acknowledged that initial reviews of other agencies’ tables of penalties revealed
           that USSS’ takes less severe disciplinary actions compared to other agencies.




www.oig.dhs.gov                                         67                                        OIG-14-20
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendations

           We recommend that the Director, USSS:

           Recommendation #11: Ensure manger consideration of mitigating and
           aggravating factors is documented in notices of proposed action and decisions
           for non-appealable disciplinary actions.

           Recommendation #12: Develop and implement a process to ensure that
           disciplinary actions are progressive.

           Management Comments and OIG Analysis

           Management Response to Recommendation #11: The Director of USSS
           concurred with this recommendation. In its response, USSS said its newly
           designed file checklist will ensure that documentation regarding managers’
           consideration of mitigating and aggravating factors is retained in case files.

           OIG Analysis: USSS’ creation of a checklist to ensure that documentation
           regarding managers’ consideration of mitigating and aggravating factors is
           retained in case files does not meet the intent of this recommendation. Our
           intent is to ensure that a manager’s consideration of mitigation and aggravating
           factors is included in the notices of proposed action and decisions, and not as a
           separate document in the case file. This recommendation is Unresolved – Open.

           Management Response to Recommendation #12: The Director of USSS
           concurred with this recommendation. In its response, USSS said it has further
           clarified that disciplinary actions are to be progressive in its enhanced discipline
           process.

           OIG Analysis: We reviewed PER-05(13), USSS Table of Penalties and section
           titled, “Purpose and Progressive Nature of Discipline.” The policy states that
           discipline is progressive in nature, meaning that subsequent acts of misconduct
           are treated with increasing severity, especially but not exclusively, when the acts
           are of similar nature.” We acknowledge that it is a new policy and progressive
           discipline is defined. The checklist suggests officials must sign off on Douglas
           Factors, which include consideration of prior offenses. In its corrective action
           plan, USSS should demonstrate how progressive discipline will be administered.
           This recommendation is Resolved – Open.



www.oig.dhs.gov                                 68                                     OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Adjudication of Discipline and Security Concerns Following the Cartagena
           Incident

           To help assess how USSS identifies, mitigates, and addresses instances of
           misconduct and inappropriate behavior, we reviewed USSS’ handling of the
           employees implicated in potential misconduct in Cartagena. We examined
           personnel and security clearance files for implicated employees and interviewed
           USSS officials involved in management actions following the Cartagena incident.
           We interviewed deciding officials for discipline, security clearance adjudicators,
           members of the Security Appeals Board (the Board), OCC employees, and Human
           Capital Division employees. We also attempted to interview all 13 individuals
           implicated in the Cartagena investigation. However, only five individuals agreed
           to be interviewed, three of whom are no longer employed by USSS.

           Security Clearance Actions for Employees Implicated in the Cartagena Incident
           Were Based on Facts from Internal Inquiries

           We determined that security clearance actions for employees implicated in the
           Cartagena incident were based on facts gathered during the management
           inquiry in Cartagena and ISP’s investigation. There was no evidence of bias
           during the security clearance revocation process. We based our conclusion on a
           review of employee security clearance evaluation files, ISP’s investigation report,
           and interviews with both implicated employees and officials involved in the
           security clearance adjudication process.

           SCD initially suspended all 13 employees’ security clearances due to possible
           inappropriate involvement with a foreign national while on a protective
           assignment in a foreign country. At the conclusion of ISP’s investigation, SCD
           reinstated the security clearance of three employees who were sufficiently
           cleared of serious misconduct. SCD revoked the security clearance of five
           employees because they either knowingly solicited prostitutes, demonstrated
           lack of candor during the investigation, or both. Five employees resigned or
           retired prior to the adjudication of their security clearance.

           SCD Suspended the 13 Employees’ Security Clearances Pending an Internal
           Investigation

           SCD suspended the Top Secret security clearances of the 13 employees
           implicated in during the Cartagena investigation due to their possible
           inappropriate involvement with FFNs while on a protective assignment in a
           foreign country. They did so pursuant to provisions of Executive Orders 10450
www.oig.dhs.gov                                69                                    OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           and 12968 and, and USSS’ Interim Procedures Concerning, Suspension, Denial, or
           Revocation of Access to Classified Information.

           Federal, DHS, and USSS regulations permit the suspension of a security clearance
           when there is reason to believe that an individual's continued access to classified
           information is not in the interest of national security. USSS may suspend a
           clearance immediately and notify the employee afterward, though attempts
           should be made to resolve the matter as expeditiously as circumstances permit.

           Five Employees Resigned with a Suspended Security Clearance

           Five employees agreed to resign or retire after their Top Secret security
           clearance was suspended, but prior to the adjudication of their security
           clearance. USSS employees do not retain their security clearance after separating
           from an agency. However, if an employee resigns or retires while the employee’s
           security clearance is suspended, SCD records indicate the employee is separated
           from the agency with a suspended, rather than active, security clearance. A
           central Office of the Director for National Intelligence database, which maintains
           U.S. security clearance holder information, will reflect a suspended security
           clearance for these individuals. Should an employee who separates from USSS
           seek a security clearance at another Federal agency, SCD makes internal security
           investigation reports and personnel security clearance files available to that
           agency’s background investigators.

           SCD Reinstated the Security Clearances of Three Employees

           SCD reinstated the security clearance of three employees who were cleared of
           serious misconduct (figure 23). Two of the employees had consensual sex with
           FFNs in their hotel room, and
                        . The third employee took an FFN prostitute to his hotel room
                                           The employee

                                                                                  The
           employee then asked that she leave his hotel room.

           Witness statements and polygraph examinations corroborated the three
           employees’ statements to ISP. SCD did not charge the three employees with lack
           of candor and reinstated their security clearance. SCD issued a warning letter to
           each employee.



www.oig.dhs.gov                                70                                    OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security

                                      Figure 23: Reinstated Security Clearances

                         Sexual           Sexual
                                                                         National           Specific       SCD Lack
                       Encounter        Encounter                                                                          Alcohol
                                                         Payment         Security            Issue         of Candor
                       (Employee           (FFN                                                                           Consumed
        Employee                                                        Polygraph 28      Polygraph 29      Charge
                        Account)         Account)

                                                                                                               No
        Employee 1

                                                                                                               No
        Employee 2

                                                                                                               No
        Employee 3
             Source: USSS ISP and SCD case files


             Employees 1, 2, and 3 returned to duty after SCD reinstated their Top Secret
             clearance. ERB recommended discipline for these employees ranging from
                                  . However, management instead
                                         All three employees received the same type of
             informal discipline,
                                                                                 Under USSS’
             progressive discipline system, prior discipline may be considered when
             administering disciplinary action.

             SCD Revoked the Security Clearances of Five Employees

             SCD revoked the Top Secret security clearance of five employees implicated
             during the Cartagena investigation (figure 24). These employees either paid for
             sexual services, demonstrated a lack of candor during the investigation, or both.
             We determined that deciding officials had sufficient evidence to justify the
             Adjudicative Guideline security concerns used to revoke the employees’ security
             clearance.

             Three of the five employees alleged that their sexual conduct in Cartagena was
             permissible because SCD briefed Washington Field Office personnel that one-
             night stands were allowed. The official who provided the briefing remembered
             providing guidance to employees that they do not have to report one-night

   28
      A national security polygraph examination addresses counterintelligence topics including unauthorized foreign 

   contacts, mishandling classified information, and terrorism. 

   29
      A specific issue polygraph examination is an examination conducted to resolve a specific issue, e.g., criminal 

   activity, espionage, or sabotage.


www.oig.dhs.gov                                              71                                               OIG-14-20
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


           stands unless there was a high risk circumstance surrounding the incident. The
           employees’ allegation is not credible because (1) SCD did not base any of their
           revocations on employees’ failure to report their contact with foreign nationals,
           and (2) nothing in this guidance suggested it was permissible to have sexual
           contact with prostitutes.

           On                , one employee whose security clearance was revoked alleged
                        that USSS was denying him due process

                                                   Two employees we interviewed whose
           security clearance was revoked agreed with this allegation. The Chair of the 

           Board explained that

                                 In our report, Adequacy of USSS’ Internal Investigation of
           Alleged Misconduct in Cartagena, Colombia (OIG-13-24), January 2013, we
           validated the management inquiry and internal investigation USSS relied upon to
           revoke the employees’ security clearances.

                               Figure 24: Security Clearance Revocations after Cartagena

              Sexual           Sexual                                                SCD Lack
                                                         National       Specific
            Encounter        Encounter                                                  of          Alcohol
                                             Payment     Security        Issue
            (Employee           (FFN                                                  Candor       Consumed
Employee                                                Polygraph      Polygraph
             Account)         Account)                                                Charge
Employee
                                                                                           Yes
   4

Employee
                                                                                           Yes
   5

Employee
                                                                                           Yes
   6

Employee
                                                                                           Yes
   7

Employee
                                                                                           Yes
   8
           Source: USSS ISP and SCD case files




www.oig.dhs.gov                                        72                                        OIG-14-20
                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


               USSS Provided Employees with Options that Were Consistent with Procedures

               Of the 13 employees who were subjects of the Cartagena investigation,
               employees resigned, and              allowed to retire. Employees
               submitted letters of resignation, but later rescinded their resignations; USSS then
               revoked their security clearances. Some of the implicated employees said they
               felt pressured to resign or that USSS supervisors threatened the revocation of
               their security clearance if they did not resign.

               USSS PER-16(02), Resignations, March 2001, states resignations may be
               processed only in response to an employee’s request and may not be demanded
               as an alternative to removal, termination, discharge, or other adverse action.
               However, according to the directive, an employee may elect to resign rather
               than face removal procedures. MSPB has ruled that Federal agencies are not
               permitted to use threats, coercion, or any deliberate misrepresentation to force
               an employee to enter into an employee agreement, including resignation.30 For
               example, if a resignation is induced based on information that the agency knows
               could not be substantiated and serves no legitimate purpose, the employee’s
               decision would be considered coerced. However, when an agency warns an
               employee of its intent to take legitimate disciplinary action, and there is no
               evidence that the employee was not able to exercise a free choice; the
               employee’s decision to resign is not considered coerced.31

               While the Cartagena investigation was ongoing, senior USSS officials advised the
               implicated employees of their option to resign in lieu of SCD’s issuance of a
               Notice of Determination to revoke Top Secret clearance. OCC provided talking
               points to the senior officials in the Office of Protective Operations, the Office of
               Investigations, and the Uniformed Division on the procedures. Officials were to
               advise employees that a Notice of Determination that cites specific security
               concerns used to make the decision had been prepared, and that a proposal for
               indefinite suspension without pay would be issued shortly after issuance of the
               Notice of Determination. The document informed employees of their right to
               appeal the impending security clearance revocation and advised that they may
               want to consider resigning prior to issuance of the Notice of Determination. The
               talking points explicitly stated that supervisors shall not force or require an
               individual to resign.




   30
        Staats v. U.S. Postal Service, 99 F.3d 1120, 1124 (Fed. Cir. 1996).

   31
        Braun v. Department of Veterans’ Affairs, 50 F.3d 1005, 1007 (Fed. Cir. 1995). 


www.oig.dhs.gov                                                 73                         OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Security Appeals Board Appointments and Composition Need Attention


           While assessing USSS’ adjudication of security concerns stemming from the
           Cartagena incident, we identified several matters not within the scope of our
           review concerning the organization and placement of DHS’ Security Appeals
           Board (the Board) that warrant management’s attention. Specifically,
           appointments to the Board and the composition of the Board have not been
           made in accordance with current policy.

           Security Appeals Board Members Are Not Appointed according to Policy

           Executive Order 12968 requires that employees who are determined not to meet
           the standards for access to classified information be provided an opportunity to
           appeal in writing to a high level panel appointed by the agency head. The Board
           is the third-level deciding authority for adjudicating appeals from all DHS
           employees or applicants.

           DHS Instruction 121-01-007 Revision # 00, issued in June 2009, requires that the
           Board be appointed by the Secretary or a designee. However, current members
           of the Board were selected by the Director. USSS claims that the Director has this
           authority according to DHS Delegation 12000, Delegation for Security Operations
           Within the Department of Homeland Security, which gives the Director authority
           to make appointments to implement and administer USSS’ personnel security
           program. However, since the Board is a Department-level body and not part of
           USSS’ personnel security program, Delegation 12000 does not apply to Board
           appointments.

           DHS Management Directive 11048 required Board members to be USSS officials.
           However, in June 2009, the Management Directive was cancelled and
           superseded by DHS Instruction 121-01-007. This Instruction does not require
           that the Board be composed solely of USSS officials. However, the current Board
           is composed of all USSS senior officials, including a Deputy Assistant Director
           serving as the Chair, along with an Assistant Chief and another Deputy Assistant
           Director.

           USSS officials have expressed an interest in relocating the Board to the
           Department-level and including members who are not from USSS. One senior
           official said moving the Board out of USSS would increase the appearance of
           fairness and due process when considering an appeal of a USSS employee. As
           such, consideration should be given to ensuring appropriate appointments and
           placing the Board within a structure most beneficial to the Department.
www.oig.dhs.gov                                74                                   OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


               The Assistant Chief Should Not Serve on the Security Appeals Board for
               Uniformed Division Employees

               The Assistant Chief of the Uniformed Division serves on the Board even when an
               employee in his chain of command is the appellant. The Chair of the Board does
               not see this as a conflict of interest. However, Instruction 121-01-007 states that
               members of the Board selected to review a matter cannot have a current
               supervisory relationship with the employee. Additionally, USSS policy states that
               no supervisor of an employee who would be involved in either proposing or
               effecting any disciplinary action will be designated as a member of the Board.32

               The Assistant Chief is responsible for ensuring fairness in the administration of
               procedures with regard to discipline. As part of his duties, he sees every
               discipline case and engages in discussions with his subordinates and ERB about
               what discipline should be proposed. Therefore, he would clearly be “involved” in
               the process of posing discipline for any Uniformed Division employee. Because of
               these factors, the Assistant Chief should not sit on the Board when reviewing
               Uniformed Division employee appeals.

               Recommendations

               We recommend that the Director, USSS:

               Recommendation #13: Inform the Secretary, or the Secretary’s designee, when
               vacancies on the Board occur so that either an appointment is made to fill the
               vacancy or other action is taken, as deemed appropriate by the Secretary, or the
               Secretary’s designee.

               Recommendation #14: Ensure that the Uniformed Division Assistant Chief, or
               other officials in their chain of command, does not rule on appeals by Uniformed
               Division employees to the Security Appeals Board.

               Management Comments and OIG Analysis

               Management Response to Recommendation #13: The Director of USSS
               concurred with this recommendation. In its response, USSS said it will notify the
               Secretary, or the Secretary’s designee, when a vacancy occurs so that an
               appointment can be made to fill a vacancy on the Security Appeals Board or
               other action as appropriate.

   32
        Human Resources and Training Manual, Section RPS-02(02)

www.oig.dhs.gov                                            75                            OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           OIG Analysis: USSS provided a copy of a November 25, 2013 memo from USSS
           Director to USSS’ Chair that (1) referenced DHS Instruction 121-01-007 requiring
           members be appointed by the Secretary, and (2) requesting to be notified when
           there is a vacancy on the board so that the Director may notify the Secretary.
           This recommendation is Resolved – Closed.

           Management Response to Recommendation #14: The Director of USSS
           concurred with this recommendation. In its response, USSS said vacancies to the
           Security Appeals Board will be filled at the Secretary’s or Secretary’s designee’s
           direction and notes that its policy, RPS-02(02), states that no supervisor of an
           employee who would be involved in the discipline process for that employee will
           be a member of the Security Appeals Board reviewing that employee’s
           revocation decision.

           OIG Analysis: USSS noted that RPS-02(02) states that no supervisor of an
           employee who would be involved in the discipline process for that employee will
           be a member of the Security Appeals Board reviewing that employee’s
           revocation decision. However, USSS was not following this policy at the time of
           our review. In its corrective action plan, USSS should describe how it would
           replace a sitting board member, such as the Uniformed Division Assistant Chief,
           when a Uniformed Division Employee is appealing a revocation decision before
           the Security Appeals Board. This recommendation is Unresolved – Open.




www.oig.dhs.gov                                76                                   OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   In April 2012, USSS employees were in Cartagena, Colombia, preparing for a Presidential
   visit to the Summit of the Americas. While off duty, several USSS employees solicited
   prostitutes, consumed excessive amounts of alcohol, and patronized questionable local
   establishments. Off duty behaviors such as these could compromise USSS’ missions or
   jeopardize an employee’s suitability for employment.

   On May 23, 2012, the Senate Committee on Homeland Security and Governmental
   Affairs held a hearing held to obtain facts regarding the Cartagena incident. Committee
   members expressed particular interest in whether these activities were an isolated
   event or indicative of a pattern of misconduct by USSS employees. In subsequent
   discussions, members and staff expressed a concern that systemic issues may exist
   within USSS that create a tolerance for the types of inappropriate behavior exhibited in
   Cartagena. We initiated this review based on this Congressional concern.

   Our objectives were to determine (1) the extent to which USSS employees engage in
   behavior contrary to conduct standards; (2) whether USSS management has fostered an
   environment that tolerates or condones inappropriate behavior; (3) the adequacy of
   management controls in place to report misconduct or inappropriate behavior; (4)
   whether management’s efforts and perceived attitudes encourage the reporting of
   misconduct and inappropriate behavior; and (5) the adequacy of USSS’ process for
   adjudicating and administering disciplinary actions.

   Our field work encompassed various analytical and evidentiary techniques reflecting the
   multifaceted nature of identifying, addressing, and mitigating employee misconduct.
   We designed our methodology to collect enough information to complete our
   objectives. Our methodology included an electronic and in-person survey; a review of
   disciplinary and security clearance data and case files; site visits to field offices; and
   interviews with leadership. These aspects of our fieldwork are discussed in further detail
   in the following paragraphs. We conducted our fieldwork between March 2013 and July
   2013.


www.oig.dhs.gov                               77                                    OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Electronic and In-Person Survey

   We conducted a survey of the USSS workforce to obtain employees’ views on
   misconduct and security clearance concerns. We also sought to determine the adequacy
   of management controls to report misconduct or behaviors that could cause a security
   concern, whether management’s efforts and perceived attitudes encourage the
   reporting of misconduct and behaviors that could cause a security concern, and the
   adequacy of USSS’ process for adjudicating and administering discipline and security
   clearances.

   We worked with USSS’ Human Resources, Research and Assessment Division to ensure
   that the survey questions were designed specifically for USSS survey participants. In its
   formal comments, USSS expressed that the survey design, methodology, and
   construction could potentially result in unreliable survey results and inaccurate data.
   We worked with USSS to address their concerns while designing our survey. For
   example, we added options for survey participants to choose from so that we could
   better understand how employees became aware of behaviors that could cause a
   security concern. Options added include, “I learned about this behavior from the press,
   media, or another public source” and “I learned about this behavior through a casual
   conversation that I considered gossip.” USSS requested several other changes to the
   survey which we did not make because these changes would have negatively affected
   our ability to achieve our objectives.

   In addition, we consulted research psychologists with the U.S. Office of Personnel
   Management, Organizational Assessment Section. The lead research psychologist
   informed us that our survey was appropriately constructed and directly measured the
   areas we intended. While the research psychologists offered minor revisions, they
   informed us there was nothing wrong with the survey that required fixing. Therefore,
   we maintain that our survey results are an accurate reflection of respondents’
   perceptions, and provide USSS with useful and actionable information.

   We administered the survey both electronically and in-person. The survey was not
   hosted on USSS servers nor did USSS collect any survey data on our behalf. We invited
   6,447 employees to complete the survey electronically; 2,575 employees (39.9 percent)
   completed the survey. We administered the electronic survey from May 13, 2013, to
   June 9, 2013.

   We invited a judgmental sample of 200 USSS employees from the Presidential
   Protective Division, Vice Presidential Protective Division, Special Operations Division,
   and Uniformed Division to complete the survey in-person. Due to scheduling conflicts,
   we were unable to schedule 30 of the 200 employees. We invited 24 of the 30

www.oig.dhs.gov                                78                                   OIG-14-20
                                      OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   employees to complete the survey electronically. The remaining six employees were not
   provided the electronic survey or in-person survey.

   Of the 170 employees scheduled to complete the survey in-person, 2 employees did not
   appear for the survey.33 The remaining 168 USSS employees were advised during the
   introduction of the survey that their participation was voluntary. After this advisement,
   seven employees declined to participate. Therefore, 161 out of 170 employees
   scheduled for the in-person survey (95 percent) completed it. We administered the in-
   person survey from May 13, 2013, to June 11, 2013.

   The survey results in our report are unweighted and represent only USSS employees
   who completed surveys. With few exceptions, we did not combine the electronic and in-
   person results because of inherent differences between in-person and electronic survey
   administration, as well as differences between the groups of employees who took the
   survey in each format.

   Figure 25: USSS Population at time of Survey Compared to Survey Population, by Occupational Specialty

                                                                               Electronic
                                                                                                    In-Person Survey
                                                    USSS Population              Survey
                                                                                                       Population
                                                                               Population
                   Special Agents                      3,383 (51%)              1,262 (49%)               54 (34%)

           Uniformed Division Officers                 1,356 (20%)               431 (17%)                98 (61%)

          Administrative, Professional,
         Technical Support Personnel or                1,884 (29%)               882 (34%)                  9 (5%)
                     Other

                   All Employees                           6,623                   2,575                     161


   Electronic Biases

   As shown in figure 25, all occupational specialties in the electronic survey closely match
   their representation in the general population, which increases our confidence that the
   variety of employees’ opinions were captured in the survey. Uniformed Division officers
   were most underrepresented—by three percent—from the general population. In
   addition, because the survey was voluntary, it is possible Uniform Division officers were
   underrepresented because many officers do not have desks and may have been on
   33
        We did not ask USSS to require the two employees to appear before OIG because the survey was voluntary.

www.oig.dhs.gov                                             79                                             OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   mission-related travel. Special agents were underrepresented by two percent. While
   many have desks, many also have hectic mission-related travel schedules. The
   administrative, professional, and technical support personnel or other occupations are
   overrepresented in the electronic survey by six percent. This could be attributed to
   having greater access to work stations, as well as less work-related travel than other
   occupational specialties. Surveys were sent to employees’ USSS email accounts;
   therefore, employees who are skeptical of the confidentiality of their responses may
   have chosen to not participate in the survey.

   In-Person Biases

   Individuals selected to take the survey in-person represent divisions most closely
   involved in traveling with or closely guarding the President. Therefore, they are not a
   representative sample of USSS employees. Compared to the electronic survey, the in-
   person survey population differs more from the general population. There is a higher
   percentage of Uniformed Division officers in the divisions we selected for our in-person
   survey than in the agency as a whole. As a result, Uniformed Division officers ended up
   being overrepresented and special agents underrepresented in our in-person survey.

   Further, while we used a standard template to administer the in-person survey
   instrument, employees taking the survey in-person would have a different experience
   from those taking the survey electronically. For example, the survey covered sensitive
   topics which employees may be more comfortable answering anonymously at a
   computer.

   Interviews

   We interviewed 204 current and former USSS employees, including program and office
   managers as well as directorate and agency leadership.

   We interviewed officials from the following offices, divisions and branches:

       •	 Office of the Director
       •	 Office of Chief Counsel
       •	 Office of Human Resources and Training, including officials from the Human
          Capital Division, the Employee Relations Branch, and the Security Clearance
          Division
       •	 Office of Professional Responsibility, including officials from the Inspection
          Division
       •	 Office of Investigations


www.oig.dhs.gov                                80	                                  OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


       •	 Office of Protective Operations, including the Presidential Protective Division,
          the Vice Presidential Protective Division, Special Operations Division, Special
          Services Division, and the Uniformed Division
       •	 Office of Strategic Intelligence and Information
       •	 Office of Technical Development and Mission Support
       •	 Office of Government and Public Affairs

   Across these offices, we interviewed 46 Assistants to the Special Agent in Charge;
   20 Assistant Special Agents in Charge; 5 Deputy Special Agents in Charge; and
   15 Special Agents in Charge. We interviewed 21 Sergeant/Sergeant-Techs; 7 Captains;
   4 Inspectors; 2 Deputy Chiefs; the Assistant Chief, and the Chief of the Uniformed
   Division. We also interviewed 13 Deputy Assistant Directors; 6 Assistant Directors; the
   Deputy Director; and the Director.

   We visited four field offices, including Houston, TX; Los Angeles, CA; Chicago, IL; and
   Minneapolis, MN. We interviewed supervisors telephonically in the San Antonio, TX;
   Seattle, WA; and Rome, Italy, field offices. These locations were selected to provide a
   variety of office size, geographic location, and experience with discipline.

   Cartagena Follow-up Interviews

   We were able to interview 5 of the 13 employees implicated in the solicitation of
   prostitutes in Cartagena. Four employees declined to be interviewed or did not provide
   a response once contacted. Two employees were scheduled to be interviewed and later
   declined. One employee was scheduled to be interviewed and did not appear for the
   interview. We were unable to contact one employee.

   Disciplinary Data and Files

   In response to our request, USSS’ ERB provided us a list of 1,006 formal disciplinary and
   adverse actions taken between January 2004 and February 2013. From this data set, we
   selected a judgmental sample of 251 cases for review. ERB determined that one case
   was performance-related, thereby reducing our sample to 250 cases. We further
   selected 71 cases based on testimonial evidence. In all, we reviewed case files related to
   321 disciplinary and adverse actions.

   USSS’ database of 1,006 cases had several data integrity issues, such as inconsistent,
   incomplete or incorrect data entries, and inclusion of performance-related actions. To
   the extent possible, we extracted information from this data set that was usable.
   Throughout the report, when we use this universe of disciplinary and adverse actions,
   we explain which entries we used and which ones we did not.
www.oig.dhs.gov                                81	                                   OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



   We reviewed the ERB files for the judgmental sample of 250 formal disciplinary and
   adverse actions, as well as the additional 71 actions. When presenting any analysis, we
   specify whether the analysis was based upon the judgmentally selected files, the files
   selected because of testimonial evidence, or both. Further, because the documentation
   in these files was not standardized, our analyses based on the judgmental sample may
   not include all 250 files. For example, not all of the files included information about
   ERB’s recommendation to a manager. Therefore, our analysis comparing ERB
   recommendations to decided disciplinary action would be based on files that contained
   ERB recommendations. Throughout the report, we specify how many of these randomly
   selected files had documentation to support each analysis.

   We reviewed ERB internal operating policies. We also reviewed 56 comparable
   discipline sheets (or comp sheets) which ERB specialists use to research historical data
   for specific offenses and recommend ranges of disciplinary or adverse action to
   managers.

   Security Clearance Data and Files

   In response to our request, USSS provided and we reviewed a list of all 195 security
   clearance suspensions; their adjudicative guidelines base; and their dispositions from
   January 2004 through February 2013. Similarly, we requested and USSS provided a list
   of all 67 security clearance warnings and their adjudicative guideline bases issued by
   USSS during the same period. We judgmentally selected 50 SCD files from these lists, as
   well as testimony, to review.

   RES Inspection Division Data and Reports

   In response to our request, USSS provided and we reviewed a list of all ISP special
   investigations, fact finders and complaints between January 2004 and February 2013.
   We also reviewed reports encountered during our review of ERB files, as well as
   additional fact-finder and special investigation reports. We reviewed Monthly Director
   Reports for May 2012 and June 2013, as well as relevant ISP records and templates.

   We conducted this review under the authority of the Inspector General Act of 1978, as
   amended, and according to the Quality Standards for Inspections issued by the Council
   of the Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                               82                                    OIG-14-20
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report


                                         U.S. Dep<ll'l nwnl of      H omcl~n d    See urit y




             *DIRECTOR
                                       UNITED S'J'A'l'l:t.;S SECRET SERVICE
                                                      Washington, D.C. 20723


                                                        November 22. 20 13



             MEMORANDUM FOR:                 The Ho norab le Ch:Jrles K. Edward ~
                                             Depmy Inspector General
                                             Office of the Inspector General
                                             Depart ment of Homeland SecuL  r ity

             FROM:                           Julia A. Pierson             \
                                             Directo r              ·~
                                             United States Se~ rct Ser vice

             SUBJECT:                        " USSS Efforts to Identify, Mi tigate, and Address Instances of
                                             Misconduct and Inappropriate Behavior,'' OIG Project No. 13- 13 1-
                                             ISP-USSS

             The United States Secre t Service (Secret Service) has had a n opportunity to review and comment on
             the Ofnce of Inspector General (OIG) draft repon co ncerni ng "USSS Efforts to Identify, Mit igate,
             and Address ln ~ t ances o f Misconduct and Inappropriate Behavior." O IG Projec t No. 13- 13 1-IS P-
             USSS. While we agre e with your rccunnnt nd<ttiuus and have taken <tel ions to im plement them. we
             are concerned with aspects of the survey used in thi s proj ect.

             The proud legacy of the Secre t Service is based on the accomplishments a nd selfless dedication of
             t\1e many men and women who have joined o ur agency since it~ fo unding in 1865. Nearl y 150
             years of excellence ste ms from the overwhelming maj ority of our employee' holdi ng themselves to
             the hi ghest standards of personal and professional conduct. A lthough this rcpon uoc LHnents that
             misconduct is no t widespread in the Secret Serv ice. we w ill not to lerate it at any level. I :nn
             commillcd to sw iftl y and vigorously investigati ng any in stance~ of misconduct that are brought to
             my allcntio n.

              Our ovcrarching goal is to support our workforce to e nsu re mi ssion success. inc.:I uding our e l'l'on s
              for thorough oversight and strong human capi ta l polic ies and procedures. Your recommendations.
              along with our own effo rts to identify and implement enhancements , comribute to that effort.

              Immediate ly following the incidents of misconduct that occurred in Colombia, the Secret Service
              initiated an interna l review of o ur humnn capita l pnlicics and procedures to identi fy areas ro r
              enhanceme nt. As part o f th.is effort, we collaboruted with the Office of Pcr~o nncl Management and
              the Federal Law Enl'orcemeni Traini ng C:enter lo develop a Professionali sm Re inforcement
              Working Group (PRWG) to examine Secret Service human capi tal po licic~ and procedure~. The
              PRWG was specifically e hargecl with: I ) re viewing the Secret Service' s int.:rn•tl comrols on
              profc;sional conduct; 2) bt:nchmarking the agency against best practices of peer organization': and
              3) ide nti fying areas in whic h the Secret Se rvice i. he~! in c lass and any areas in need of




www.oig.dhs.gov                                                  83                                                        OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




                                                             -2-

             improvement. The group assembled included senior executives with various areas of expertise
             across government.

             In February 2013, the PRWG provided the Secret Service with its report and recommendations.
             The PRWG made recommendations in the areas of: Recruitment and Hiring; Discipline and
             Rewards; Diversity and Inclusion; Performance Management; Values and Mission: Leadership;
             Reporting Misconduct; Availability of Support Services for Employees; and Reinforcing
             Professionalism. Just I1S witb this OIG report, we accepted all of the PRWG's recommendations.
             We developed a Strategic Action Plan to Reinforce Professionalism to enhance our internal controls
             and ensure that our practices are consistent with best practices in government. To date, we have
             completed action on a majority of our plan's objectives and on all of the recommendations you
             identified in your report.

             Specifically, the actions we have taken include the following:
                • Appointed a Chief Integrity Officer to conduct risk assessments for professional standards
                    and develop targeted training to support integrity in the workforce
                • Established a highly visible link to our Inspection Hotline on our Intranet site to encourage
                    all employees to report misconduct
                • Provided employees with an ethics desk reference guide containing the agency"s policies
                    and made it available on our intranet site
                • Provided enhanced ethics and integrity training to 4.500 employees since April 2012
                • Developed policy to centralize our discipline process and enhance transparency and
                    consistency when adjudicating misconduct
                • Developed a table of penalties that identified specific offenses and accompanying penalties
                • Publicly praised employees for modeling our core values in an awards ceremony
                • Reinforced the importance of leadership and ethical conduct with newly promoted
                    supervisors

             Thus, both prior to and during your review, the Secret Service was working to institute significant
             changes in the way we reinforce professionalism in our workforce and how we respond to instances
             of misconduct.

              Secret Service Response to the OIG's Specific Recommendations

              Recommendation #1: Clarify USSS' conduct policy for reporting allegations of misconduct. At a
              minimum, the policy should define misconduct issues that are not ordinarily addressed by
              management, clarify reporting procedures for referring misconduct issues through the chain of
              command, ISP, and OlG.

              Secret Service Response: Concur

              Secret Service policy, PER-05( II), states that Secret Service employees are required to repon
              promptly and directly to the Office of Professional Responsibility {RES) any knowledge,
              information, or allegations that indicates any employee or former employee may have committed a
              criminal act, violated any provision of the Standards of Conduct or any rule of conduct, violated any
              provision of the merit system, or committed any other misconduct. We have further clarified this
              policy through the addition of PER-05{13), which identifies a specific table of offenses (and




www.oig.dhs.gov                                              84                                                    OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




                                                              -3-

             accompanying penalties) and states, "Employees are encouraged and expected to report through
             their chain of command, or the lnspection Division Hotline, or the DHS Office of the Inspector
             General hotline, information that indicates another employee may have engaged in misconduct
             described in the Table of Penalties." PER-OS( 13) also requires supervisors to report through their
             chain of command any misconduct committed by their subordinates included in the table of
             penalties and identifies examples of items that warrant infonnal discipline.

             Estimated date of completion: Completed.

             Recommendation #2: Establish a written policy requiring directorate offices to report the results
             of fact-finders to RES.

             Secret Service Response: Concur

             As the new discipline policy, PER-OS( 13), significantly limits the actions that could warrant
             informal discipline, fact-finders will be limited to only minor issues of employee conduct. Outside
             of these instances, only the Office of Professional Responsibility or the Deputy Director of the
             Secret Service can authorize a directorate o[fice to conduct a fact-finder. In these latter authorized
             instances, a new Secret Service policy, RES-02, requires that fact finding results be forwarded to
             the Office of Professional Responsibility via a standard form within ten days of the completion of
             the investigation.

             Estimated date of completion: Completed.

             Recommendation f-3: Establish a written policy granting the Chief Security Office.r unfeuered
             access to employees to obtain information relating to potential security concerns.

             Secret Service Response: Concur

             We agree that the Chief Security OHicer (CSO) must have appropriate access to all employees io
             provide oversight for security clearances. We have clarified our policy by revising SCD-02(01) to
             specifically state that the CSO has direct access to employees in order to obtain information relating
             to potential security concerns.

              Estimated date of completion: Completed.

              Recommendation #4: Establish a written policy identifying the circumstances under which
              managers may conduct their own fact finders.

              Secret Service Response: Concur

              We have established RES-02 to provide additional clarity for managers.

              Estimated date of completion: Completed.




www.oig.dhs.gov                                               85                                                      OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




                                                             - 4-

              Recommendation #5: Create and document procedures for collecting and recording facts by
              managers who conduct fact-finders.

              §ecret Service Rqponse: Concur

              Secret Service policy, RES-02, now outlines the procedures for collecting and recording facts by
              managers who conduct fact-findings.

              Estimated date of completion: Completed.

              Recommendation #6: Define and document specific offense categories. as well as subcategories
              of broader categories, such as Conduct Unbecoming. to ensure ERB specialists consistently
              categorize misconduct.

              Secret Service Response: Concur

              As detailed above, PER-05(13) now includes a detailed table of specific offense categories and
              accompanying penalties to ensure consistency and transparency in our discipline process.

              Estimated date of completion: Completed.

              Recommendation lrl: Establish and document a quality control process to ensure that comparable
              offense sheets reflect specific offense categories, are up-to-date, and complete.

              Secret Service Response: Concur

              While our new discipline process eliminaces the need for comparable offense sheets. we agree that a
              quality control proce.~s is important for maintaining an equitable discipline process.

              Estimated date of completion: Completed.

              Recommendation #8: Establish and document a quality control process to ensure that ERB
              specialists enter and update misconduct case information in their database accurately and
              consistently.

              Secret Service Response: Concur

              We have updated our standard operating procedures to ensure that our database is updated
              accurately and consistentJy.

              Estimated date of completion: Completed.




www.oig.dhs.gov                                              86                                                     OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security



                                                              - 5-

              Recommendation #9: Ensure summaric.~ of oral appeals to adverse actions are retained in case
              files.

              Secret Service Response: Concur

              The Secret Service understands that summaries of oral appeals must be maintained in case fi les. As
              part of our quality control process, we have developed a file checklist to ensure that oral summaries
              along with all other required documentation are properly retained, updated our standard oper.tting
              procedures and trained our ERB specialists on the new process.

              Estimated date of completion: Completed.

              Recommendation #10: Ensure that notices of decision arc retained in case files.

              Secret Service Response: Concur

              The Secret Service understands that of the 300 adverse action files provided to the OIG for review,
              a filing error had occurred in five cases. The checklist described in our response to the previous
              recommendation will ensure that all relevant infonnation, including notices of decisions, will be
              maintained in the case files.

              Estimated date of completion: Completed.

              Recommendation #11: Ensure manager's consideration of mitigating and nggr.tvating factors is
              documented in notlces of proposed 11ction and decisions for non·;sppeaJable disciplinary actions.

              Sesret Service Resoonse; Concur

              As with the previous two recommendations, the newly designed file checklist will ensure that
              documentation regarding managers' consideration of mitigating and aggravating factors is retained
              in the case files.

              Estimated date of completion: Completed.

              Recommendation #12: Develop and implement a process to ensure that disciplinary actions are
              progressive.

              Secret Service Response: Concur

              The Secret Service agrees with the principles of progressive discipline and has a policy m place to
              allow for its use in cases when an employee has previously received a written reprimand or
              suspension. As part of our enhunced discipline process. we have further clarified that disciplinary
              actions are to be progressive.

              Estimated date of completion: Completed.




www.oig.dhs.gov                                               87                                                      OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security



                                                               . 6.

              Recommendation #13: Inform the Secretary, or the Secretary's designee, when vacancies on the
              Board occur so that either an appointment is made to fill the vacancy or other action is taken, as
              deemed appropriate by the Secretary, or the Secretary's designee.

              Secret Service Response: Concur

              We will notify the Secretary, or the Secretary's designee, when a vacancy occurs so that an
              appointment can be made to fill a vacancy on the Security Appeals Board or other action as
              appropriate.

              Estimated date of completion: Completed.

              Recommendation #14: Ensure that the Uniformed Division Assistant Chief, or other officials in
              their chain of command. does not rule on appeals by Uniformed Division employees to the Security
              Appeals Board.

              Secret Service Resoonse: Concur

              Consistent with the previous recommendation, we will fill vacancies at the Secretary's or
              Secretary's designee's direction. Our policy, RPS-02(02), states that no supervisor of an employee
              who would be involved in the discipline process for that employee will be a member of the Security
              Appeals Board reviewing that employee's revocation decision.

              Estimated date of completion: Completed.

              Comments Concerning Survey Responses and the Use of those Responses

              While the Secret Service concurs with all of the recommendations contained in the report, we are
              concerned with the survey used during the course of the project and some of the narration presented
              in the report in regard to the survey results. During the initial phases of the audit, we notified your
              staff that we believed that the survey design, methodology. and construction could potentially result
              in unreliable survey results and inaccurate data. For example, the survey asked Secret Service
              employees to speculate about the personal, sexual, and potential criminal activities of co-workers,
              and to respond with what they believed to be true through rumor and gossip. This posed a serious
              concern about the survey content and the value of coUecting such speculation,

              The survey design also contributes to potential confusion regarding the number of instances of
              misconduct that have occurred. For example, we pointed out that it would be impossible to tell
              whether the respondents were all referring to a single incident about which they had beard, or
              whether multiple incidents had occurred. Further, allowing respondents to identify multiple ways in
              which they became aware of misconduct suggests that the number of occurrences is greater than
              what your results found and leads to percentages higher than 100% for the number of the
              individuals aware or the misconduct.




www.oig.dhs.gov                                               88                                                        OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




                                                             -7 -

              Conclusion

              We support and appreciate the OIG's efforts to provide clear, constructive recommendations
              concerning our human resource processes and remain committed to continuing our ongoing efrorts
              in the areas of employee conduct and professionalism. The criticality of the Secret Service's
              mission demands that we maintain the highest levels of integrity in our workforce. I remain
              committed to investigating and adjudicating all instances of misconduct that are brought to my
              attention.

              Again, we thank you for the opportunity to review and comment on this draft report. Technical
              comments and a sensitivity review were previously provided under separnte cover. Please feel free
              to contact me if you have any questions. We look forward to work1ng with you in the future.




www.oig.dhs.gov                                             89                                                    OIG-14-20
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix C
   About Survey Items
   Survey respondents considered a minimum of 34 items. Respondents could have
   answered 30 additional survey items based on their response to section 3, item 28,
   which asked respondents to select behaviors by USSS employees of which they are
   aware. Subsequent questions in section 3 asked employees further details regarding the
   behavior(s) that they identified. Respondents considered a maximum of 64 items.

   Twenty-five survey items used a Likert scale format, which measures individual’s
   agreement or disagreement with a statement. The table below describes how responses
   to Likert items are interpreted.

     Positive Response       Neutral Response            Negative Response       Agnostic

                                                                                  Do not
      Strongly               Neither agree nor                    Strongly
                  Agree                               Disagree                    know
       Agree                     disagree                         Disagree
                                                                               (If Applicable)


   Fifteen of the survey items allowed respondents to select “Yes” or “No.” Fifteen
   questions allowed respondents to select more than one response. Finally, the survey
   included six demographic items asking respondents their length of service, occupational
   specialty, current grade, supervisory status, and their involvement in a disciplinary
   matter or the security clearance adjudication process.




www.oig.dhs.gov                                  90                               OIG-14-20
                                            OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security


      Appendix D
      Results of Electronic Surveys

 For all scale questions, responses of “strongly                                   Neither
 agree” and “agree” are positive, “neither agree     Percent    Strongly            Agree                  Strongly   Do Not
 nor disagree” is neutral, and “strongly disagree”
                                                                           Agree              Disagree
                                                     Positive    Agree               Nor                   Disagree   Know
 or “disagree” are negative.
                                                                                   Disagree
 Reporting and Addressing Misconduct
 1.	 Appropriate policies and                                    31.7%     49.1%     9.1%       5.7%          2.4%    2.1%
     procedures are in place to address
     employee violations of any law,                  80.8%
     rule, regulation, or standards of                            817      1,264      234        146           61 
    53
     conduct.
 2.	 I am aware of avenues available to                          35.2%     51.5%     7.2%       5.1%          0.9%

     Secret Service employees to report               86.7%                                                            NA
     misconduct.                                                  907      1,327      186        131           24 

 3.	 I can report a suspected violation                          23.5%     32.3%     21.7%      13.8%         8.6%

     of any law, rule, regulation, or
                                                      55.8%                                                            NA
     standards of conduct without fear                            605       833       559        356          222 

     of retaliation.
 4.	 I trust my immediate supervisor to                          37.6%     38.8%     13.2%      6.0%          4.5%

     respond appropriately to reported                76.4%                                                            NA
     misconduct.                                                  969       998       339        154          115 

 5.	 If I suspected that my co-workers
                          44.4%     39.8%     11.8%      2.6%          1.4%

     or managers were engaged in

     misconduct or illegal activity, I 
              84.2%                                                            NA
     would report it to the appropriate 
                        1,143     1,024      305        67            36 

     Secret Service officials.

 6.	 If a senior manager engages in
                                                                 23.6%     26.3%     16.6%      11.7%        11.1%    10.7%
     misconduct or illegal activity, he or
     she is held accountable.                         49.9%
     [A senior manager supervises                                 608       677       427        301          286      276
     several supervisors and their staff.]
 7.   If a supervisor engages in
      misconduct or illegal activity, he or                      24.0%     30.8%     16.4%      12.0%         7.8%    9.0%
      she is held accountable.
      [A supervisor is the first-line
                                                      54.8%
      manager who monitors and
      regulates employees in their                                617       793       423        310          200      232
      performance of assigned or
      delegated tasks.]




www.oig.dhs.gov                                                 91	                                      OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


                                                                            Neither 

 Reporting and Addressing Misconduct          Percent 
 Strongly             Agree
                      Strongly   Do Not
                                                                   Agree                  Disagree
 (cont.)                                      Positive
  Agree                Nor 
                      Disagree   Know
                                                                            Disagree

 8.	 If a Special Agent engages in                        27.3%     34.8%      15.6%           7.3%         5.0%     10.1%
     misconduct or illegal activity, he or     62.1%
     she is held accountable.                              704       895        401            187          129       259
 9.	 If a Uniformed Division Police                       29.1%     32.5%      11.9%           2.0%         0.9%     23.5%
     Officer engages in misconduct or
                                               61.6%
     illegal activity, he or she is held                   749       838        307             52           23       606
     accountable.
 10. If an Administrative, Professional,                  27.5%     33.3%      14.4%           3.8%         2.0%     19.0%
     or Technical Support employee
     engages in misconduct or illegal          60.8%
     activity, he or she is held                           707       858        371             98           51       490
     accountable.
 11. Violations of any law, rule,
     regulation, or standards of conduct                  24.2%     36.9%      18.8%           12.7%        5.3%     2.1%
     are not tolerated within the Secret       61.1%
     Service.
                                                           624       951        483            327          136       54

 12. The Secret Service’s disciplinary                    13.7%     26.6%      24.3%           13.6%        9.3%     12.5%
     process is fair.                          40.3%
                                                           352       685        626             349         240       323
 13. Disciplinary actions within the                      10.6%     19.4%      22.8%           17.6%       12.1%     17.6%
     Secret Service are applied                30.0%
     consistently for similar offenses.                    274       499        587             452         311       452
 14. Disciplinary actions within the                      11.4%     25.2%      27.8%           10.8%        7.0%     17.9%
     Secret Service are at the
                                               36.6%
     appropriate level of severity given                   293       648        715             278         179       462
     the offense.
 15. If you were to report misconduct by a Secret Service employee, to whom would you report it? [More than one could
     be selected]
            My direct supervisor                                                      84.5%                 2,177
            Another supervisor other than my direct supervisor                        20.6%                   530
            DHS Office of Inspector General                                           11.4%                   293
            USSS Equal Employment Opportunity Office                                    8.6%                  221
            USSS Inspection Division                                                  22.4%                   577
            USSS Ombudsman                                                            13.1%                   338
            Do not know                                                                4.5%                   115
            Other                                                                      3.8%                    97




www.oig.dhs.gov                                          92	                                           OIG-14-20
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


                                                                         Neither 

                                           Percent    Strongly            Agree
                  Strongly   Do Not 

                                                                 Agree               Disagree
                                           Positive    Agree               Nor 
                  Disagree   Know

                                                                         Disagree
 Reporting and Addressing Security
 Concerns
 16. Appropriate policies and                          31.1%     52.7%      8.5%       3.1%         1.3%      3.4%
     procedures are in place to address
                                            83.8%
     security concerns regarding a                      800      1,357      218         80           33        87
     Secret Service employee.
 17. I am aware of avenues available to                30.5%     55.5%      9.4%       4.1%         0.5%
     Secret Service employees to report
                                            86.0%                                                              NA
     security concerns regarding a                                                      105          14
                                                        785      1,428      243
     Secret Service employee.
 18. I can report a suspected security                 28.1%     40.6%     19.2%       8.4%         3.7%
     concern regarding a Secret Service
                                            68.7%                                                              NA
     employee without fear of                           723      1,045      495         217          95
     retaliation.
 19. I trust my immediate supervisor to                37.8%     43.5%     12.2%       3.9%         2.6%
     respond appropriately to security
                                            81.3%                                                              NA
     concerns regarding a Secret                                                        100          68
                                                        973      1,121      313
     Service employee.
 20. If I suspected that my co-workers
                                                       45.0%     45.5%      7.2%       1.5%         0.8%
     or managers engaged in behavior
     that caused a security concern, I      90.5%                                                              NA
     would report it to the appropriate                1,158     1,171      186         39           21
     Secret Service officials.
                                                                         Neither
 Reporting and Addressing Security         Percent    Strongly            Agree                   Strongly   Do Not
                                                                 Agree               Disagree
 Concerns (cont.)                          Positive    Agree               Nor                    Disagree   Know
                                                                         Disagree
 21. The Secret Service takes
                                                       20.3%     28.9%     17.9%       7.7%         5.6%     19.5%
     appropriate action if a senior
     manager engages in behavior that
                                            49.2%
     causes a security concern. [A
     senior manager supervises several                  524       743       462         199          144      503
     supervisors and their staff.]

 22. The Secret Service takes                          21.2%     32.4%     17.5%       7.4%         4.4%     17.1%
     appropriate action if a supervisor
     engages in behavior that causes a
     security concern. [A supervisor is     53.6%
     the first-line manager who
     monitors and regulates employees                   546       835       450         190          113      441
     in their performance of assigned or
     delegated tasks.]

www.oig.dhs.gov                                       93                                        OIG-14-20
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


 23. The Secret Service takes                         24.2%       35.7%       15.5%          5.7%       2.8%       16.1%
     appropriate action if a Special
                                              59.9%
     Agent engages in behavior that                    624         918         399           146         73        415
     causes a security concern.
 24. The Secret Service takes                         25.0%       32.2%       13.0%          1.9%       0.8%       27.1%
     appropriate action if a Uniformed
     Division Police Officer engages in       57.2%
     behavior that causes a security                   643         829         334            50         21        698
     concern.
 25. The Secret Service takes
                                                      24.4%       32.3%       15.1%          2.5%       1.2%       24.5%
     appropriate action if an
     Administrative, Professional, or
                                              56.7%
     Technical employee engages in
     behavior that causes a security                   629         833         389           64          30        630
     concern.
 26. The Secret Service has a fair
                                                      19.8%       33.8%       17.7%          4.2%       2.8%       21.7%
     process for reviewing an
     employee’s eligibility for continued
                                              53.6%
     access to classified information as
     a result of behavior that causes a                511         870         456           108         72        558
     security concern.

 27. If you were to report behavior that causes a security concern, to whom would you report it? [More than one could be
     selected]
           My direct supervisor                                                      86.9%               2,237
           Another supervisor other than my direct supervisor                        22.6%                583
           DHS Office of Inspector General                                           26.8%                689
           USSS Security Clearance Division                                           9.9%                255
           USSS Inspection Division                                                  20.3%                523
           USSS Ombudsman                                                            8.0%                 207
           Do not know                                                               3.8%                     98
           Other                                                                     3.2%                     83




www.oig.dhs.gov                                       94                                            OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


 Existence of Certain Behaviors within Secret Service
 28. Using the list below, please select any behaviors by Secret Service employees of which you are aware. [More than one
     could be selected]
            Excessive alcohol consumption that causes a security concern               10.4%             269
            Solicitation of prostitute(s)                                              8.0%              207
            Criminal sexual behavior other than solicitation                           1.9%                50
            Other sexual behavior that causes a security concern                        5.9%             153
            Contact with foreign nationals that causes a security concern              4.5%              116
            Personal conduct that causes a security concern                            9.6%              247
            I am not aware of any Secret Service employees engaging in these
                                                                                       83.3%            2,144
            behaviors
 If the respondent selected: Excessive alcohol consumption that causes a security concern
 a.   How did you become aware of the excessive alcohol consumption? [More than one could be selected]
            I have personally observed this behavior.                                  51.3%             138
            I learned about this behavior from the person who engaged in it.           27.1%              73
            I learned about this behavior from a person who observed it.               48.0%             129
            I learned about this behavior from someone who reported it to me.          14.5%              39
            I learned about this behavior as part of my official duties.               17.8%              48
            I learned about this behavior through official Secret Service
                                                                                       12.6%              34
            communication.
            I learned about this behavior from the press, media, or another public
                                                                                       40.9%             110
            source.
            I learned about this behavior through a casual conversation that I
                                                                                       44.6%             120
            considered gossip.
            Other                                                                      3.0%                8
 If the respondent answered “I have personally observed this behavior,” he/she proceeded to “b.” If not, he/she
 proceeded to “d.”
 b.   Did you report the behavior?
            Yes                                                                        14.5%              20
            No                                                                         85.5%             118
 If the respondent answered “Yes,” he/she proceeded to “d.” If the respondent answered “No,” he/she proceeded to “c.”


 c.   If no, why did you not report this behavior? [More than one could be selected]
            Someone else reported the behavior.                                        16.9%              20
            I was afraid of reprisal or retaliation for reporting the behavior.        39.8%              47
            I do not believe management is supportive of employees reporting the
                                                                                       46.6%              55
            behavior.
            The employee engaged in the behavior while off-duty.                       55.9%              66

www.oig.dhs.gov                                           95                                     OIG-14-20
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


                 I did not feel the behavior was serious enough to warrant reporting.           29.7%                    35
                 I was unfamiliar with the process for reporting the behavior.                   4.2%                     5
                 I did not believe the employee would be investigated even if reported.         37.3%                    44
                 I did not want to cause an adverse action against a co-worker.                 20.3%                    24
                 I did not want to get involved.                                                19.5%                    23
                 Management was already aware of this behavior.                                 33.9%                    40
                 Other                                                                           5.9%                     7

 d.    Did the excessive alcohol consumption occur during a protective assignment?
                 Yes                                                                            65.1%                    175
                 No                                                                             34.9%                    94
 e.    Which of the following most accurately describes your perception of excessive alcohol consumption in the Secret
       Service?
                                                                        34
                 This behavior is isolated within the Secret Service.                           38.3%                    103
                                                                             35
                 This behavior is systemic throughout the Secret Service.                       20.1%                    54
                 This behavior is more than isolated but less than systemic.                    41.6%                    112
 If the respondent selected: Solicitation of Prostitutes
 a.    How did you become aware of the solicitation of prostitute(s)? [More than one could be selected]
                 I have personally observed this behavior.                                       9.2%                    19
                 I learned about this behavior from the person who engaged in it.               11.6%                    24
                 I learned about this behavior from a person who observed it.                   22.7%                    47
                 I learned about this behavior from someone who reported it to me.               9.2%                    19
                 I learned about this behavior as part of my official duties.                   22.7%                    47
                 I learned about this behavior through official Secret Service
                                                                                                26.6%                    55
                 communication.
                 I learned about this behavior from the press, media, or another public
                                                                                                76.8%                    159
                 source.
                 I learned about this behavior through a casual conversation that I
                                                                                                41.5%                    86
                 considered gossip.
                 Other                                                                           3.4%                     7
 If the respondent answered “I have personally observed this behavior,” he/she proceeded to “b.” If not, he/she
 proceeded to “d.”
 b.    Did you report the behavior?
                 Yes                                                                              0.0%                    0
                 No                                                                             100.0%                   19


      34
           Isolated means that the behavior occurs infrequently, among a small percentage of employees who act alone.
      35
           Systemic means that the behavior occurs frequently, among a large percentage of employees who act together.

www.oig.dhs.gov                                                96                                              OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


 If the respondent answered “Yes,” he/she proceeded to “d.” If the respondent answered “No,” he/she proceeded to “c.”

 c.   If no, why did you not report this behavior? [More than one could be selected]
            Someone else reported the behavior.                                         26.3%                   5
            I was afraid of reprisal or retaliation for reporting the behavior.         47.4%                   9
            I do not believe management is supportive of employees reporting the
                                                                                        63.2%                  12
            behavior.
            The employee engaged in the behavior while off-duty.                        57.9%                  11
            I did not feel the behavior was serious enough to warrant reporting.         5.3%                   1
            I was unfamiliar with the process for reporting the behavior.               10.5%                   2
            I did not believe the employee would be investigated even if reported.      47.4%                   9
            I did not want to cause an adverse action against a co-worker.              31.6%                   6
            I did not want to get involved.                                             15.8%                   3
            Management was already aware of this behavior.                              36.8%                   7
            Other                                                                       21.1%                   4

 d.   Did the solicitation of prostitute(s) occur during a protective assignment?
            Yes                                                                         82.1%                 170
            No                                                                          17.9%                  37
 e.   Which of the following most accurately describes your perception of solicitation of prostitute(s) in the Secret Service?
            This behavior is isolated within the Secret Service.                        54.1%                 112
            This behavior is systemic throughout the Secret Service.                    10.1%                  21
            This behavior is more than isolated but less than systemic.                 35.7%                  74
 If the respondent selected: Criminal sexual behavior other than solicitation
 a.   How did you become aware of the criminal sexual behavior? [More than one could be selected]
            I have personally observed this behavior.                                    8.0%                   4
            I learned about this behavior from the person who engaged in it.            10.0%                   5
            I learned about this behavior from a person who observed it.                20.0%                  10
            I learned about this behavior from someone who reported it to me.            6.0%                   3
            I learned about this behavior as part of my official duties.                36.0%                  18
            I learned about this behavior through official Secret Service
                                                                                        12.0%                   6
            communication.
            I learned about this behavior from the press, media, or another public
                                                                                        46.0%                  23
            source.
            I learned about this behavior through a casual conversation that I
                                                                                        42.0%                  21
            considered gossip.
            Other                                                                        6.0%                   3



www.oig.dhs.gov                                           97                                          OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


 If the respondent answered “I have personally observed this behavior,” he/she proceeded to “b.” If not, he/she
 proceeded to “d.”
 b.   Did you report the behavior?
            Yes                                                                       25.0%                   1
            No                                                                        75.0%                   3
 If the respondent answered “Yes,” he/she proceeded to “d.” If the respondent answered “No,” he/she proceeded to “c.”
 c. If no, why did you not report this behavior? [More than one could be selected]
            Someone else reported the behavior.                                        0.0%                   0
            I was afraid of reprisal or retaliation for reporting the behavior.       66.7%                   2
            I do not believe management is supportive of employees reporting the
                                                                                      66.7%                   2
            behavior.
            The employee engaged in the behavior while off-duty.                       0.0%                   0
            I did not feel the behavior was serious enough to warrant reporting.       0.0%                   0
            I was unfamiliar with the process for reporting the behavior.              0.0%                   0
            I did not believe the employee would be investigated even if reported.    66.7%                   2
            I did not want to cause an adverse action against a co-worker.            33.3%                   1
            I did not want to get involved.                                            0.0%                   0
            Management was already aware of this behavior.                            33.3%                   1
            Other                                                                      0.0%                   0
 d.   Did the criminal sexual behavior occur during a protective assignment?
            Yes                                                                       32.0%                  16
            No                                                                        68.0%                  34
 e.   Which of the following most accurately describes your perception of criminal sexual behavior in the Secret Service?
            This behavior is isolated within the Secret Service.                      64.0%                  32
            This behavior is systemic throughout the Secret Service.                  12.0%                   6
            This behavior is more than isolated but less than systemic.               24.0%                  12
 If the respondent selected: Other sexual behavior that causes a security concern
 a.   How did you become aware of the sexual behavior that caused a security concern? [More than one could be selected]
            I have personally observed this behavior.                                 24.8%                  38
            I learned about this behavior from the person who engaged in it.          26.8%                  41
            I learned about this behavior from a person who observed it.              39.2%                  60
            I learned about this behavior from someone who reported it to me.         13.1%                  20
            I learned about this behavior as part of my official duties.              22.2%                  34
            I learned about this behavior through official Secret Service
                                                                                      12.4%                  19
            communication.
            I learned about this behavior from the press, media, or another public
                                                                                      30.7%                  47
            source.

www.oig.dhs.gov                                           98                                        OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


            I learned about this behavior through a casual conversation that I
                                                                                      51.6%                  79
            considered gossip.
            Other 	                                                                    5.9%                   9
 If the respondent answered “I have personally observed this behavior,” he/she proceeded to “b.” If not, he/she
 proceeded to “d.”
 b.   Did you report the behavior?
            Yes	                                                                      15.8%                   6
            No 	                                                                      84.2%                  32
 If the respondent answered “Yes,” he/she proceeded to “d.” If the respondent answered “No,” he/she proceeded to “c.”
 c.	 If no, why did you not report this behavior? [More than one could be selected]
            Someone else reported the behavior.	                                      12.5%                   4
            I was afraid of reprisal or retaliation for reporting the behavior.       37.5%                  12
            I do not believe management is supportive of employees reporting the
                                                                                      56.3%                  18
            behavior.
            The employee engaged in the behavior while off-duty.	                     50.0%                  16
            I did not feel the behavior was serious enough to warrant reporting.      12.5%	                  4
            I was unfamiliar with the process for reporting the behavior.             9.4% 	                  3
            I did not believe the employee would be investigated even if reported.    43.8%                  14
            I did not want to cause an adverse action against a co-worker.            18.8% 	                 6
            I did not want to get involved.	                                          21.9%                   7
            Management was already aware of this behavior. 	                          31.3%                  10
            Other 	                                                                   28.1%                   9

 d.	 Did the sexual behavior, other than prostitution or criminal sexual behavior, which caused a security concern, occur
     during a protective assignment?
            Yes	                                                                      53.6%                  82
            No 	                                                                      46.4%                  71


 e.   Which of the following most accurately describes your perception of Secret Service employees’ engaging in sexual
      behavior, other than prostitution or criminal sexual behavior, which causes a security concern?
            This behavior is isolated within the Secret Service.	                     38.6%                  59
            This behavior is systemic throughout the Secret Service. 	                19.6%                  30
            This behavior is more than isolated but less than systemic.               41.8%                  64
 If the respondent selected: Contact with foreign nationals that causes a security concern
 a.   How did you become aware of the contact with foreign nationals that caused a security concern? [More than one
      could be selected]
            I have personally observed this behavior.	                                14.7%                  17
            I learned about this behavior from the person who engaged in it.          21.6%                  25


www.oig.dhs.gov                                           99	                                       OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


            I learned about this behavior from a person who observed it.              23.3%                  27
            I learned about this behavior from someone who reported it to me.          9.5%                  11
            I learned about this behavior as part of my official duties.              27.6%                  32
            I learned about this behavior through official Secret Service
                                                                                      13.8%                  16
            communication.
            I learned about this behavior from the press, media, or another public
                                                                                      42.2%                  49
            source.
            I learned about this behavior through a casual conversation that I
                                                                                      44.0%                  51
            considered gossip.
            Other                                                                      5.2%                   6
 If the respondent answered “I have personally observed this behavior,” he/she proceeded to “b.” If not, he/she
 proceeded to “d.”
 b.   Did you report the behavior?
            Yes                                                                       17.6%                   3
            No                                                                        82.4%                  14
 If the respondent answered “Yes,” he/she proceeded to “d.” If the respondent answered “No,” he/she proceeded to “c.”
 c. If no, why did you not report this behavior? [More than one could be selected]
            Someone else reported the behavior.                                       14.3%                   2
            I was afraid of reprisal or retaliation for reporting the behavior.       42.9%                   6
            I do not believe management is supportive of employees reporting the
                                                                                      50.0%                   7
            behavior.
            The employee engaged in the behavior while off-duty.                      21.4%                   3
            I did not feel the behavior was serious enough to warrant reporting.       7.1%                   1
            I was unfamiliar with the process for reporting the behavior.             14.3%                   2
            I did not believe the employee would be investigated even if reported.    21.4%                   3
            I did not want to cause an adverse action against a co-worker.            35.7%                   5
            I did not want to get involved.                                           28.6%                   4
            Management was already aware of this behavior.                            50.0%                   7
            Other                                                                      7.1%                   1
 d.   Did the contact with foreign nationals that caused a security concern occur during a protective assignment?
            Yes                                                                       56.9%                  66
            No                                                                        43.1%                  50
 e.   Which of the following most accurately describes your perception of Secret Service employee’s contact with foreign
      nationals, which causes a security concern?
            This behavior is isolated within the Secret Service.                      56.9%                  66
            This behavior is systemic throughout the Secret Service.                  10.3%                  12
            This behavior is more than isolated but less than systemic.               32.8%                  38



www.oig.dhs.gov                                          100                                        OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


 If the respondent selected: Personal conduct that causes a security concern
 a.   How did you become aware of the personal conduct that caused a security concern? [More than one could be
      selected]
            I have personally observed this behavior.                                41.3%              102
            I learned about this behavior from the person who engaged in it.         27.1%               67
            I learned about this behavior from a person who observed it.             43.7%              108
            I learned about this behavior from someone who reported it to me.        17.0%               42
            I learned about this behavior as part of my official duties.             25.1%               62
            I learned about this behavior through official Secret Service
                                                                                     13.4%               33
            communication.
            I learned about this behavior from the press, media, or another public
                                                                                     27.1%               67
            source.
            I learned about this behavior through a casual conversation that I
                                                                                     47.4%              117
            considered gossip.
            Other                                                                    10.5%               26

 If the respondent answered “I have personally observed this behavior,” he/she proceeded to “b.” If not, he/she
 proceeded to “d.”
 b.   Did you report the behavior?
            Yes                                                                      33.3%               34
            No                                                                       66.7%               68
 If the respondent answered “Yes,” he/she proceeded to “d.” If the respondent answered “No,” he/she proceeded to “c.”
 c. If no, why did you not report this behavior? [More than one could be selected]
            Someone else reported the behavior.                                      14.7%               10
            I was afraid of reprisal or retaliation for reporting the behavior.      51.5%               35
            I do not believe management is supportive of employees reporting the
                                                                                     66.2%               45
            behavior.
            The employee engaged in the behavior while off-duty.                     30.9%               21
            I did not feel the behavior was serious enough to warrant reporting.     17.6%               12
            I was unfamiliar with the process for reporting the behavior.            10.3%                7
            I did not believe the employee would be investigated even if reported.   50.0%               34
            I did not want to cause an adverse action against a co-worker.           11.8%                8
            I did not want to get involved.                                          23.5%               16
            Management was already aware of this behavior.                           42.6%               29
            Other                                                                    16.2%               11
 d.   Did the personal conduct that caused a security concern occur during a protective assignment?
            Yes                                                                      40.5%              100
            No                                                                       59.5%              147


www.oig.dhs.gov                                          101                                      OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


 e.   Which of the following most accurately describes your perception of Secret Service employees’ personal conduct
      which causes a security concern?
            This behavior is isolated within the Secret Service.                    41.3%                102
            This behavior is systemic throughout the Secret Service.                15.0%                  37
            This behavior is more than isolated but less than systemic.             43.7%                108
 About the Interviewee
 29. How long have you been employed with the Secret Service?
            Less than 1 year                                                         0.7%                  19
            1-3 years                                                               13.7%                 352
            4-6 years                                                               14.3%                 367
            7-9 years                                                               12.1%                 311
            10 or more years                                                        59.3%               1,526
 30. What is your current occupational specialty?
            Special Agent                                                           49.0%               1,262
            Uniformed Division Police                                               16.7%                431
            Administrative, Professional, and Technical Support Personnel           33.1%                853
            Other                                                                    1.1%                  29
 31. What is your current grade (GS or LE)?
            1                                                                        7.7%                 197
            2                                                                        0.5%                  12
            3                                                                        1.1%                  29
            4                                                                        2.5%                  65
            5                                                                        1.6%                  41
            6                                                                        0.7%                  18
            7                                                                        1.6%                  41
            8                                                                        4.2%                 109
            9                                                                        4.5%                 116
            10                                                                       0.5%                  14
            11                                                                       5.1%                 131
            12                                                                       6.4%                 165
            13                                                                      41.6%               1,070
            14                                                                      13.4%                 344
            15                                                                       5.4%                 139
            Senior Executive Service                                                 1.2%                  32
            Other                                                                    2.0%                  52


www.oig.dhs.gov                                         102                                       OIG-14-20
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


 32. Do you supervise staff?
            Yes                                                                      26.0%          669
            No                                                                       74.0%        1,906
 33. I have been directly involved in a disciplinary matter.
            Yes                                                                      17.8%          458
            No                                                                       82.2%        2,117
 34. I have been directly involved in the security clearance adjudication process.
            Yes                                                                      8.5%           220
            No                                                                       91.5%        2,355




www.oig.dhs.gov                                         103                                  OIG-14-20
                                            OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security


      Appendix E
      Results of In-Person Surveys

 For all scale questions, responses of “strongly                                   Neither
 agree” and “agree” are positive, “neither agree     Percent    Strongly            Agree                  Strongly   Do Not
 nor disagree” is neutral, and “strongly disagree”
                                                                           Agree              Disagree
                                                     Positive    Agree               Nor                   Disagree   Know
 or “disagree” are negative.
                                                                                   Disagree
 Reporting and Addressing Misconduct
 1.	 Appropriate policies and                                    31.7%     59.6%     3.7%       1.9%         0.6%
    2.5%
     procedures are in place to address
     employee violations of any law,                 91.3%
     rule, regulation, or standards of                            51        96         6          3            1
         4
     conduct.
 2.	 I am aware of avenues available to                          37.3%     57.1%     4.3%       1.2%         0.0%

     Secret Service employees to report              94.4%                                                                NA
     misconduct.                                                  60        92         7          2            0

 3.	 I can report a suspected violation                          22.4%     42.9%     26.7%      6.8%         1.2%

     of any law, rule, regulation, or
                                                     65.3%                                                                NA
     standards of conduct without fear                            36        69        43         11            2      

     of retaliation.
 4.	 I trust my immediate supervisor to                          36.0%     49.7%     9.3%       3.7%         1.2%

     respond appropriately to reported               85.7%                                                                NA
     misconduct.                                                  58        80        15          6            2

 5.	 If I suspected that my co-workers
                         52.8 %     39.8%     7.5%       0.0%         0.0%
     or managers were engaged in

     misconduct or illegal activity, I 
             92.6%                                                                NA
     would report it to the appropriate 
                         85        64        12          0            0

     Secret Service officials.

 6.	 If a senior manager engages in
                                                                 24.8%     39.1%     11.8%      14.3%        2.5%
    7.5%
     misconduct or illegal activity, he or
     she is held accountable.                        63.9%
     [A senior manager supervises                                 40        63        19         23            4          12
     several supervisors and their staff.]
 7.   If a supervisor engages in
      misconduct or illegal activity, he or                      26.7%     50.3%     10.6%      8.7%         1.9%     1.9%
      she is held accountable.
      [A supervisor is the first-line
      manager who monitors and
                                                     77.0%
      regulates employees in their
      performance of assigned or                                  43        81        17         14            3          3
      delegated tasks.]




www.oig.dhs.gov                                                 104	                                     OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


                                                                           Neither 

 Reporting and Addressing Misconduct          Percent 
 Strongly            Agree
                      Strongly      Do Not
                                                                   Agree                 Disagree
 (cont.)                                      Positive
  Agree               Nor                        Disagree      Know
                                                                           Disagree
 8.	 If a Special Agent engages in                       26.7%     41.6%     11.2%            4.3%        1.2%        14.9%
     misconduct or illegal activity, he or     68.3%
     she is held accountable.                              43       67         18               7           2          24
 9.	 If a Uniformed Division Police                      36.6%     44.7%     5.0%             1.9%        0.6%        11.2%
     Officer engages in misconduct or
                                               81.3%
     illegal activity, he or she is held                   59       72         8                3           1          18
     accountable.
 10. If an Administrative, Professional,                 24.2%     33.5%     8.1%             1.2%        0.6%        32.3%
     or Technical Support employee
     engages in misconduct or illegal          57.7%
     activity, he or she is held                           39       54         13               2           1          52
     accountable.
 11. Violations of any law, rule,                        31.1%     47.2%     11.8%            8.7%        0.6%        0.6%
     regulation, or standards of conduct
                                               78.3%
     are not tolerated within the Secret
                                                           50       76         19              14           1           1
     Service.
 12. The Secret Service’s disciplinary                   13.0%     33.5%     21.2%            18.0%       6.2%        8.1%
     process is fair.                          46.5%
                                                           21       54         34              29          10          13
 13. Disciplinary actions within the                     8.1%      28.6%     16.1%            24.2%       8.1%        14.9%
     Secret Service are applied                36.7%
     consistently for similar offenses.                    13       46         26              39          13          24
 14. Disciplinary actions within the                     13.7%     39.1%     16.1%            15.5%       2.5%        13.0%
     Secret Service are at the
                                               52.8%
     appropriate level of severity given                   22       63         26              25           4          21
     the offense.
 15. If you were to report misconduct by a Secret Service employee, to whom would you report it? [More than one could
     be selected]
            My direct supervisor                                                    94.4%                       152
            Another supervisor other than my direct supervisor                      32.9%                       53
            DHS Office of Inspector General                                            6.8%                     11
            USSS Equal Employment Opportunity Office                                11.2%                       18
            USSS Inspection Division                                                19.3%                       31
            USSS Ombudsman                                                          21.7%                       35
            Do not know                                                                0.6%                       1
            Other                                                                      3.7%                       6
            Declined to answer                                                         0.6%                       1




www.oig.dhs.gov                                         105	                                          OIG-14-20
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


                                                                         Neither 

                                           Percent    Strongly            Agree
                  Strongly   Do Not 

                                                                 Agree               Disagree
                                           Positive    Agree               Nor 
                  Disagree   Know

                                                                         Disagree
 Reporting and Addressing Security
 Concerns
 16. Appropriate policies and                          34.2%     57.1%     5.6%        1.2%         0.0%      1.9%
     procedures are in place to address
                                           91.3%
     security concerns regarding a                      55        92         9           2            0        3
     Secret Service employee.
 17. I am aware of avenues available to                32.9%     59.0%     5.0 %       3.1%         0.0%
     Secret Service employees to report
                                           91.9%                                                               NA
     security concerns regarding a                                                       5            0
                                                        53        95         8
     Secret Service employee.
 18. I can report a suspected security                 26.7%     50.3%     16.8%       6.2%         0.0%
     concern regarding a Secret Service
                                           77.0%                                                               NA
     employee without fear of                           43        81         27         10            0
     retaliation.
 19. I trust my immediate supervisor to                39.8%     46.6%     10.6%       3.1%         0.0%
     respond appropriately to security
                                           86.4%                                                               NA
     concerns regarding a Secret                                                         5            0
                                                        64        75         17
     Service employee.
 20. If I suspected that my co-workers
                                                       54.7%     42.2%     2.5%        0.6%         0.0%
     or managers engaged in behavior
     that caused a security concern, I     96.9%                                                               NA
     would report it to the appropriate                 88        68         4           1            0
     Secret Service officials.
 21. The Secret Service takes
                                                       21.1%     38.5%     12.4%       8.7%         1.9%     17.4%
     appropriate action if a senior
     manager engages in behavior that
                                           59.6%
     causes a security concern. [A
     senior manager supervises several                  34        62         20         14            3        28
     supervisors and their staff.]
 22. The Secret Service takes
     appropriate action if a supervisor                25.5%     48.4%     9.3%        6.2%         0.6%      9.9%
     engages in behavior that causes a
     security concern. [A supervisor is
                                           73.9%
     the first-line manager who
     monitors and regulates employees                   41        78         15         10            1        16
     in their performance of assigned or
     delegated tasks.]
 23. The Secret Service takes                          25.5%     36.6%     9.9%        3.1%         1.2%     23.6%
     appropriate action if a Special
     Agent engages in behavior that        62.1%
     causes a security concern.                         41        59         16          5            2        38



www.oig.dhs.gov                                       106                                       OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


                                                                            Neither
                                              Percent    Strongly            Agree                      Strongly      Do Not
                                                                    Agree                Disagree
                                              Positive    Agree               Nor                       Disagree      Know
                                                                            Disagree
 Reporting and Addressing Security
 Concerns
 24. The Secret Service takes                             28.6%     46.6%      8.7%           2.5%        0.0%        13.7%
     appropriate action if a Uniformed
     Division Police Officer engages in        75.2%
     behavior that causes a security                       46        75         14             4            0          22
     concern.
 25. The Secret Service takes
                                                          21.2%     29.8%      8.7%           1.2 %       0.0%        39.1%
     appropriate action if an
     Administrative, Professional, or
                                               51.0%
     Technical employee engages in
     behavior that causes a security                       34        48         14             2            0          63
     concern.
 26. The Secret Service has a fair
                                                          22.4%     34.2%      9.3%           3.1%        1.2%        29.8%
     process for reviewing an
     employee’s eligibility for continued
                                               56.6%
     access to classified information as
     a result of behavior that causes a                    36        55         15             5            2          48
     security concern.

 27. If you were to report behavior that causes a security concern, to whom would you report it? [More than one could be
     selected]
           My direct supervisor                                                      94.4%                   152
           Another supervisor other than my direct supervisor                        39.1%                      63
           DHS Office of Inspector General                                            5.6%                        9
           USSS Security Clearance Division                                          29.2%                      47
           USSS Inspection Division                                                  20.5%                      33
           USSS Ombudsman                                                             9.9%                      16
           Do not know                                                                0.6%                        1
           Other                                                                      3.7%                        6
           Declined to answer                                                         0.6%                        1

 Existence of Certain Behaviors within Secret Service
 28. Using the list below, please select any behaviors by Secret Service employees of which you are aware. [More than one
     could be selected]
           Excessive alcohol consumption that causes a security concern               24.8%                     40
           Solicitation of prostitute(s)                                              27.3%                     44
           Criminal sexual behavior other than solicitation                            7.5%                     12


www.oig.dhs.gov                                          107                                          OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


            Other sexual behavior that causes a security concern                       5.6%                 9
            Contact with foreign nationals that causes a security concern              11.2%              18
            Personal conduct that causes a security concern                            7.5%               12
            I am not aware of any Secret Service employees engaging in these
                                                                                       59.0%              95
            behaviors
            Declined to answer                                                         1.2%                 2
 If the respondent selected: Excessive alcohol consumption that causes a security concern
 a.   How did you become aware of the excessive alcohol consumption? [More than one could be selected]
            I have personally observed this behavior.                                  37.5%             15
            I learned about this behavior from the person who engaged in it.           20.0%              8
            I learned about this behavior from a person who observed it.               45.0%             18
            I learned about this behavior from someone who reported it to me.          5.0%               2
            I learned about this behavior as part of my official duties.               7.5%               3
            I learned about this behavior through official Secret Service
                                                                                       22.5%              9
            communication.
            I learned about this behavior from the press, media, or another public
                                                                                       57.5%             23
            source.
            I learned about this behavior through a casual conversation that I
                                                                                       57.5%             23
            considered gossip.
            Other                                                                      0.0%               0
 If the respondent answered “I have personally observed this behavior,” he/she proceeded to “b.” If not, he/she
 proceeded to “d.”
 b.   Did you report the behavior?
            Yes                                                                        6.7%               1
            No                                                                         93.3%             14
 If the respondent answered “Yes,” he/she proceeded to “d.” If the respondent answered “No,” he/she proceeded to “c.”

 c.   If no, why did you not report this behavior? [More than one could be selected]
            Someone else reported the behavior.                                        14.3%              2
            I was afraid of reprisal or retaliation for reporting the behavior.        14.3%              2
            I do not believe management is supportive of employees reporting the
                                                                                       21.4%              3
            behavior.
            The employee engaged in the behavior while off-duty.                       71.4%             10
            I did not feel the behavior was serious enough to warrant reporting.       50.0%              7
            I was unfamiliar with the process for reporting the behavior.              0.0%               0
            I did not believe the employee would be investigated even if reported.     14.3%              2
            I did not want to cause an adverse action against a co-worker.             14.3%              2
            I did not want to get involved.                                            21.4%              3


www.oig.dhs.gov                                          108                                    OIG-14-20
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


                 Management was already aware of this behavior.                                 28.6%                    4
                 Other                                                                           7.1%                    1

 d.    Did the excessive alcohol consumption occur during a protective assignment?
                 Yes                                                                            55.0%                    22
                 No                                                                             42.5%                    17
                 Declined to answer                                                              2.5%                    1
 e.    Which of the following most accurately describes your perception of excessive alcohol consumption in the Secret
       Service?
                                                                        36
                 This behavior is isolated within the Secret Service.                           70.0%                    28
                                                                             37
                 This behavior is systemic throughout the Secret Service.                        5.0%                    2
                 This behavior is more than isolated but less than systemic.                    25.0%                    10
 If the respondent selected: Solicitation of Prostitutes
 a.    How did you become aware of the solicitation of prostitute(s)? [More than one could be selected]
                 I have personally observed this behavior.                                       0.0%                    0
                 I learned about this behavior from the person who engaged in it.                0.0%                    0
                 I learned about this behavior from a person who observed it.                    6.8%                    3
                 I learned about this behavior from someone who reported it to me.               6.8%                    3
                 I learned about this behavior as part of my official duties.                   11.4%                    5
                 I learned about this behavior through official Secret Service
                                                                                                43.2%                    19
                 communication.
                 I learned about this behavior from the press, media, or another public
                                                                                                95.5%                    42
                 source.
                 I learned about this behavior through a casual conversation that I
                                                                                                45.5%                    20
                 considered gossip.
                 Other                                                                           4.5%                    2
 If the respondent answered “I have personally observed this behavior,” he/she proceeded to “b.” If not, he/she
 proceeded to “d.”
 b.    Did you report the behavior?
                 Yes                                                                             0.0 %                   0
                 No                                                                              0.0%                    0




      36
           Isolated means that the behavior occurs infrequently, among a small percentage of employees who act alone.
      37
           Systemic means that the behavior occurs frequently, among a large percentage of employees who act together.

www.oig.dhs.gov                                                109                                             OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


 If the respondent answered “Yes,” he/she proceeded to “d.” If the respondent answered “No,” he/she proceeded to “c.”

 c.   If no, why did you not report this behavior? [More than one could be selected]
            Someone else reported the behavior.                                          0.0%                   0
            I was afraid of reprisal or retaliation for reporting the behavior.          0.0%                   0
            I do not believe management is supportive of employees reporting the
                                                                                         0.0%                   0
            behavior.
            The employee engaged in the behavior while off-duty.                         0.0%                   0
            I did not feel the behavior was serious enough to warrant reporting.         0.0%                   0
            I was unfamiliar with the process for reporting the behavior.                0.0%                   0
            I did not believe the employee would be investigated even if reported.       0.0%                   0
            I did not want to cause an adverse action against a co-worker.               0.0%                   0
            I did not want to get involved.                                              0.0%                   0
            Management was already aware of this behavior.                               0.0%                   0
            Other                                                                        0.0%                   0
 d.   Did the solicitation of prostitute(s) occur during a protective assignment?
            Yes                                                                         84.1%                  37
            No                                                                          13.6%                   6
            Declined to answer                                                           2.3%                   1
 e.   Which of the following most accurately describes your perception of solicitation of prostitute(s) in the Secret Service?
            This behavior is isolated within the Secret Service.                        95.5%                  42
            This behavior is systemic throughout the Secret Service.                     0.0%                   0
            This behavior is more than isolated but less than systemic.                  4.5%                   2
 If the respondent selected: Criminal sexual behavior other than solicitation
 a.   How did you become aware of the criminal sexual behavior? [More than one could be selected]
            I have personally observed this behavior.                                    0.0%                   0
            I learned about this behavior from the person who engaged in it.             8.3%                   1
            I learned about this behavior from a person who observed it.                 0.0%                   0
            I learned about this behavior from someone who reported it to me.            8.3%                   1
            I learned about this behavior as part of my official duties.                 8.3%                   1
            I learned about this behavior through official Secret Service
                                                                                         8.3%                   1
            communication.
            I learned about this behavior from the press, media, or another public
                                                                                        66.7%                   8
            source.
            I learned about this behavior through a casual conversation that I
                                                                                        58.3%                   7
            considered gossip.
            Other                                                                        0.0%                   0


www.oig.dhs.gov                                          110                                          OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


 If the respondent answered “I have personally observed this behavior,” he/she proceeded to “b.” If not, he/she
 proceeded to “d.”
 b.   Did you report the behavior?
            Yes                                                                        0.0%                   0
            No                                                                         0.0%                   0
 If the respondent answered “Yes,” he/she proceeded to “d.” If the respondent answered “No,” he/she proceeded to “c.”

 c.   If no, why did you not report this behavior? [More than one could be selected]
            Someone else reported the behavior.                                        0.0%                   0
            I was afraid of reprisal or retaliation for reporting the behavior.        0.0%                   0
            I do not believe management is supportive of employees reporting the
                                                                                       0.0%                   0
            behavior.
            The employee engaged in the behavior while off-duty.                       0.0%                   0
            I did not feel the behavior was serious enough to warrant reporting.       0.0%                   0
            I was unfamiliar with the process for reporting the behavior.              0.0%                   0
            I did not believe the employee would be investigated even if reported.     0.0%                   0
            I did not want to cause an adverse action against a co-worker.             0.0%                   0
            I did not want to get involved.                                            0.0%                   0
            Management was already aware of this behavior.                             0.0%                   0
            Other                                                                      0.0%                   0
 d.   Did the criminal sexual behavior occur during a protective assignment?
            Yes                                                                        0.0%                   0
            No                                                                         100.0%                12
 e.   Which of the following most accurately describes your perception of criminal sexual behavior in the Secret Service?
            This behavior is isolated within the Secret Service.                       100.0%                12
            This behavior is systemic throughout the Secret Service.                   0.0%                   0
            This behavior is more than isolated but less than systemic.                0.0%                   0
 If the respondent selected: Other sexual behavior that causes a security concern
 a.   How did you become aware of the sexual behavior that caused a security concern? [More than one could be selected]
            I have personally observed this behavior.                                  11.1%                  1
            I learned about this behavior from the person who engaged in it.           11.1%                  1
            I learned about this behavior from a person who observed it.               22.2%                  2
            I learned about this behavior from someone who reported it to me.          0.0%                   0
            I learned about this behavior as part of my official duties.               0.0%                   0
            I learned about this behavior through official Secret Service
                                                                                       11.1%                  1
            communication.



www.oig.dhs.gov                                          111                                        OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


            I learned about this behavior from the press, media, or another public
                                                                                      11.1%                   1
            source.
            I learned about this behavior through a casual conversation that I
                                                                                      77.8%                   7
            considered gossip.
            Other 	                                                                   11.1%                   1
 If the respondent answered “I have personally observed this behavior,” he/she proceeded to “b.” If not, he/she
 proceeded to “d.”
 b.   Did you report the behavior?
            Yes	                                                                      100.0%                  1
            No 	                                                                        0.0%                  0
 If the respondent answered “Yes,” he/she proceeded to “d.” If the respondent answered “No,” he/she proceeded to “c.”

 c.	 If no, why did you not report this behavior? [More than one could be selected]
            Someone else reported the behavior.	                                       0.0%                   0
            I was afraid of reprisal or retaliation for reporting the behavior.        0.0% 	                 0
            I do not believe management is supportive of employees reporting the
                                                                                       0.0% 	                 0
            behavior.
            The employee engaged in the behavior while off-duty. 	                     0.0%                   0
            I did not feel the behavior was serious enough to warrant reporting.       0.0%	                  0
            I was unfamiliar with the process for reporting the behavior.              0.0% 	                 0
            I did not believe the employee would be investigated even if reported.     0.0% 	                 0
            I did not want to cause an adverse action against a co-worker.             0.0% 	                 0
            I did not want to get involved.	                                           0.0%                   0
            Management was already aware of this behavior. 	                           0.0%                   0
            Other 	                                                                    0.0%                   0
 d.	 Did the sexual behavior, other than prostitution or criminal sexual behavior, which caused a security concern, occur
     during a protective assignment?
            Yes	                                                                      55.6%                   5
            No 	                                                                      44.4%                   4
 e.   Which of the following most accurately describes your perception of Secret Service employees’ engaging in sexual
      behavior, other than prostitution or criminal sexual behavior, which causes a security concern?
            This behavior is isolated within the Secret Service. 	                    88.9%                   8
            This behavior is systemic throughout the Secret Service.	                 11.1%                   1
            This behavior is more than isolated but less than systemic.                0.0%                   0




www.oig.dhs.gov                                          112	                                       OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


 If the respondent selected: Contact with foreign nationals that causes a security concern
 a.   How did you become aware of the contact with foreign nationals that caused a security concern? [More than one
      could be selected]
            I have personally observed this behavior.                                  5.6%                   1
            I learned about this behavior from the person who engaged in it.           0.0%                   0
            I learned about this behavior from a person who observed it.               5.6%                   1
            I learned about this behavior from someone who reported it to me.          5.6%                   1
            I learned about this behavior as part of my official duties.               5.6%                   1
            I learned about this behavior through official Secret Service
                                                                                       38.9%                  7
            communication.
            I learned about this behavior from the press, media, or another public
                                                                                       55.6%                 10
            source.
            I learned about this behavior through a casual conversation that I
                                                                                       61.1%                 11
            considered gossip.
            Other                                                                      11.1%                  2
 If the respondent answered “I have personally observed this behavior,” he/she proceeded to “b.” If not, he/she
 proceeded to “d.”
 b.   Did you report the behavior?
            Yes                                                                        0.0%                   0
            No                                                                         100.0%                 1
 If the respondent answered “Yes,” he/she proceeded to “d.” If the respondent answered “No,” he/she proceeded to “c.”

 c.   If no, why did you not report this behavior? [More than one could be selected]
            Someone else reported the behavior.                                        100.0%                 1
            I was afraid of reprisal or retaliation for reporting the behavior.        0.0%                   0
            I do not believe management is supportive of employees reporting the
                                                                                       0.0%                   0
            behavior.
            The employee engaged in the behavior while off-duty.                       0.0%                   0
            I did not feel the behavior was serious enough to warrant reporting.       0.0%                   0
            I was unfamiliar with the process for reporting the behavior.              0.0%                   0
            I did not believe the employee would be investigated even if reported.     0.0%                   0
            I did not want to cause an adverse action against a co-worker.             0.0%                   0
            I did not want to get involved.                                            0.0%                   0
            Management was already aware of this behavior.                             0.0%                   0
            Other                                                                      0.0%                   0
 d.   Did the contact with foreign nationals that caused a security concern occur during a protective assignment?
            Yes                                                                        50.0%                  9
            No                                                                         38.9%                  7


www.oig.dhs.gov                                          113                                        OIG-14-20
                                     OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


            Declined to answer                                                         11.1%                 2
 e.   Which of the following most accurately describes your perception of Secret Service employee’s contact with foreign
      nationals, which causes a security concern?
            This behavior is isolated within the Secret Service.                       100.0%               18
            This behavior is systemic throughout the Secret Service.                   0.0%                  0
            This behavior is more than isolated but less than systemic.                0.0%                  0
 If the respondent selected: Personal conduct that causes a security concern
 a.   How did you become aware of the personal conduct that caused a security concern? [More than one could be
      selected]
            I have personally observed this behavior.                                  50.0%                 6
            I learned about this behavior from the person who engaged in it.           16.7%                 2
            I learned about this behavior from a person who observed it.               41.7%                 5
            I learned about this behavior from someone who reported it to me.          25.0%                 3
            I learned about this behavior as part of my official duties.               8.3%                  1
            I learned about this behavior through official Secret Service
                                                                                       16.7%                 2
            communication.
            I learned about this behavior from the press, media, or another public
                                                                                       16.7%                 2
            source.
            I learned about this behavior through a casual conversation that I
                                                                                       75.0%                 9
            considered gossip.
            Other                                                                       8.3%                 1

 If the respondent answered “I have personally observed this behavior,” he/she proceeded to “b.” If not, he/she
 proceeded to “d.”
 b.   Did you report the behavior?
            Yes                                                                        50.0%                 3
            No                                                                         50.0%                 3
 If the respondent answered “Yes,” he/she proceeded to “d.” If the respondent answered “No,” he/she proceeded to “c.”

 c.   If no, why did you not report this behavior? [More than one could be selected]
            Someone else reported the behavior.                                        66.7%                 2
            I was afraid of reprisal or retaliation for reporting the behavior.        66.7%                 2
            I do not believe management is supportive of employees reporting the
                                                                                       33.3%                 1
            behavior.
            The employee engaged in the behavior while off-duty.                       66.7%                 2
            I did not feel the behavior was serious enough to warrant reporting.       33.3%                 1
            I was unfamiliar with the process for reporting the behavior.              0.0%                  0
            I did not believe the employee would be investigated even if reported.     0.0%                  0
            I did not want to cause an adverse action against a co-worker.             33.3%                 1

www.oig.dhs.gov                                          114                                       OIG-14-20
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


            I did not want to get involved.                                          33.3%                  1
            Management was already aware of this behavior.                           100.0%                 3
            Other                                                                     0.0%                  0
 d.   Did the personal conduct that caused a security concern occur during a protective assignment?
            Yes                                                                      41.7%                  5
            No                                                                       50.0%                  6
            Declined to answer                                                        8.3%                  1
 e.   Which of the following most accurately describes your perception of Secret Service employees’ personal conduct
      which causes a security concern?
            This behavior is isolated within the Secret Service.                     75.0%                  9
            This behavior is systemic throughout the Secret Service.                  8.3%                  1
            This behavior is more than isolated but less than systemic.              16.7%                  2
 About the Interviewee
 35. How long have you been employed with the Secret Service?
            Less than 1 year                                                          0.0%                  0
            1-3 years                                                                16.8%                 27
            4-6 years                                                                16.1%                 26
            7-9 years                                                                14.3%                 23
            10 or more years                                                         52.8%                 85
 36. What is your current occupational specialty?
            Special Agent                                                            33.5%                 54
            Uniformed Division Police                                                60.9%                 98
            Administrative, Professional, and Technical Support Personnel             5.0%                  8
            Other                                                                     0.6%                  1
 37. What is your current grade (GS or LE)?
            1                                                                        23.0%                 37
            2                                                                         1.2%                  2
            3                                                                         3.1%                  5
            4                                                                         5.0%                  8
            5                                                                         3.1%                  5
            6                                                                         1.9%                  3
            7                                                                         3.1%                  5
            8                                                                         1.2%                  2
            9                                                                         1.9%                  3
            10                                                                        0.6%                  1


www.oig.dhs.gov                                         115                                       OIG-14-20
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


            11                                                                       3.7%            6
            12                                                                       2.5%            4
            13                                                                       29.2%          47
            14                                                                       4.3%            7
            15                                                                       1.9%            3
            Senior Executive Service                                                 0.6%            1
            Other                                                                    12.4%          20
            Declined to answer                                                       0.6%            1
 38. Do you supervise staff?
            Yes                                                                      24.8%           40
            No                                                                       75.2%          121
 39. I have been directly involved in a disciplinary matter.
            Yes                                                                      19.3%           31
            No                                                                       80.7%          130
 40. I have been directly involved in the security clearance adjudication process.
            Yes                                                                      8.1%            13
            No                                                                       91.9%          148




www.oig.dhs.gov                                         116                                  OIG-14-20
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix F
   Adjudicative Guidelines for Determining Eligibility for Access to
   Classified Information
   Adjudicative Guidelines identify 13 criteria for consideration when determining
   eligibility for initial or continued access to classified information. They are:


      Adjudicative
                           Conditions that could raise a security concern and may be disqualifying
       Guidelines
                         (a) involvement in, support of, training to commit, or advocacy of any act of sabotage,
                         espionage, treason, terrorism, or sedition against the United States of America; (b)
                         association or sympathy with persons who are attempting to commit, or who are
                         committing, any of the above acts; (c) association or sympathy with persons or
       Guideline A:      organizations that advocate, threaten, or use force or violence, or use any other
     Allegiance to the   illegal or unconstitutional means, in an effort to: (1) overthrow or influence the
      United States      government of the United States or any state or local government;(2) prevent
                         Federal, state, or local government personnel from performing their official duties;
                         (3) gain retribution for perceived wrongs caused by the Federal, state, or local
                         government; (4) prevent others from exercising their rights under the Constitution or
                         laws of the United States or of any state.
                         (a) contact with a foreign family member, business or professional associate, friend,
                         or other person who is a citizen of or resident in a foreign country if that contact
                         creates a heightened risk of foreign exploitation, inducement, manipulation, pressure,
                         or coercion; (b) connections to a foreign person, group, government, or country that
                         create a potential conflict of interest between the individual's obligation to protect
                         sensitive information or technology and the individual's desire to help a foreign
                         person, group, or country by providing that information; (c) counterintelligence
                         information, that may be classified, indicates that the individual's access to protected
                         information may involve unacceptable risk to national security; (d) sharing living
                         quarters with a person or persons, regardless of citizenship status, if that relationship
      Guideline B:
                         creates a heightened risk of foreign inducement, manipulation, pressure, or coercion;
    Foreign Influence
                         (e) a substantial business, financial, or property interest in a foreign country, or in any
                         foreign-owned or foreign-operated business, which could subject the individual to
                         heightened risk of foreign influence or exploitation; (f) failure to report, when
                         required, association with a foreign national; (g) unauthorized association with a
                         suspected or known agent, associate, or employee of a foreign intelligence service;
                         (h) indications that representatives or nationals from a foreign country are acting to
                         increase the vulnerability of the individual to possible future exploitation,
                         inducement, manipulation, pressure, or coercion; (i) conduct, especially while
                         traveling outside the U.S., which may make the individual vulnerable to exploitation,
                         pressure, or coercion by a foreign person, group, government, or country.




www.oig.dhs.gov                                    117                                           OIG-14-20
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                         (a) exercise of any right, privilege or obligation of foreign citizenship after becoming a
                         U.S. citizen or through the foreign citizenship of a family member. This includes but is
                         not limited to: (1) possession of a current foreign passport; (2) military service or a
                         willingness to bear arms for a foreign country; (3) accepting educational, medical,
                         retirement, social welfare, or other such benefits from a foreign country; (4)
                         residence in a foreign country to meet citizenship requirements; (5) using foreign
       Guideline C:      citizenship to protect financial or business interests in another country; (6) seeking or
    Foreign Preference   holding political office in a foreign country; (7) voting in a foreign election; (b) action
                         to acquire or obtain recognition of a foreign citizenship by an American citizen; (c)
                         performing or attempting to perform duties, or otherwise acting, so as to serve the
                         interests of a foreign person, group, organization, or government in conflict with the
                         national security interest; (d) any statement or action that shows allegiance to a
                         country other than the United States: for example, declaration of intent to renounce
                         United States citizenship; renunciation of United States citizenship.
                         (a) sexual behavior of a criminal nature, whether or not the individual has been
                         prosecuted; (b) a pattern of compulsive, self-destructive, or high-risk sexual behavior
       Guideline D:      that the person is unable to stop or that may be symptomatic of a personality
     Sexual Behavior     disorder; (c) sexual behavior that causes an individual to be vulnerable to coercion,
                         exploitation, or duress; (d) sexual behavior of a public nature and/or that which
                         reflects lack of discretion or judgment.
                         (a) deliberate omission, concealment, or falsification of relevant facts from any
                         personnel security questionnaire, personal history statement, or similar form used to
                         conduct investigations, determine employment qualifications, award benefits or
                         status, determine security clearance eligibility or trustworthiness, or award fiduciary
                         responsibilities; (b) deliberately providing false or misleading information concerning
                         relevant facts to an employer, investigator, security official, competent medical
                         authority, or other official government representative; (c) credible adverse
                         information in several adjudicative issue areas that is not sufficient for an adverse
                         determination under any other single guideline, but which, when considered as a
                         whole, supports a whole-person assessment of questionable judgment,
                         untrustworthiness, unreliability, lack of candor, unwillingness to comply with rules
                         and regulations, or other characteristics indicating that the person may not properly
      Guideline E:       safeguard protected information; (d) credible adverse information that is not
    Personal Conduct     explicitly covered under any other guideline and may not be sufficient by itself for an
                         adverse determination, but which, when combined with all available information
                         supports a whole-person assessment of questionable judgment, untrustworthiness,
                         unreliability, lack of candor, unwillingness to comply with rules and regulations, or
                         other characteristics indicating that the person may not properly safeguard protected
                         information. This includes but is not limited to consideration of: (1) untrustworthy or
                         unreliable behavior to include breach of client confidentiality, release of proprietary
                         information, unauthorized release of sensitive corporate or other government
                         protected information; (2) disruptive, violent, or other inappropriate behavior in the
                         workplace; (3) a pattern of dishonesty or rule violations; (4) evidence of significant
                         misuse of Government or other employer's time or resources; (e) personal conduct or
                         concealment of information about one's conduct, that creates a vulnerability to
                         exploitation, manipulation, or duress, such as (1) engaging in activities which, if


www.oig.dhs.gov                                    118                                           OIG-14-20
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                        known, may affect the person's personal, professional, or community standing, or (2)
                        while in another country, engaging in any activity that is illegal in that country or that
                        is legal in that country but illegal in the United States and may serve as a basis for
                        exploitation or pressure by the foreign security or intelligence service or other group;
                        (f) violation of a written or recorded commitment made by the individual to the
                        employer as a condition of employment; (g) association with persons involved in
                        criminal activity.
                        (a) inability or unwillingness to satisfy debts; (b) indebtedness caused by frivolous or
                        irresponsible spending and the absence of any evidence of willingness or intent to pay
                        the debt or establish a realistic plan to pay the debt. (c) a history of not meeting
                        financial obligations; (d) deceptive or illegal financial practices such as embezzlement,
                        employee theft, check fraud, income tax evasion, expense account fraud, filing
                        deceptive loan statements, and other intentional financial breaches of trust; (e)
                        consistent spending beyond one's means, which may be indicated by excessive
                        indebtedness, significant negative cash flow, high debt-to-income ratio, and/or other
      Guideline F:
                        financial analysis; (f) financial problems that are linked to drug abuse, alcoholism,
       Financial
                        gambling problems, or other issues of security concern; (g) failure to file annual
     Considerations
                        Federal, state, or local income tax returns as required or the fraudulent filing of the
                        same; (h) unexplained affluence, as shown by a lifestyle or standard of living, increase
                        in net worth, or money transfers that cannot be explained by subject's known legal
                        sources of income; (i) compulsive or addictive gambling as indicated by an
                        unsuccessful attempt to stop gambling, "chasing losses" (i.e., increasing the bets or
                        returning another day in an effort to get even), concealment of gambling losses,
                        borrowing money to fund gambling or pay gambling debts, family conflict or other
                        problems caused by gambling.
                        (a) alcohol-related incidents away from work, such as driving while under the
                        influence, fighting, child or spouse abuse, disturbing the peace, or other incidents of
                        concern, regardless of whether the individual is diagnosed as an alcohol abuser or
                        alcohol dependent; (b) alcohol-related incidents at work, such as reporting for work
                        or duty in an intoxicated or impaired condition, or drinking on the job, regardless of
                        whether the individual is diagnosed as an alcohol abuser or alcohol dependent; (c)
      Guideline G:      habitual or binge consumption of alcohol to the point of impaired judgment,
        Alcohol         regardless of whether the individual is diagnosed as an alcohol abuser or alcohol
      Consumption       dependent; (d) diagnosis by a duly qualified medical professional (e.g., physician,
                        clinical psychologist, or psychiatrist) of alcohol abuse or alcohol dependence; (e)
                        evaluation of alcohol abuse or alcohol dependence by a licensed clinical social worker
                        who is a staff member of a recognized alcohol treatment program; (f) relapse after
                        diagnosis of alcohol abuse or dependence and completion of an alcohol rehabilitation
                        program; (g) failure to follow any court order regarding alcohol education, evaluation,
                        treatment, or abstinence.
                        (a) Any drug abuse (see above definition); (b) testing positive for illegal drug use; (c)
                        illegal drug possession, including cultivation, processing, manufacture, purchase, sale,
    Guideline H: Drug   or distribution; or possession of drug paraphernalia; (d) diagnosis by a duly qualified
      Involvement       medical professional (e.g., physician, clinical psychologist, or psychiatrist) of drug
                        abuse or drug dependence; (e) evaluation of drug abuse or drug dependence by a
                        licensed clinical social worker who is a staff member of a recognized drug treatment


www.oig.dhs.gov                                   119                                          OIG-14-20
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                         program; (f) failure to successfully complete a drug treatment program prescribed by
                         a duly qualified medical professional; (g) any illegal drug use after being granted a
                         security clearance; (h) expressed intent to continue illegal drug use, or failure to
                         clearly and convincingly commit to discontinue drug use.
                         (a) behavior that casts doubt on an individual's judgment, reliability, or
                         trustworthiness that is not covered under any other guideline, including but not
                         limited to emotionally unstable, irresponsible, dysfunctional, violent, paranoid, or
       Guideline I:
                         bizarre behavior; (b) an opinion by a duly qualified mental health professional that
      Psychological
                         the individual has a condition not covered under any other guideline that may impair
       Conditions
                         judgment, reliability, or trustworthiness; (c) the individual has failed to follow
                         treatment advice related to a diagnosed emotional, mental, or personality condition,
                         e.g. failure to take prescribed medication.
                         (a) a single serious crime or multiple lesser offenses; (b) discharge or dismissal from
                         the Armed Forces under dishonorable conditions; (c) allegation or admission of
       Guideline J:      criminal conduct, regardless of whether the person was formally charged, formally
    Criminal Conduct     prosecuted or convicted; (d) individual is currently on parole or probation; (e)
                         violation of parole or probation, or failure to complete a court-mandated
                         rehabilitation program.
                         (a) deliberate or negligent disclosure of classified or other protected information to
                         unauthorized persons, including but not limited to personal or business contacts, to
                         the media, or to persons present at seminars, meetings, or conferences; (b) collecting
                         or storing classified or other protected information in any unauthorized location; (c)
                         loading, drafting, editing, modifying, storing, transmitting, or otherwise handling
                         classified reports, data, or other information on any unapproved equipment including
                         but not limited to any typewriter, word processor, or computer hardware, software,
      Guideline K:       drive, system, gameboard, handheld, "palm" or pocket device or other adjunct
   Handling Protected    equipment; (d) inappropriate efforts to obtain or view classified or other protected
      Information        information outside one's need to know; (e) copying classified or other protected
                         information in a manner designed to conceal or remove classification or other
                         document control markings; (f) viewing or downloading information from a secure
                         system when the information is beyond the individual's need to know; (g) any failure
                         to comply with rules for the protection of classified or other sensitive information; (h)
                         negligence or lax security habits that persist despite counseling by management; (i)
                         failure to comply with rules or regulations that results in damage to the National
                         Security, regardless of whether it was deliberate or negligent.
                         (a) any employment or service, whether compensated or volunteer, with: (1) the
                         government of a foreign country; (2) any foreign national, organization, or other
      Guideline L:       entity; (3) a representative of any foreign interest; (4) any foreign, domestic, or
    Outside Activities   international organization or person engaged in analysis, discussion, or publication of
                         material on intelligence, defense, foreign affairs, or protected technology; (b) failure
                         to report or fully disclose an outside activity when this is required.




www.oig.dhs.gov                                    120                                         OIG-14-20
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                        (a) illegal or unauthorized entry into any information technology system or
                        component thereof; (b) illegal or unauthorized modification, destruction,
                        manipulation or denial of access to information, software, firmware, or hardware in
                        an information technology system; (c) use of any information technology system to
                        gain unauthorized access to another system or to a compartmented area within the
    Guideline M: Use    same system; (d) downloading, storing, or transmitting classified information on or to
     of Information     any unauthorized software, hardware, or information technology system; (e)
      Technology        unauthorized use of a government or other information technology system; (f)
         Systems        introduction, removal, or duplication of hardware, firmware, software, or media to or
                        from any information technology system without authorization, when prohibited by
                        rules, procedures, guidelines or regulations. (g) negligence or lax security habits in
                        handling information technology that persist despite counseling by management; (h)
                        any misuse of information technology, whether deliberate or negligent, that results in
                        damage to the national security.

   Source: Memo from Stephen Hadley on December 29, 2005, Attachment A: “Revised 

   Adjudicative Guidelines for Determining Eligibility for Access to Classified Information”.





www.oig.dhs.gov                                  121                                        OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix G
   Disposition Summaries for 13 Employees Investigated in
   Connection with Events in Cartagena
   Employee 1

   Employee 1 told inspectors he                             the FFN, and that the FFN
                                                                The FFN confirmed Employee
   1’s description of events. On the night of the incident, he consumed                drinks.
   Employee 1 was evaluated as “                 indicated” on a national security polygraph
   examination. On                 , SCD suspended Employee 1’s Top Secret security
   clearance.

                                                   SCD reinstated Employee 1’s security
   clearance, with a warning, on                . The security clearance reinstatement letter,
   which warns that any future incident involving conduct which raises a security concern
   may result in the immediate suspension and revocation of Top Secret clearance, cites
   concerns related to the following adjudicative guidelines as conduct calling into
   question suitability for a security clearance:

       • Adjudicative Guideline B (foreign influence);
       • Adjudicative Guideline E (personal conduct); and
       • Adjudicative Guideline G (alcohol consumption).

   On                 Employee 1 was issued a Memorandum of Counseling as a result of

   this incident.

    Employee 2


   Employee 2 told inspectors he and the FFN                        , and that the FFN
                                                      . Inspectors could not locate the FFN.
   However, the FFN who was with Employee 12 told inspectors the woman
                                     . On the night of the incident, Employee 2 consumed
                     . Employee 2 was evaluated as “                  indicated” on a national
   security polygraph examination, and was evaluated as “
                                          On                , SCD suspended Employee 2’s
   Top Secret security clearance. SCD reinstated Employee 2’s security clearance, with a 

   warning, on                The security clearance reinstatement letter, which warns that
   any future incident involving conduct which raises a security concern may result in the 

   immediate suspension and revocation of Top Secret clearance, cites concerns related to 

www.oig.dhs.gov                                122                                    OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   the following adjudicative guidelines as conduct calling into question suitability for a
   security clearance:

       • Adjudicative Guideline B (foreign influence);
       • Adjudicative Guideline D (sexual behavior);
       • Adjudicative Guideline E (personal conduct); and
       • Adjudicative Guideline G (alcohol consumption).

   On                 Employee 2 was issued a Memorandum of Counseling as a result of

   this incident.

   Employee 3


   Employee 3 told inspectors he                                    the FFN, but that while
                                                                      The employee said he
                                                                                              .
   On the night of the incident, Employee 3 consumed                    The FFN
   confirmed that                        Employee 3
           The FFN told inspectors the employee paid
   take her back to his hotel. On              SCD suspended Employee 3’s Top Secret
   security clearance.

   Employee 3 was evaluated as “                 indicated” on a national security polygraph
   examination and was evaluated as “
                            SCD reinstated Employee 3’s security clearance, with a warning,
   on                The security clearance reinstatement letter, which warns that any
   future incident involving conduct which raises a security concern may result in the
   immediate suspension and revocation of Top Secret clearance, cites concerns related to
   the following adjudicative guidelines as conduct calling into question suitability for a
   security clearance:

       • Adjudicative Guideline B (foreign influence);
       • Adjudicative Guideline E (personal conduct); and
       • Adjudicative Guideline G (alcohol consumption).

   On                 Employee 3 was issued a Memorandum of Counseling as a result of

   this incident.





www.oig.dhs.gov                                123                                    OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Employee 4 


   Employee 4 voluntarily informed inspectors that on                   he
        with an FFN                                            Employee 4 said
                 . On the night of the incident, he consumed
   SCD suspended Employee 4’s Top Secret security clearance. Employee 4 was evaluated

   as “               indicated” on a national security polygraph examination, and was
   evaluated as “                                                         . The FFN involved
   could not be located.                      , SCD issued to Employee 4 a Notice of
   Determination revoking his security clearance. The Notice of Determination cites
   security concerns related to the following guidelines as reasons for the revocation of his
   security clearance:

       • Adjudicative Guideline B (foreign influence);
       • Adjudicative Guideline D (sexual behavior); and
       • Adjudicative Guideline E (personal conduct).

   Employee




   revocation of Employee 4’s security clearance. The CSO said



               The CSO concluded the employee’s conduct showed poor judgment, a failure
   to exercise self control, and a disregard for security rules and regulation, and that the
   employee’s




                                                              Employee 4 resigned from the
   agency

   Employee 5

   USSS’ interviews with Employee 5 and the FFN confirmed that the subject paid for
   sexual services and was                        the supervisor who conducted the
   management inquiry in Colombia. Employee 5 wrote in a sworn statement that
www.oig.dhs.gov                               124                                   OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



                                                On the night of the incident, he consumed
                      On                , SCD suspended Employee 5’s Top Secret security
   clearance. 


                      USSS proposed the removal of Employee 5. The proposed removal
   was based on Conduct Unbecoming a Secret Service
          . The Notice of Proposed Removal letter states the employee paid a prostitute for
   sexual services and cites the following violations as reasons for proposed removal:

        •	 USSS standards of conduct (USSS PER-05(1));
        •	 notoriously disgraceful conduct, or other conduct that is prejudicial to the
           Government (USSS PER-05(2)); and
        •	 negligence in the performance of official duties, conduct which brings disrepute
           to the agency (USSS PER-05(5)).

   With regard to security concerns, the Notice of Proposed Removal for Employee 5 states
   the employee’s actions could provide a foreign intelligence service, security service, or
   other criminal element the means to exert coercion or blackmail. However, USSS made
   the determination to initiate the security clearance revocations process following a
   recommendation by the DHS Office of Chief Human Capital Officer to revoke the
   employee’s security clearance                                                     .

                  , SCD revoked Employee 5’s security clearance, and USSS subsequently
                                    . The Notice of Determination for security clearance
   revocation cites security concerns related to the following guidelines as reasons for the
   revocation of his security clearance:

       • Adjudicative Guideline B (foreign influence);
       • Adjudicative Guideline D (sexual behavior); and
       • Adjudicative Guideline E (personal conduct, including lack of candor and 

         dishonesty).




                                                                                             .
   Employee 5 believed the agency

                  Furthermore, Employee 5



www.oig.dhs.gov                               125	                                    OIG-14-20
                              OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


                                                                   Employee 5 said he

                   .

   In our previous report, we credited the initial management inquiry conducted by the
   Miami SAIC immediately following the incident with helping USSS respond to the
   incident. Regarding

                                                    This employee’s security clearance
   was revoked.

                                                                                 an
   employee                                 and arrived at the airport
   accompanied by unknown females (see page 45).

                                         the revocation of Employee 5’s security clearance.




                                                                      . Employee 5 was
   removed from the USSS effective
                      .

                  , Employee 5 alleged                         was denying him due
   process
                                                                            The Chair of
   the Board explained that



www.oig.dhs.gov                              126                                  OIG-14-20
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



   Employee 6


   Employee 6 told USSS Inspectors he engaged                with an FFN in his hotel room.
   He said the FFN                                             The FFN stated Employee 6
   paid for sexual services. On the night of the incident, Employee 6 consumed
          On                 , SCD suspended Employee 6’s Top Secret security clearance.

                                 .

   Employee 6 was evaluated as                  indicated” on a national security polygraph
   examination.




                                 ”

                      SCD issued to Employee 6 a Notice of Determination revoking his 

   security clearance. The Notice of Determination cites security concerns related to the
   following guidelines as reasons for the revocation of his security clearance:

       • Adjudicative Guideline B (foreign influence);
       • Adjudicative Guideline D (sexual behavior); and
       • Adjudicative Guideline E (personal conduct, including lack of candor and 

         dishonesty).




                                                                        USSS proposed




www.oig.dhs.gov                               127                                     OIG-14-20
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                                                             Furthermore, Employee 6
   argued that he was denied due process
                                                                     allegations and
   concerns outlined in the Notice of Determination to revoke his security clearance. 


                                         the revocation of Employee 6’s security clearance.




                                   .




                                                     decision to revoke Employee 6’s security
   clearance

                                 Furthermore, the letter cites
                                lack of discretion and poor judgment related to his decision to
   bring an FFN prostitute to his hotel room, as actions calling into question Employee 6’s
   ability to protect classified information.

                    , subsequent to the revocation of Employee 6’s security clearance by 

   the Board, USSS issued to the employee a notice proposing removal from the agency. 

   Employee 6 was removed from the USSS effective 

                            .


   Employee 7


   Employee 7
                                                                                      told
   inspectors he engaged in                    with the FFN,
                                         The FFN told inspectors that
                           Employee 7 to take her to his hotel. On the night of the incident,

www.oig.dhs.gov                                128                                    OIG-14-20
                               OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Employee 7 consumed                          .
                                                         . After the examination,
   Employee 7 admitted to unreported contact with a foreign national. Furthermore,





                               .” On                 SCD suspended Employee 7’s Top Secret
   security clearance. 


                      Employee 7 resigned effective




                                                                            . Employee 7
   engaged in
         after the incident.


                                                                   SCD revoked his security 

   clearance. The Notice of Determination cites security concerns related to the following
   guidelines as reasons for the revocation of his security clearance:

       •	 Adjudicative Guideline B (foreign influence);
       •	 Adjudicative Guideline D (sexual behavior); and
       •	 Adjudicative Guideline E (personal conduct, including lack of candor and
          dishonesty).

                                 USSS proposed                         for Employee 7 based
   on his failure to maintain Top Secret clearance.



                                                                        .

                                           the revocation of Employee 7’s security
   clearance.

                                          the employee’s behavior in Cartagena placed him
www.oig.dhs.gov                               129	                                   OIG-14-20
                                OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   in a position where he was vulnerable to the threat of personal harm, coercion, or

   blackmail.



                                                                           .




                                                                                  ,
   USSS issued to the employee a notice proposing removal from the agency. Employee 7
   was removed from the USSS effective


   Employee 7 told OIG investigators that

                                                                        . The employee
   confirmed traveling to the country and having sexual relations with a foreign national, 

   and did not initially report the international travel to SCD.

                                               Upon returning to the United States, the
   employee reported the foreign national contacts from his Colombia trip to SCD.

   Employee 8


   Employee 8,
                 arrived in Cartagena on April , 2012. He brought         FFNs back to his
   hotel room. Employee 8 told inspectors
                           the FFNs asked that he pay for sexual services.     FFNs told
   inspectors that

         FFNs told inspectors      engaged in sexual services with the employee.

                                                                                       On

   the night of the incident, Employee 8 consumed                         Employee 8 was
   evaluated as “              ” indicated on a national security polygraph examination,

www.oig.dhs.gov                               130                                   OIG-14-20
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   and was evaluated as “

                    SCD suspended Employee 8’s Top Secret security clearance.




                                                                  SCD revoked his security
   clearance. The Notice of Determination cites security concerns related to the following
   guidelines as reasons for the revocation of his security clearance:

       •	   Adjudicative Guideline B (foreign influence);
       •	   Adjudicative Guideline D (sexual behavior);
       •	   Adjudicative Guideline G (alcohol consumption); and
       •	   Adjudicative Guideline E (personal conduct, including lack of candor and
            dishonesty).

   The following day, USSS proposed                                     Employee 8’s failure
   to maintain Top Secret clearance.


              . Further, he argued that

                                                                           that an SCD
   representative communicated to USSS employees during a briefing that a one-night
   stand would not need to be reported as a foreign contact.

                                            the revocation of Employee 8’s security
   clearance.


   the seriousness of roles and responsibilities of USSS. The CSO concluded that Employee

   8’s decision to bring                     back to the hotel

         showed questionable judgment raising concerns about his lack of discretion,
   trustworthiness, and ability to protect classified information. In addition, with regard to 

   Employee 8’s 




www.oig.dhs.gov                                131	                                    OIG-14-20
                                        OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                                       Employee 8 was advised that the proposal




                                                               the revocation of Employee 8’s
   security clearance, citing lack of discretion and poor judgment in bringing
                back to his hotel room                 the President was scheduled to arrive
   in Cartagena,
           , as raising concerns about the employee’s ability to protect classified 

   information.



   Employee 9


   Employee 9 arrived in Cartagena April , 2012. That night, he solicited an FFN
   prostitute and engaged in                     with her in his hotel room. Interviews with
   Employee 9 and the FFN confirmed that the he paid for sexual services. On the night of

   the incident, he consumed                  . On                SCD suspended Employee
   9’s Top Secret security clearance.
                  SCD suspended Employee 9’s security clearance on                   . The
   Notice of Suspension of Top Secret Clearance letter cites “possible inappropriate 

   involvement with a foreign national while on a protective assignment in a foreign 

   country” as the reason for security clearance suspension.


   Employee 9 alleged that he felt coerced

   Employee 9 faced removal                                                               .
   However, as previously discussed, when an agency warns an employee of its intent to
   take legitimate disciplinary action and there is no evidence that the employee was not
   able to exercise a free choice, the employee’s decision to resign is not considered
   coerced. 38


   38
        Braun v. Department of Veterans’ Affairs, 50 F.3d 1005, 1007 (Fed. Cir. 1995).

www.oig.dhs.gov                                               132                        OIG-14-20
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Employee 10


   Employee 10,
                 arrived in Cartagena on April     2012. On the night of April    2012,
   Employee 10 brought an FFN to his hotel room.
                                                             FFN told inspectors that she
   and Employee 10 engaged in                       . The FFN said payment for sexual
   services was both requested and received, though the FFN told inspectors that payment 

   was not discussed prior to sex. On the night of the incident, he consumed

                                   SCD suspended Employee 10’s security clearance on
                  The Notice of Suspension of Top Secret Clearance letter cites possible
   inappropriate involvement with a foreign national while on a protective assignment in a
   foreign country as the reason for security clearance suspension.


                     USSS provided Employee 10 with 


   The letter states that due to the employee’s security clearance suspension, it was
   determined that
                                                   , Employee 10 submitted a letter of
   resignation                         The employee states in resignation documents that
   his decision was made under limited time and therefore under duress.

   Employee 11


   Employee 11 arrived in Cartagena April       2012. On the night April   2012, he
   brought an FFN to his hotel room. Employee 11
                                                  the FFN said she and Employee 11 engaged
   in                    , and that the USSS employee paid for sex                     . On
   the night of the incident he consumed                      . Employee 11 was evaluated
   as “               indicated” on a national security polygraph examination, and was
   evaluated as “

   SCD suspended Employee 11’s security clearance on                 citing possible
   inappropriate involvement with a foreign national while on a protective assignment in a
   foreign country as the reason for security clearance suspension.

   Employee 11 resigned, effective                .




www.oig.dhs.gov                              133                                  OIG-14-20
                              OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security




   Employee 11 alleged during an interview with OIG investigators that

                        Employee 11 said
                                                           Employee 11’s assertion that




   Employee 12


   Employee 12 arrived in Cartagena on April     2012.            , he brought an FFN back
   to his hotel room. Employee 12 told inspectors he engaged in                     with
   the FFN, and that payment was requested                    . He said
                                                     . The FFN told inspectors that
   payment for sexual services was discussed prior to engaging in sexual intercourse, 

                                  On the night of the incident, he consumed
           Employee 12 was evaluated as “               indicated” on a national security
   polygraph examination, and was evaluated as “
                                During the course of the investigation,
                                                                       .

   SCD suspended Employee 12’s security clearance on                  citing possible
   inappropriate involvement with a foreign national while on a protective assignment in a 

   foreign country as the reason for security clearance suspension.
   Employee 12 resigned effective



   Employee 12 alleged that
                                                                            . However, we
   determined
                                  . USSS determined



www.oig.dhs.gov                              134                                   OIG-14-20
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


                                                                       .

   Employee 13

   Employee 13 arrived in Cartagena April , 2012.                              April
   2012, he brought an FFN back to his hotel room. Employee 13 told inspectors he and the
   FFN engaged in                     Furthermore, the employee said he gave the FFN
   money, but that payment had not been discussed prior to sex. Employee 13 was 

   evaluated as               indicated” on a national security polygraph.

                                                   On the night of the incident, he consumed


   SCD suspended Employee 13’s Top Security clearance on April , 2012, due to an
   investigation into his possible inappropriate involvement with a foreign national while
   on a protective assignment in a foreign country.                   , Employee 13 agreed
   to resign, effective
                                                                            .




www.oig.dhs.gov                              135                                   OIG-14-20
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix H
   Contributors to This Report
   Major Contributors

   William McCarron, Chief Inspector
   Paul H. Bergstrand, Lead Inspector
   Kimberley Lake de Pulla, Senior Inspector
   John Woo, Senior Auditor
   LaDana Crowell, Inspector
   Nicholas Ketter, Inspector
   Matthew Salaga, Inspector
   Ja’nelle Taylor, Inspector

   Other Contributors

   Jacqueline Simms, Lead Inspector
   Bette Jo Walker, Investigator
   Anna Hamlin, Senior Program Analyst
   James Miller, Senior Auditor
   E. Kristine Odiña, Senior Program Analyst
   Roger Thoet, Senior Auditor
   Matthew Worner, Senior Auditor
   Katherine Yutzey, Senior Inspector
   Carlos Aviles, Auditor
   David Bunning, IT Specialist
   Ryan Cassidy, Inspector
   Thea Calder, Program Analyst
   Kimberley Crabbe, Inspector
   Ebenezer Jackson, Program Analyst
   John Jadick, Program Analyst
   Nicole Nasiatka, Investigator
   Tanya Suggs, Inspector




www.oig.dhs.gov                                136                OIG-14-20
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix I
   Report Distribution
   Department of Homeland Security

   Acting Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Respective Component Head, if not the Addressee
   DHS Component Liaison
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Homeland Security




www.oig.dhs.gov                                137                  OIG-14-20
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
